                                  1




U.S. DEPARTMENT OF THE INTERIOR
Office of Inspector General




            Semiannual Report
                 April 1996
MESSAGE FROM THE INSPECTOR GENERAL


A
         s "agents of positive change," our         work in connection with the Indian Self-
         goal as Inspectors General is              Determination Act Negotiated Rulemaking
         twofold--"improvement in our               Committee, financial accounting system
agencies' management and program                    weaknesses and deficiencies within bureaus,
operations, and in our own offices." This           a financial management action plan for
office, now led by a new senior management          American Samoa, and operation and
team, has aggressively embraced both                maintenance rates for irrigation projects,
aspects of that goal.                               during the past 6 months our auditors have
                                                    also rendered advice concerning the
During the past 6 months, our continuing            development of the Department's new
efforts to improve the management and               personnel/payroll system, the streamlining
program operations at the Department of the         and reengineering of the Department's travel
Interior have included traditional audit and        program, and audit issues as they relate to
investigative activities, as well as various        grants administered by the Fish and Wildlife
proactive endeavors. Of particular note with        Service.
respect to our traditional audit activities
were our audits of bureau financial                 On the investigative side, our traditional
statements pursuant to the Chief Financial          activities were also supplemented with
Officers Act of 1990. Through the combined          several proactive efforts, including the
efforts of Office of Inspector General              continuation of our "Fraud Awareness"
auditors, and bureau and Departmental               outreach program designed, among other
personnel, significant improvements have            things, to sensitize Departmental employees
been made in the financial management               to factors that, when recognized, may
systems of the various bureaus.                     promote the early detection of fraud. We
                                                    have also expanded our task force
Proactively, our auditors in the U.S. Virgin        participation to include a fraud task force in
Islands have joined forces with the Federal         the Virgin Islands and an Indian gaming task
Emergency Management Agency's Office of             force in New Mexico, in addition to the
Inspector General and the Virgin Islands            already existing task forces in the
Bureau of Audit and Control in performing           Commonwealth of the Northern Mariana
audits designed to ensure that the                  Islands and in Arizona. Finally, we are
appropriate controls, systems, and                  launching a new initiative in which we intend
procedures are in place to permit federal           to pursue, in an aggressive manner, areas
disaster relief funds received by the Virgin        that may be potential candidates for the
Islands in the aftermath of Hurricane               Affirmative Civil Enforcement program.
Marilyn to be disbursed and accounted
for in accordance with applicable laws and          With respect to our own office, we have
regulations. Meanwhile, other auditors              been equally assiduous in pursuing our goal
continue to lend their expertise, proactively,      of improvement. Cost-cutting and
to a variety of projects under way at the           streamlining measures, organizational
Department. In addition to our advisory             restructuring, revision of the automated


  i                         Semiannual Report to the Congress: October 1, 1995 - March 31, 1996
management information system, and a            We will continue to pursue zealously the
variety of other internal measures are active   objective of making the theme “agents of
agenda items in varying stages of               positive change” not only a goal, but a
development. These measures are designed        reality.
                                                             CONTENTS
                                                                                                                                                             Page
Statistical Highlights . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . v
Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
  Department Profile . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
  OIG Organization . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
Audit Activity . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
Investigative Matters . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
Congressional Hearing . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
Legislative Review . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
Significant Audits and Investigations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
  Financial Statement Audits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
  Bureau of Indian Affairs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
  Bureau of Land Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
  Bureau of Reclamation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
  U.S. Fish and Wildlife Service . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
  U.S. Geological Survey . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
  Minerals Management Service . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
  National Park Service . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
  Office of Surface Mining Reclamation and Enforcement . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
  Insular Areas . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
  Multi-Office . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25

Appendices

1 - Summary of Audit Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .             26
2 - Audit Reports Issued and Indirect Cost Agreements Negotiated
    During the 6-Month Period Ended March 31, 1996 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                              27
    - Internal Audit Reports . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .        27
    - Contract Audit Reports . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          28
    - Single Audit Reports . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .        29
    - Indirect Cost Proposals . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .         42
3 - Monetary Impact of Audit Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                 48
4 - Audit Resolution Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .           49
    - Table I - Inspector General Audit Reports With Questioned Costs . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                     49
    - Table II - Inspector General Audit Reports With Recommendations That
      Funds Be Put To Better Use . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .              50
    - Table III - Inspector General Audit Reports With Lost or Potential Additional Revenues . . . . . . . . . .                                                  51
5 - Summary of Audit Reports Over 6 Months Old Pending Management Decisions . . . . . . . . . . . . . . . . . .                                                   52
    - Internal Audit Reports . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .        52
    - Contract Audit Reports . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          53
    - Single Audit Reports . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .        54
6 - Summary of Audit Reports Over 6 Months Old Pending Corrective Action . . . . . . . . . . . . . . . . . . . . . .                                              57
7 - Non-Federal Funding Included in Monetary Impact of Audit Activities
    During the 6-Month Period Ended March 31, 1996 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                              60
8 - Statutory and Administrative Responsibilities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                       61
9 - Cross-References to the Inspector General Act . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                       63


 iii                                         Semiannual Report to the Congress: October 1, 1995 - March 31, 1996
                                 STATISTICAL HIGHLIGHTS
Audit Activities
 Audit Reports Issued or Processed . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 466
   - Internal Audits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29
   - Contract Audits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
   - Single Audits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 413
  Indirect Cost Proposals Negotiated . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 168
Impact of Audit Activities - (Dollar Amounts in Millions)
  Total Monetary Impact . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . $230.6
   - Questioned Costs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . $4.4
   - Recommendations That Funds Be Put To Better Use . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . $149.8
   - Lost or Potential Additional Revenues . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . $76.4
  Internal Audit Recommendations Made . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 97
  Internal Audit Recommendations Resolved . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 78

Administrative Actions Taken by Bureaus
 Matters Referred for Administrative Action . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 72
 Removals/Resignations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
 Employee Suspensions (Totaling 65 days) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
 Reprimands . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
 Other Personnel Actions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
 Procurement Remedies . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
 General Policy Actions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

Investigative Activities
  Total Reports Issued . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 73
  Cases Closed . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 52
  Cases Opened . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 78
  Cases Pending . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 336
  Hotline Complaints Received . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 169
  Hotline Referrals Closed . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 115
  Hotline Referrals Pending . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 291

Impact of Investigative Activities
  Indictments/Informations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
  Convictions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
  Sentencings . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
   - Jail . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 479 months
   - Probation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1,164 months
   - Community Service . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 624 hours
  Cases Pending Prosecutive Action as of October 1, 1995 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 145
  Cases Referred for Prosecution This Period . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 39
  Cases Declined . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
  Cases Pending Prosecutive Action as of March 31, 1996 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 142
  Administrative Actions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 39
  Recoveries/Restitutions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . $814,610
  Civil Judgments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . $0
  Civil Referrals . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
  Civil Declinations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
  Civil Judgments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 0



  v                                              Semiannual Report to the Congress: October 1, 1995 - March 31, 1996
                     Department                         Administration of over
                     Profile                            500 million acres of Federal
                                                        land and trust responsibilities


                     T
                             he Congress created the for approximately 50 million
                             Department of the          acres of land, mostly Indian
                             Interior (DOI) on          reservations;
                     March 3, 1849, to manage the
                     Nation's internal affairs. As the Conservation and development
                     Nation's principal conservation of mineral and water
                     agency, DOI has responsibility resources;
                     for most of our nationally
                     owned public lands and natural Conservation, development,
                     resources. This includes           and utilization of fish and
                     fostering the use of our land      wildlife resources;
                     and water resources; protecting
                     our fish, wildlife, and biological Coordination of Federal and
                     diversity; preserving the          state recreation programs;
                     environmental and cultural
                     values of our national parks       Preservation and
Introduction         and historic places; and           administration of the Nation's
                     providing for the enjoyment of scenic and historic areas;
                     life through outdoor recreation.
                     DOI assesses our mineral           Operation of Job Corps
                     resources and works to ensure Conservation Centers and
                     that their development is in the Youth Conservation Corps
                     best interests of all our people Camps and coordination of
                     by encouraging stewardship         other manpower and youth
                     and citizen participation in their training programs;
                     care. DOI also has a major
                     responsibility for American        Reclamation of arid lands in
                     Indian reservation communities the West through irrigation;
                     and insular area governments. and

                     DOI has about 70,000              Management of hydroelectric
                     employees, spends about           power systems.
                     $9 billion a year, collects
                     revenues of about $6 billion a    DOI is also concerned with the
                     year, and is geographically       social and economic
                     dispersed to over 2,000           development of the insular
                     locations. The jurisdiction of    areas and administers programs
                     DOI includes:                     providing services to Indians
                                                       and Alaska Natives.




1              Semiannual Report to the Congress: October 1, 1995 - March 31, 1996
OIG Organization                 focal point for independent and   Management and Budget
                                 objective reviews of the          (OMB) circulars, and criminal
                                 integrity of operations; is the   and civil investigative


T
        o cover DOI's many and central authority concerned         authorities (see Appendix 8).
        varied activities, the   with the quality, coverage, and
        Office of Inspector      coordination of the audit and     The Inspector General
General (OIG) has a budget of investigative services of DOI;       recommends policies for and
$24 million and has 271          and reports directly to the       conducts, supervises, or
full-time employees.             Secretary of the Interior on      provides coordination between
Employees are under the          these matters. The Inspector      DOI and other Federal, state,
direction of the Assistant       General provides the means for    and local government agencies
Inspectors General for Audits, keeping the Secretary and the       for matters that promote
Investigations, and              Congress fully and currently      economy and efficiency and
Administration and are           informed about problems and       that prevent and detect fraud,
assigned to the headquarters     deficiencies relating to the      waste, and mismanagement. In
office in Washington, D.C., and administration of DOI              the insular areas of Guam,
field offices in:                programs and operations and       American Samoa, the Virgin
                                 the necessity for corrective      Islands, and the
Agana, Guam; Rapid City,         action.                           Commonwealth of the
South Dakota; Albuquerque,                                         Northern Mariana Islands, OIG
New Mexico; Sacramento,          In addition to the Inspector      performs the functions of
California; Arlington,           General's requirements for        government comptroller
Virginia; St. Paul, Minnesota; semiannual reporting to the         through audits of revenues,
Billings, Montana; St. Thomas, Secretary of the Interior and       receipts, expenditures, and
Virgin Islands; Lakewood,        the Congress in accordance        property in accordance with the
Colorado; Tulsa, Oklahoma;       with the Inspector General Act    Insular Areas Act of 1982
and Phoenix, Arizona             of 1978 (Public Law 95-452),      (48 U.S.C. 1422). OIG has
                                 as amended, OIG's mission         additional audit responsibilities
OIG provides policy direction encompasses a wide array of          in the Federated States of
for and conducts, supervises,    audit and investigative           Micronesia, the Republic of the
and coordinates all audits,      responsibilities (see             Marshall Islands, and the
investigations, and other        Appendix 9). These                Republic of Palau pursuant to
activities in DOI designed to    responsibilities include OIG's    the Compact of Free
promote economy and              review of various programs and    Association Act of 1985
efficiency or prevent and detect activities within DOI in          (Public Law 99-239). OIG's
fraud, waste, and                accordance with numerous          organizational chart is included
mismanagement. The               public laws, Office of            on the following page.
Inspector General is DOI's




 Semiannual Report to the Congress: October 1, 1995 - March 31, 1996                               2
                         U.S. DEPARTMENT OF THE INTERIOR
                                  OFFICE OF INSPECTOR GENERAL




       CHIEF OF STAFF AND
       COUNSELOR TO THE
      INSPECTOR GENERAL




                     1




          ASSISTANT                                                                          ASSISTANT
     INSPECTOR GENERAL                                                                  INSPECTOR GENERAL
         FOR AUDITS                                                                     FOR INVESTIGATIONS




                                                                                                     I

    Arlington, VA
                         I
                                          Caribbean               Electronic Data
                Regional Office         Regional Office             Processing
                                                                    Audit Staff

            I       Agana, Guam
                                  I I    St. Thomas,
                                        Virgin Islands    I   I   Lakewood, CO      I




3
                             SUMMARY OF    Proactive Audit
                             AUDIT RESULTS Accomplishments
                                                                Although the efforts of OIG

                             O
                                       IG auditors issued or
                                                                auditors are generally geared
                                       processed 466 audit
                                                                toward conducting audits,
                                       reports during this
                                                                during this reporting period,
                             period. Appendix 1
                                                                the auditors continued to
                             summarizes audit activities, and
                                                                devote a significant amount of
                             Appendix 2 lists the audit
                                                                time in providing technical
                             reports issued or processed and
                                                                assistance to DOI to improve
                             the indirect cost proposals
                                                                the efficiency and effectiveness
                             negotiated. Monetary findings
                                                                of DOI programs and
                             in these reports totaled $230.6
                                                                operations. In addition, we
                             million, which was composed
                                                                provided audit assistance to
                             of questioned costs, funds to be
                                                                another Federal OIG and
                             put to better use, and lost or
                                                                participated in two interagency
                             potential additional revenues.
                                                                task forces. Our proactive
                             Appendix 3 summarizes the
                                                                audit efforts are summarized as
                             monetary impact of audit
Audit Activity               activities. During this 6-month
                                                                follows:
                             period, OIG resolved $93.6
                             million of monetary findings.      Hurricane-Related Audits
                             Appendix 4 provides summary        Conducted in Cooperation
                             information of resolution          With FEMA's OIG
                             activity, Appendix 5 provides a
                             listing of audit reports over 6    On September 15, 1995,
                             months old pending                 Hurricane Marilyn struck the
                             management decisions, and          Virgin Islands, causing major
                             Appendix 6 provides a              damage to public and private
                             summary of audits over 6           structures and prompting the
                             months old pending final           President of the United States
                             action. Appendix 7 identifies      to issue a disaster declaration.
                             the non-Federal funds (from        Therefore, in accordance with
                             audits of the insular area         Section 203(b) of the Omnibus
                             governments) included in the       Insular Areas Act of 1992 (P.L.
                             monetary impact of audit           102-247), a report by the
                             activities.                        Secretary of the Interior, in
                                                                consultation with the Director
                                                                of the Federal Emergency
                                                                Management Agency (FEMA),
                                                                on the disaster recovery effort
                                                                will be due the Congress by
                                                                September 1996.




Semiannual Report to the Congress: October 1, 1995 - March 31, 1996                            4
In this regard, DOI's OIG, in      and services necessary for post-   Our intention is to produce a
cooperation with FEMA's OIG        Hurricane Marilyn cleanup and      report summarizing the results
and the Virgin Islands Bureau      reconstruction to ensure that      of the above projects which the
of Audit and Control, is           those procedures meet              Secretary of the Interior can
engaged in several projects that   applicable requirements.           incorporate into his report to
will fulfill the audit-related                                        the Congress.
requirements of the Act as         - Community Disaster Loan:
follows:                           At the request of the Governor     Audit Assistance in
                                   of the Virgin Islands, a team of   Development of New
- Overall Grant                    OIG and Virgin Islands             Personnel/Payroll System
Administration: A team of          auditors is reviewing the
OIG and Virgin Islands             central financial management  Our electronic data processing
auditors is reviewing the          system of the Government of   (EDP) audit staff assisted DOI
overall administration of          the Virgin Islands to ensure  on an ongoing basis in the
Hurricane Marilyn disaster         that financial and other      development of its new
relief funds by the Virgin         information that the          personnel/payroll system, the
Islands Office of Management       Government will have to       Federal Personnel/Payroll
and Budget (the FEMA               provide to FEMA to support a  System (FPPS). Our objective
grantee) to ensure that            community disaster loan can bewas to identify any internal
applicable grant administrative    produced timely and           control weaknesses in the
requirements, including the        accurately.                   FPPS documentation, specifi-
monitoring of subgrantee                                         cations, and processes and to
activities, are being met.     - Hurricane Hugo Closeout:        bring identified weaknesses to
                               Closeout reviews of disaster-     management's attention for
- Subgrantee Accounting        relief projects are being         corrective action before FPPS
Controls: A team of OIG and performed by a team of FEMA is implemented. To accomplish
Virgin Islands auditors is     and Virgin Islands auditors.      the objective, we reviewed:
reviewing the accounting       Funds for these projects were (1) unit and integrated testing
system controls at individual  provided by FEMA to the           plans; (2) payroll processes for
Government of the Virgin       Government of the Virgin          ensuring that critical processes
Islands agencies (subgrantees) Islands as a result of Hurricane were included in FPPS; and
to ensure that record-keeping Hugo, which occurred in            (3) interface requirements
systems and internal controls  September 1989. The               between FPPS and satellite
are adequate to properly       expeditious closeout of these     systems. As the development
account for and safeguard      projects is necessary to          process continued, our reviews
disaster relief funds.         facilitate record keeping for     ensured that, at the end of each
                               disaster relief funds provided to phase of development, the
- Hurricane-Related            the Government as a result of following occurred: (1)
Contracting: OIG auditors are Hurricane Marilyn.                 portions of FPPS would
reviewing the procurement                                        function as intended; (2) the
procedures used by the                                           appropriate internal controls
Government of the Virgin                                         were planned for; and (3)
Islands and, at FEMA's                                           sufficient audit trails existed for
request, the U.S. Army Corps                                     identifying and solving
of Engineers to acquire goods                                    problems. When processing


 5                         Semiannual Report to the Congress: October 1, 1995 - March 31, 1996
control weaknesses were           and audit environmental            Seminar on Auditing
identified, management was        liabilities; and (3) how to        Grants
notified, and the corrected       account for and audit heritage
processing controls were          assets within the Federal          At the request of FWS
incorporated into FPPS            Government. As a result of         officials, two OIG auditors
development products and          these efforts, guidance, policy,   conducted a seminar for FWS
tests.                            and requirements will be issued    personnel on audit activities
                                  in the form of OMB Circulars       related to annual Federal Aid in
Participation In                  for Chief Financial Officers Act   Sport Fishing Restoration and
Accounting/Auditing Task          requirements and updates to        Federal Aid in Wildlife
Forces                            the GAO financial audit manual     Restoration grants. FWS had
                                  and other GAO publications.        expressed an interest in
Since November 1995, an OIG                                          learning how the OIG audits
senior auditor has been           Staff Assistance on the            these grants and identifies
participating as a member of      Travel Reinvention                 issues that result in findings of
two task forces responsible for   Laboratory                         noncompliance. FWS indicated
developing accounting and                                            that it would provide
auditing guidance for the         An OIG senior auditor is           information from the OIG
implementation of the             serving on a DOI-wide              seminar to grant recipients
accounting standards              reinvention laboratory tasked      within the states to enable the
developed by the Federal          with streamlining and              recipients to avoid unallowable
Accounting Standards              reengineering DOI's travel         types of activities and
Advisory Board (FASAB)            program. The laboratory was        expenditures.
regarding property, plant, and    chartered by the Assistant
equipment and environmental       Secretary for Policy,              Internal Reviews Initiated
liabilities. In addition to the   Management and Budget in
senior auditor, the task forces   February 1996. DOI spends          We have continued to perform
are composed of senior            about $160 million annually on     self-critical reviews of our
officials from OMB; the           temporary duty travel plus an      audit operations to ensure that
General Accounting Office         estimated $50 million annually     we are operating effectively
(GAO); DOI's Office of            for indirect costs associated      and efficiently while we
Financial Management; the         with administering the travel      provide appropriate coverage
Department of the Treasury;       program. The objectives of the     of DOI's vast array of
and certain other Federal         laboratory are to improve          programs and functions. For
agencies. The task forces also    service to travelers, reduce       example, we are: (1) refining
include representatives from      direct and indirect travel costs   our audit universe (inventory of
major public accounting firms.    to DOI, and maintain the           the programs and functions for
                                  integrity of DOI's financial       which we have audit
The task forces are developing    systems.                           responsibility) in order to
issue papers and                                                     quantify audit resource
recommending actions for                                             requirements; and (2)
determining: (1) whether an                                          redefining the audit planning
environmental liability is                                           process by developing strategic
probable and can be estimated                                        plans and identifying audit
reasonably; (2) how to disclose                                      priorities. We also have


 Semiannual Report to the Congress: October 1, 1995 - March 31, 1996                                6
initiated a pilot program of
using a customer survey
questionnaire at the conclusion
of audits to determine whether
the audits are of maximum
utility to DOI offices and
programs. Further, we have
restructured our Headquarters
and regional operations to
reduce overhead, facilitate
effective team composition,
and improve utilization of
resources in the
accomplishment of our mission.




 7                        Semiannual Report to the Congress: October 1, 1995 - March 31, 1996
                             D
                                      uring the past 6         on in our last semiannual report
                                      months the Office of     to the Congress.
                                      Investigations has
                             conducted successful              Internal Reviews
                             investigations that resulted in
                                                               Initiated
                             22 indictments/informations,
                             17 convictions, and financial
                                                              With the arrival of a newly-
                             recoveries of $814,610, while
                                                              appointed Assistant Inspector
                             we continue with some existing
                                                              General for Investigations we
                             organizational efforts and
                                                              have begun to move on several
                             launch new initiatives.
                                                              initiatives as a result of a
                                                              management study
                             Task Force Participation commissioned by the Inspector
                             Expands                          General. For instance we are
                                                              studying our Department
                             Our participation in task forces complaint referral process to
                             continued with the               determine ways to decentralize
                             establishment of a U.S.          our headquarters operations
                             Attorney's task force in the     and be more responsive to the
Investigative                U.S. Virgin Islands to           Department at the field level.
                             investigate fraud in connection We are also in the midst of a
Matters                      with the Small Business          critical assessment of our
                             Administration (SBA) and the management information
                             Federal Emergency                system to make it more useful
                             Management Agency (FEMA) and less cumbersome.
                             relief programs made available
                             to the Islands in the aftermath Aggressive Outreach
                             of Hurricane Marilyn. In this
                                                              Program Continues
                             effort, we have joined forces
                             with FEMA, SBA, the U.S.
                                                              We are continuing with an
                             Marshals Service, the U.S.
                                                              aggressive “Fraud Awareness”
                             Postal Inspection Service, the
                                                              outreach program to enhance
                             Federal Bureau of Investigation
                                                              our prevention efforts through
                             (FBI), the U.S. Customs Ser-
                                                              education and interaction with
                             vice and local law enforcement
                                                              Departmental managers,
                             agencies.
                                                              contracting officers, personnel
                                                              specialists, inspectors, and
                             We also joined forces with the
                                                              other key employees
                             FBI and the Internal Revenue
                                                              concerning conditions or
                             Service in a U.S. Attorney's
                                                              systemic weakness that may
                             task force in the State of New
                                                              foster financial crimes. Special
                             Mexico involving Indian
                                                              agents visit field offices of
                             gaming issues. This task force
                                                              DOI Bureaus and make
                             is similar to the task force in
                                                              presentations on the nature of
                             the State of Arizona reported


Semiannual Report to the Congress: October 1, 1995 - March 31, 1996                          8
the OIG investigative effort.     new ACE teams consisting of        Department of Justice, ACE
The program promotes the          110 attorneys, investigators,      training conferences in Denver,
early detection of financial      and support staff funded from a    Colorado and Washington, DC.
crimes unique to DOI, which       special fund created by            The purpose of the conferences
can lead to earlier referrals.    Congress known as the "3%          is to acquaint key bureau
                                  fund." This fund devotes 3%        personnel, our own auditors
New Initiative                    of the money collected from        and investigators, and attorneys
                                  civil judgments to support         from the Department's
We are actively supporting an     additional financial litigation,   Solicitor's Office with the
initiative by the Department of   including the ACE program.         existence of the ACE initiative
Justice that targets fraud in                                        and the opportunities to use the
federal programs. This            Our support for the initiative     ACE program to combat fraud
initiative, called Affirmative    was demonstrated in a feature      and other forms of white collar
Civil Enforcement (ACE),          article in the ACE Reporter (a     crime. In addition, we are
demonstrates that imposing        Department of Justice Civil        committed to working with
civil penalties in fraud cases    Division newsletter). We           program officials within the
can be both an effective law      believe that an educational        Department of the Interior and
enforcement tool and a means      program in the Department,         with the Department of Justice
to compensate the government      supported by the Department's      to identify and develop
for its losses from               top management, could enable       appropriate cases for ACE
unscrupulous and corrupt          DOI to participate more            referrals.
individuals and organizations.    actively in the program. We        .
The United States Attorneys in    have therefore made plans to
37 districts have established     co-sponsor, with the




 9                         Semiannual Report to the Congress: October 1, 1995 - March 31, 1996
                              O
                                        n October 26, 1995,      Regarding H.R. 2025, the
                                        Inspector General        Inspector General stated that
                                        Wilma A. Lewis           the proposed legislation was
                              testified before the               consistent with previously
                              Subcommittee on National           expressed recommendations in
                              Parks, Forests, and Lands,         analogous contexts to expand
                              Committee on Resources, U.S.       the collection of fees for
                              House of Representatives,          various park uses. However,
                              about the OIG's audit of special   she suggested that increased
                              use fees in the National Park      specificity was needed in the
                              Service (NPS) and on H.R.          proposed legislation regarding
                              2025, Proposed Amendments          the expenditure of fees to
                              to the Land and Water              prevent the uncertainty and
                              Conservation Fund Act of           inconsistencies found in NPS's
                              1965. The section of the           implementation of special use
                              proposed amendment on which        fee authority. She also
                              she was asked to comment           recommended that the
                              would establish fees for           proposed legislation require
                              commercial nonrecreational         NPS to identify the major
                              uses in national parks.            commercial or nonrecreational
Congressional                                                    activities for which fees would
                              Regarding the audit, the           be charged. Further, NPS
Hearing                       Inspector General stated that      should be required to develop
                              NPS could not be assured that      guidance to assist individual
                              the appropriate amount of          park units in determining: (1)
                              special use fees was being         commercial or nonrecreational
                              collected. She indicated that      activities not specifically
                              the audit had found that NPS       identified; and (2) fees for
                              had not implemented its            commercial or nonrecreational
                              authority to collect and retain    uses that consider the factors
                              fees for special park uses in a    required by the Land and
                              consistent manner. She             Water Conservation Fund Act.
                              explained that there were
                              inconsistencies among the          The Inspector General
                              parks regarding: (1) the types     concluded her testimony with
                              of activities that were subject    the overall assessment that the
                              to a fee; (2) the bases for        proposed fee and cost recovery
                              determining the fee; and (3) the   program could be successfully
                              use of fee revenues. In            implemented if NPS continues
                              addition, she noted that our       its commitment to the
                              audit found deficiencies in the    development and
                              controls for collecting and/or     implementation of clear
                              accounting for fee revenues at     guidance, reliable accounting
                              4 of the 13 parks we reviewed.     systems, and effective program
                                                                 oversight. In that regard, the


Semiannual Report to the Congress: October 1, 1995 - March 31, 1996                           10
Inspector General noted that        and whether any other bureaus    charged and the amount of fees
NPS was in the process of           have authority to retain fees    that can be assessed are at the
revising guidance related to        which are not subject to         other. The OIG/SOL response
special park uses and that          appropriations; and              provided specific examples
similar attention would have to     2) whether any other Interior    along the continuum.
be paid to additional revisions     Bureaus or Federal agencies
necessitated by the proposed        have the authority to retain     The OIG/SOL also informed
legislation. She also stated that   the difference between actual    the Chairman that some
progress was being made in the      costs and fair market value      Interior Bureaus do have
development of reliable             for goods or services rendered   authority to retain fees which
accounting systems and that         without being subject to         are not subject to
our office could assist in the      appropriations?                  appropriations. However, the
development of effective                                             statutes which authorize this
program oversight through our      The OIG, in cooperation with activity vary on the amount of
annual audits of NPS's financial   the Solicitor's Office (SOL),     discretion accorded to the
statements conducted pursuant      responded on December 15,         bureau regarding how such
to the Chief Financial Officers    1995. The OIG/SOL informed funds must be spent. Again,
Act of 1990.                       the Chairman that the issue       the response provided specific
                                   regarding other Interior          examples.
In addition, on November 8,        Bureaus that have broad
1995, Subcommittee Chairman, discretion as to when and for           Finally, the OIG/SOL
James V. Hansen submitted          what types of activities they     responded that while our
two written questions to the       charge fees is best viewed as a review was not exhaustive, we
Inspector General, further         continuum on which bureaus        identified one Interior Bureau
exploring the user fees issue.     having little or no discretion in and one other federal agency
Chairman Hansen inquired: 1) their specific fee collection           that were authorized to retain
whether other Interior Bureaus activities are at one end, and        the difference between the
have broad discretion as to        bureaus having broad              actual cost and fair market
when to charge and for what        discretion on both the type of value of goods without being
types of activities to charge for, activities for which fees can be subject to appropriation.




11                         Semiannual Report to the Congress: October 1, 1995 - March 31, 1996
                              D
                                        uring the reporting     OIG also commented on the
                                        period, several         proposed Elimination of
                                        hundred legislative     Unnecessary Reports to
                              items were reviewed and,          Congress in the FY97 Budget.
                              where appropriate, commented      OIG's comments focused on
                              upon by OIG. The purpose of       reports proposed for
                              this effort was to monitor        elimination that OIG is
                              legislative proposals and         currently required to make to
                              evaluate their potential for      the Congress. OIG agreed
                              encouraging economy and           with the proposed elimination
                              efficiency and preventing fraud,  of five reports regarding audit
                              waste, and mismanagement in       activity, as they were
                              the programs and operations of    duplicative. OIG disagreed
                              DOI, as required by section       with the proposed elimination
                              4(a)(2) of the Inspector          of two reports required by the
                              General Act of 1978, as           Inspector General Act that go
                              amended.                          to the heart of the mission of
                                                                OIG: (1) the Semiannual
                              OIG provided comments on          Report to the Congress; and
                              legislation, including the        (2) the so-called "seven day
Legislative                   Ethics in Government Act          letter," the requirement that
                              Amendments of 1995. The bill particularly serious or flagrant
Review                        inserts a new provision           problems in the administration
                              requiring notification to the     of programs and operations
                              designated agency ethics          should be reported to the head
                              official, in advance of           of the agency, who, in turn,
                              acceptance, by certain high       must report them to the
                              level noncareer employees         Congress within 7 days of
                              (e.g., GS-15 and up), of all      receipt, along with appropriate
                              honoraria aggregating to $200 comments.
                              or more from any one source.
                              OIG supported the proposed
                              amendments because prior
                              notification can help avoid
                              conflicts of interest, as well as
                              the appearance of such
                              conflicts. Furthermore, such
                              reporting prior to the activity
                              makes the task of monitoring
                              somewhat easier than
                              attempting to rectify, after the
                              fact, any conflicts that would
                              be discovered.




Semiannual Report to the Congress: October 1, 1995 - March 31, 1996                          12
                                                    and two reports with
                   FINANCIAL                        disclaimers of opinions.
                   STATEMENT
                                                    Although they received
                   AUDITS                           qualified opinions on their
                                                    fiscal year 1995 financial


                   D
                            uring this semiannual
                                                    statements, notable
                            period, OIG audited
                                                    improvements were made by
                            and issued audit
                                                    the Bureau of Indian Affairs
                   reports on the financial
                                                    (BIA) and the U.S. Geological
                   statements of 10 of DOI's 12
                                                    Survey (USGS). Specifically,
                   bureaus and offices. These
                                                    in last year's reports, we were
                   audits are required by the Chief
                                                    unable to audit their financial
                   Financial Officers Act of 1990.
                                                    statements and therefore issued
                   Because of delays caused by
                                                    disclaimers. However, because
                   the Government furloughs and
                                                    of management’s commitment
                   the 1996 blizzard, these audit
                                                    in each bureau, major changes
                   reports were not issued by the
                                                    were made to improve financial
                   March 1, 1996, date required
                                                    reporting. For example:
                   by OMB Bulletin 93-18,
Significant        "Audited Financial
                   Statements." The financial
                                                    - BIA made significant
                                                    progress in correcting the
Audits and         statement audits of the Office
                                                    deficiencies in its accounting
                   of the Secretary and NPS were
                                                    records and internal control
Investigations     not issued by the end of this
                                                    structure for fiscal year 1995.
                   reporting period because
                                                    As a result, we were able to
                   additional efforts were needed
                                                    express a qualified opinion on
                   by NPS and DOI to correct and
                                                    BIA’s financial statements.
                   improve conditions reported in
                                                    This is a notable improvement
                   our previous reports.
                                                    from our prior audit reports on
                                                    BIA's financial statements, in
                   Based on the efforts of DOI
                                                    which we were unable to
                   and bureau financial managers,
                                                    express an opinion because
                   significant improvements were
                                                    BIA could not provide
                   made from last year.
                                                    documentation to support the
                   Specifically, 8 of the 10 audit
                                                    amounts reported. Our report
                   reports on the bureau’s fiscal
                                                    on the fiscal year 1995 financial
                   year 1995 financial statements
                                                    statements was qualified
                   issued by the end of this
                                                    because BIA was in the process
                   reporting period had
                                                    of completing, but had not
                   unqualified opinions, and 2
                                                    completed, corrective actions
                   reports had qualified opinions.
                                                    related to amounts reported for
                   Last year, for the same
                                                    property, plant, and equipment;
                   bureaus, we issued six reports
                                                    accounts receivable; deposit
                   with unqualified opinions, two
                                                    fund liabilities; revenue; bad
                   reports with qualified opinions,


13           Semiannual Report to the Congress: October 1, 1995 - March 31, 1996
debt expense; and net position. during fiscal year 1995, both        We again issued unqualified
                                  bureaus took significant actions   opinions on the financial
- During fiscal year 1995,        to correct these conditions.       statements of the Minerals
USGS made significant             For example:                       Management Service (MMS),
progress in correcting the                                           the Office of Surface Mining
deficiencies identified in our    - BLM developed a plan,            Reclamation and Enforcement
last report on its financial      which was approved by the          (OSM), the Bureau of Mines
statements. Specifically, USGS Department, to begin the early        (BOM), and the Office of
implemented a fixed asset         implementation of the              Insular Affairs (formerly the
subsystem to its financial        FASAB's draft accounting           Office of Territorial and
management system and took standard on property, plant,              International Affairs). We also
action to correct the             and equipment. The draft           reported that these bureaus'
deficiencies identified in its    standard allowed the bureaus       internal accounting controls
property management system. to develop estimates for the             met the required internal
As a result, we were able to      values of property, plant, and     control objectives and that
express a qualified opinion on equipment when records to             there were no material
USGS's financial statements for support the actual costs were        instances of noncompliance
fiscal year 1995. This is an      not available. In addition, BLM    with provisions of laws and
improvement over our prior        was in the process of              regulations that we tested.
financial statement audit report, correcting its internal control
in which we were unable to        structure for its real property    Unqualified opinions were also
express an opinion because        system so that it could            issued on the financial
USGS did not have adequate        correctly account for and          statements of the Bureau of
support to substantiate the       report on real property in the     Reclamation (BOR) and the
amounts reported for most of future.                                 National Biological Service
its material accounts.                                               (NBS). However, we reported
                                  - FWS also began early             conditions that affected these
Improvements made by the          implementation of the              bureaus' internal control
Bureau of Land Management         FASAB's draft accounting           structure and compliance with
(BLM) and the U.S. Fish and       standard on property, plant,       laws and regulations. For
Wildlife Service (FWS)            and equipment by developing        example:
enabled us to issue unqualified and implementing a plan, which
opinions on their fiscal year     was approved by the                - NBS's internal accounting
1995 financial statements. In     Department. In accordance          control structure meets the
our financial statement audit     with its plan, FWS established     established internal control
reports issued last year on       reasonable estimated values for    objectives except for the
these bureaus, we issued          its property, plant, and           controls related to accounts
qualified opinions because of     equipment; reclassified most of    payable (accrued expenses) and
significant internal control      its land as stewardship land;      accounting for capitalized
weaknesses that affected our      and removed the related            equipment.
ability to determine whether      amount reported for land from
the account balances were         the financial statements.          - BOR's internal accounting
presented fairly for property,                                       control structure meets the
plant, and equipment and                                             established internal control
depreciation. However,                                               objectives except for the


Semiannual Report to the Congress: October 1, 1995 - March 31, 1996                                 14
controls related to the          the Northern Mariana Islands,  problems in procurement,
subsidiary records for real      the Government of Guam, and    contracting, budgeting, grant
property, and BOR has            the Government of the Virgin   accounting, and compliance
complied with applicable laws    Islands.                       reporting. Insular Affairs has
and regulations except for not                                  provided technical assistance to
enforcing cost recovery to      We concluded in our summary address these problems through
ensure compliance with the      reports that although each      direct grants and reimbursable
legislation establishing the    insular area government has     agreements with Federal
Working Capital Fund.           made improvements in each of Government agencies and has
                                the four functional areas noted provided training to
The financial statements of     above, further improvements     government employees in the
BOM and NBS were prepared are needed. We believe that           areas of census taking, tourism
assuming that the bureaus       each government can achieve     awareness, electrical utility
would continue as going         reasonable performance          operation, drug awareness,
concerns. However, BOM is       improvement goals in these      health care, bank examining,
scheduled to discontinue most four functional areas by          microcomputer systems, and
of its operations during fiscal working with the Office of      occupational safety. Courses
year 1996 and transfer the      Insular Affairs to implement    were also provided in
remaining portion of its        the recommendations made in governmental accounting,
operations to other designated previous audit reports. Areas auditing, management, and
Federal agencies. NBS is        that need to be improved are as procurement. (Summary
scheduled to be transferred to follows:                         report issued this semiannual
USGS during fiscal year 1996.                                   period.)
                                - The American Samoa
Financial Management in Government continues to                 - The Government of Guam
the Insular Areas               experience problems in          continues to experience
                                budgetary controls, long-term problems in expenditure
OIG developed an audit          debt, grants management,        control, revenue collection, and
strategy designed to assist the expenditure  control,  and      property management. Insular
insular area governments in     revenue collection. Insular     Affairs has provided technical
making improvements in          Affairs has led efforts to      assistance to address these
(1) financial management,       address  these  problems  by    problems through direct grants,
(2) expenditure control,        providing technical assistance reimbursable agreements with
(3) revenue collection, and     to the Government and by        Federal and local government
(4) program operations. In      training Government             agencies, and contracts with
order to be able to measure     employees   in  the areas of    private firms. Various training
subsequent improvements in      governmental accounting,        courses also have been
these areas, we summarized      auditing, management,     and   provided, including
the current status of           procurement. (Summary           governmental accounting and
improvements in financial       report issued  this semiannual  strategic planning and
management and program          period.)                        budgeting. (Summary report
operations based on the results                                 issued this semiannual period.)
of previous audits of the       - The Commonwealth of the
Government of American          Northern Mariana Islands
Samoa, the Commonwealth of continues to experience


15                        Semiannual Report to the Congress: October 1, 1995 - March 31, 1996
- The Government of the          years 1993 and 1994. In            direct loan proceeds to
Virgin Islands continues to      addition to not seeking regular    purchase a business from the
experience problems in payroll   rate increases to cover the full   credit officer and then
operations, procurement          cost of delivering water, BIA      defaulted on the full amount of
management, and data             had not ensured compliance         the loan. Investigation also
processing. Insular Affairs has  with existing requirements for     disclosed that the credit officer
provided technical assistance,   the billing and collection of      had previously falsified BIA
and the Government has made      operation and maintenance          and other documents to obtain
significant improvements in the  charges and for surety bonds or    a $150,000 loan through a
problem areas identified.        other securities. Further, BIA     private lending institution
Training has been provided in    had not taken adequate action      insured by the Federal Deposit
governmental accounting,         to recover reimbursable            Insurance Corporation. In
auditing, data processing,       construction costs in a timely     February 1996, the credit
grants management,               manner from non-Indian             officer and the other two
contracting, procurement, and    landowners for seven projects.     individuals were indicted on
budgeting. (Summary report       Specifically, reimbursable         conspiracy and false statement
issued in a previous Semi-       construction costs totaling $7.7   charges. In addition, the credit
annual period.)                  million were not collected from    officer was charged with bank
                                 the landowners for five            fraud and witness tampering.
BUREAU OF                        projects, and reimbursable         Judicial action is pending.
                                 costs of $3.3 million were not
INDIAN AFFAIRS included in the repayment                            School Employees
                                 contracts for two projects. This   Sentenced for
Improvements in                  occurred because BIA had not
                                                                    Embezzlement
Irrigation Project               negotiated repayment
                                 contracts, adjusted repayment
Administration Needed rates, or followed required                   The business manager and two
                                                                    other employees of a Federally
                                 procedures necessary to collect
BIA did not base operation and                                      funded Indian school in
                                 the reimbursable construction
maintenance rates for irrigation                                    Arizona were indicted in
                                 debt from non-Indian
projects on the full cost of                                        September 1995 after an OIG
                                 landowners. BIA agreed with
delivering water, including the                                     investigation disclosed that
                                 all of our recommendations to
cost of systematically                                              they had embezzled
                                 correct these conditions.
rehabilitating and replacing                                        approximately $185,000 from
project facilities and                                              the school. The embezzlement,
equipment. As a result, project Three Indicted in Bank              which occurred over a 3-year
revenues have been insufficient Fraud Scheme                        period, prevented the
to adequately maintain the                                          construction of a much-needed
projects, some of which have     Investigation disclosed that the   gymnasium at the school and
deteriorated to the point that   former credit officer for a        severely curtailed other student
the continued delivery of        South Dakota Indian tribe          activities. A Federal grand jury
water is doubtful. Specifically, conspired with two other           in Phoenix, Arizona, returned
BIA had not recovered            individuals in a fraudulent        an indictment charging each
operation and maintenance        scheme to obtain a $215,000        subject with theft or
charges totaling $3 million      BIA direct loan. The two           embezzlement from an Indian
owed eight projects for fiscal   individuals used the $215,000      tribal organization. The


Semiannual Report to the Congress: October 1, 1995 - March 31, 1996                               16
indictments of the individuals     the theft, the Director            The tribal official was arrested
were reported in our last          misappropriated tribal funds to    on February 8, 1996, pursuant
Semiannual Report.                 partially replace the missing      to an arrest warrant issued by a
                                   BIA Higher Education Funds.        magistrate for the Central
Each of the individuals            The trial is pending.              District of California, Los
subsequently pled guilty.                                             Angeles, California. Trial is
The business manager was           Two Tribal Officials               pending.
sentenced to 15 months of          Charged in
incarceration, to be followed                                      Tribal Officials
                                   Embezzlement
by 3 years of supervised                                           Convicted for
probation. She was also
                                   A tribal official in California Embezzling Travel
ordered to make restitution to
                                   was indicted on July 26, 1995, Funds
the school in the amount of
                                   on five counts of theft or
$98,744.47. One of the other
                                   embezzlement from an Indian  Four former members of a
employees was sentenced to 5
                                   tribal organization. The     tribal business committee were
years of supervised probation
                                   indictment stated that the   found guilty of embezzlement
and was ordered to make
                                   individual charged a variety of
                                                                after a trial in the Western
restitution to the school in the
                                   personal purchases valued at District of Oklahoma. An OIG
amount of $19,354.54.
                                   more than $8,700 to a tribal investigation disclosed that the
Sentencing of the third
                                   American Express credit card,former Chairperson, Business
employee is pending.
                                   including an AK-47 assault   Manager, Comptroller, and a
                                   rifle, a 9mm Uzi assault     General Business Committee
Tribal Official Indicted           weapon, and a 12-gauge       member embezzled $14,196
for Embezzlement From              shotgun. On November 27,     from tribal travel funds by
Scholarship Fund                   1995, the subject pled guilty to
                                                                submitting claims for expenses
                                   one count of a five-count    that were not incurred. The
On December 14, l995, a            indictment of embezzlement offour officials were sentenced in
Federal grand jury in Great        tribal funds. Sentencing is  U.S. District Court, Oklahoma
Falls, Montana, returned an        pending.                     City, Oklahoma, to a total of
indictment charging the                                         318 months of imprisonment
Director of Education for a     In a related case, another      and 600 months of probation
Montana Indian tribe with one former California Indian tribal and were ordered to pay
count of theft of public money official was indicted on January restitution and special
and one count of theft or       23, 1996, on 18 counts of theft assessments in the total amount
embezzlement from an Indian or embezzlement from an             of $2,756.20. Additionally,
tribal organization. The        Indian tribal organization.     three of the four officials were
indictment was the result of an The subject made personal       ordered to perform 624 hours
OIG investigation which         purchases with a tribal         of community service.
disclosed that the director had American Express credit card,
taken more than $4,000 in BIA which were subsequently paid
Higher Education Funds for his for with tribal funds. The
personal use from the           subject also conspired to have
scholarship fund of a tribally  three tribal checks issued to
operated college. When an       himself. This embezzlement of
audit of Federal funds revealed tribal funds exceeded $11,000.


17                          Semiannual Report to the Congress: October 1, 1995 - March 31, 1996
Company Sentenced for            organization. An OIG               certain aspects of its map sales,
Facilitating Sale and            investigation revealed that the    map orders, and map inventory
                                 supervisor embezzled over          activities. In addition, the
Illegal Transportation of
                                 $108,000 and falsified             vehicle fleet was underutilized,
Gambling Devices                 documents to conceal the           with the result that some
                                 thefts. The supervisor was         vehicles could be turned in.
A grand jury investigation       sentenced in U.S. District         Although State Office officials,
conducted by a Federal Task      Court, Minneapolis,                at our exit conference,
Force on Indian Gaming in        Minnesota, to 4 months of          concurred with our
Minnesota revealed that a New imprisonment, 120 days of             recommendations to improve
Jersey-based company             home detention, and 3 years of     control of their administrative
facilitated the sale and illegal probation; ordered to make         activities, a response to this
transportation of video          restitution in the amount of       report was not due by the end
gambling machines and related $4,628; and ordered to pay a          of this reporting period.
machine parts to Michigan        special assessment of $50.
Indian casinos prior to the
1993 establishment of gaming                                        Internet Abuse Detected
compacts between the State of BUREAU OF
                                                                    Concerns regarding the
Michigan and Indian tribes       LAND                               integrity and security of the
within the State. The company
pled guilty after being named    MANAGEMENT                         BLM computer system were
defendant in a 106-count                                            raised when a BLM senior
indictment returned in the U.S. Improvements in                     systems analyst provided a
District Court, District of                                         BLM user account number
                                 Administrative Activities          allowing access to a worldwide
Minnesota, St. Paul,             Needed at Colorado
Minnesota. The company was                                          Internet connection to at least
sentenced to 1 year of
                                 State Office                       25 members of a locally based
probation, fined $5,000, and                                        bulletin board service. The
                                 BLM's Colorado State Office        BLM domain name was
ordered to pay a special
                                 was generally conducting its       purportedly used to manage E-
assessment of $400. The court
                                 administrative activities in       mail messages for forwarding
departed from Federal
                                 accordance with requirements.      to a public bulletin board
sentencing guidelines based on
                                 However, actions were needed       server. Covert Internet
substantial cooperation
                                 to ensure compliance with          accounts were provided by
received from the company
                                 requirements in the areas of       other cooperating law
during the investigation.
                                 cash management, deposit of        enforcement agencies to enable
                                 mining fees, map inventories,      OIG to become a member of
Casino Supervisor                and vehicle utilization.           the bulletin board. Because of
Pleads Guilty to                 Specifically, the State Office     the rapidly emerging
Embezzlement                     was not reconciling daily          technology in the Internet area,
                                 receipts with daily deposits or    issues in the investigation
A bingo money room               using appropriate budgetary        involving the expectation of
supervisor at a tribal casino in activity accounts to account for   privacy were coordinated with
the Midwest pled guilty to two mining fees. It also was not         the U.S. Attorney's Office,
counts of embezzlement and       providing sufficient               District of Colorado, and the
theft from an Indian tribal      management control over            Computer Crimes Division,


Semiannual Report to the Congress: October 1, 1995 - March 31, 1996                               18
U.S. Department of Justice.         position to improperly access    expenses. Delivery orders on
Internet connectivity through       criminal information on an       the Summitville project were
the BLM was tested by passing       individual in a non-work-        beyond the scope of the initial
Internet E-mail messages to         related matter, which he         contract award. We reported
and from the bulletin board         subsequently divulged to         that BOR should have
service. OIG inquiries              others. The BLM Special          performed further analyses of
determined that Internet            Agent obtained the information   the procurement method and
connectivity was electronically     from a state-owned and           the qualifications of the
routed through the BLM              -operated law enforcement data   contractor.
computer system. Remote             base. The case was declined by
examination of the material         the local District Attorney's    For example, we believe that
contained on the bulletin board     Office and was referred to       subcontracting for production
by modem revealed that the          BLM. Administrative action is    work on three delivery orders,
messages were not related to        pending.                         totaling $12.5 million, indicates
Government business and                                              that BOR may have had the
originated both nationally and                                       opportunity to reduce costs by
internationally. Corrective
                                    BUREAU OF                        competing and awarding
action was taken by BLM             RECLAMATION separate contracts for the
management, and a policy                                             work thereby avoiding the
statement was developed             Contract Not                     contractor's profit and
addressing Internet usage and       Administered                     overhead on these orders.
access within BLM.                                                   In regard to contract
                                    Adequately                       administration, we found that
In addition, due to the potential                                    BOR: (1) did not establish
                                    BOR did not ensure that costs
for misuse of the Internet, the                                      formal inspection procedures;
                                    related to the award of delivery
OIG has recommended the                                              (2) paid a fee to the contractor
                                    orders under a contract to
establishment and wide                                               that may represent an
                                    clean up the Summitville Mine
dissemination of a Department-                                       unallowable interest payment
                                    site, near South Fork,
wide policy regarding the use                                        or additional profit that was
                                    Colorado, were fair and
of and access to the Internet.                                       not authorized under the
                                    reasonable. BOR neither
We also recommended that                                             contract; and (3) incurred, on
                                    adequately evaluated the
each bureau, as appropriate,                                         four occasions, costs on the
                                    contractor's proposed costs or
establish and disseminate its                                        Summitville project in excess
                                    its purchasing system nor
own specific policies within the                                     of funds authorized. BOR
                                    considered alternative
Departmental guidance.                                               officials disagreed with 6 of the
                                    contractors for portions of the
                                                                     10 recommendations made in
                                    cleanup effort. As a result, the
Employee Investigated                                                our audit report.
                                    amount billed by the contractor
for Improper Access and             through December 31, 1994,
Release of Information              which was based on negotiated Contractor's Claim Not
                                    contract rates, exceeded actual Substantiated
Based upon a complaint              costs by $5.3 million. This
received from BLM, an OIG           amount was in addition to        A subcontractor proposed and
investigation determined that a     profit negotiated into contract claimed costs of $529,049
BLM Special Agent in the            prices for labor, overhead, and related to concrete form work
western United States used his      general and administrative       and stripping on a parking


19                         Semiannual Report to the Congress: October 1, 1995 - March 31, 1996
structure at Hoover Dam,           not established procedures to     Employee Sentenced for
Nevada. The subcontractor's        determine under what              Embezzlement
claim was part of an overall       conditions housing units should
certified claim of $31,040,071     be kept and maintained. We    An OIG investigation
submitted by the contractor to     also found that FWS needed to determined that an FWS office
BOR. The claim stated that         improve controls over         automation clerk embezzled
increased and additional costs     accounting for and using      $12,271.60 from the agency by
had occurred because of            quarters account funds and to submitting fraudulent invoices
contract changes; differing site   ensure that rental rates for  and forged claims for
conditions; and incomplete,        Government furnished quarters reimbursement to several
inaccurate, and uncoordinated      were properly established.    imprest fund cashiers for
contract documents. We             FWS agreed with all of our    payment. The employee
questioned $330,600 of the         recommendations to correct    admitted that he embezzled the
subcontractor's claimed costs      these conditions.             money to support a drug habit.
of $529,049 because claimed                                      The individual was
costs were based on the          Contract Costs for              subsequently indicted on five
subcontractor's proposed rates,  Fencing Questioned              counts of theft or conversion of
which were higher than the                                       public funds. The employee
audited rates; exceeded actual   A contractor submitted a        pled guilty, and on October 17,
costs; were not attributable to  $107,624 claim to FWS on a      1995, he was sentenced to 120
BOR actions; or could not be     $56,552 fixed price contract to days of home detention and
substantiated by the accounting  construct fencing around the    placed on probation for 5
records. The audit was in the    boundary of the Ash Meadows years. In addition, he was
resolution process at the end of National Wildlife Refuge in     ordered to participate in a drug
this reporting period.           Pahrump, Nevada. Because        rehabilitation program and to
                                 FWS was unable to obtain the make full restitution of
                                 required permits, the           $12,271.60 to FWS.
U.S. FISH AND                    contractor could not begin
WILDLIFE                         work on the fencing and
                                 subsequently moved its          U.S.
SERVICE                          equipment from the job site.
                                 FWS postponed work on the
                                                                 GEOLOGICAL
Excess Employee                  fence and compensated the       SURVEY
Housing Exists                   contractor for moving its
                                 equipment, which increased the Property Management
FWS had more Government          contract price to $59,600. Of Improved
furnished quarters than it       the $107,624 claimed, we
needed to house employees        questioned $104,555. The        USGS has made substantial
essential to the effective       audit was in the resolution     improvements in the physical
operation of its programs.       process at the end of this      management of its capitalized
Specifically, 98 (25 percent) of reporting period.               property. However,
the 387 quarters managed by                                      deficiencies still existed in its
the three regions we reviewed                                    controls for recording
were classified by the regions                                   acquisition costs in the
as vacant. Further, FWS had                                      property system. We estimated


Semiannual Report to the Congress: October 1, 1995 - March 31, 1996                            20
that the $335 million property     to 1 year in jail and 3 years ofof a house. Investigation
and equipment balance as of        probation and was ordered to    initiated in 1993 disclosed that
September 30, 1994, was            pay $5,000 in restitution. On   the employee improperly
overstated by at least $5.9        February 12, l996, the          claimed and was paid $55,250
million and that the recorded      employee pled guilty to the     in conjunction with the house
acquisition costs for equipment    theft of Government funds.      sale. Pursuant to a referral to
totaling about $1.9 million        Sentencing of the employee is   the U.S. Department of Justice,
were not adequately supported      pending.                        Washington, D.C., the
by the accounting records.                                         Regional Solicitor for DOI, on
USGS concurred with our                                            behalf of MMS, filed a civil
recommendations to correct
                                   MINERALS                        complaint under the Program
deficiencies in its controls.      MANAGEMENT                      Fraud Civil Remedies Act of
                                                                   1986. On February 27, 1996,
                                   SERVICE                         the employee was served with a
Theft of $32,000 Results
in Guilty Pleas                                                    civil complaint seeking
                                   Contract Costs for              recovery of $115,500 on behalf
An employee with USGS
                                   Aquatic Activities              of MMS. (The Program Fraud
in Wyoming signed and              Questioned                      Civil Remedies Act of 1986
improperly issued 74 USGS                                          provides for recovery of double
third-party draft payments         MMS awarded, through the        damages and a penalty of
totaling $32,050. The              Small Business Administration, $5,000 per occurrence.)
employee falsified contract        four cost-plus-fixed-fee
documents in an attempt to         contracts totaling $1,681,539   Company Assessed
conceal the embezzlement.          after modifications. The        Penalties for Violating
Seventy-two of the drafts          contracts were awarded to       Regulations
were made payable to an            study California coastal
accomplice, who negotiated the     commercial and sport fisheries, An OIG investigation disclosed
drafts and split the proceeds      monitor grey whales, and        that a Louisiana-based
with the USGS employee. The        administer technical            company violated MMS
employee also issued two other     conferences on the Alaska and regulations governing sub-
drafts to an associate, who        Pacific Outer Continental       surface safety devices in off-
cashed the drafts and gave the     Shelves. Of the $1,665,636      shore oil and gas production
money to the employee. On          claimed, we questioned          facilities (wells) operated by
November 29, l995, a Federal       $720,169 in unsupported costs. the company. Based on the
grand jury indicted the            The audit was in the resolution investigative findings, the
employee and accomplice on         process at the end of the       Regional Director, Gulf of
one count of conspiracy, three     reporting period.               Mexico Region, MMS, initi-
counts of theft or conversion of                                   ated three civil penalty actions
public funds, and one count of     $115,000 Civil Complaint against the company. Follow-
aiding and abetting. On            Filed                           ing a civil penalty hearing, the
February 1, l996, the                                              Reviewing Officer determined
accomplice pled guilty to one      In 1990, an MMS employee in that the activities of the com-
count of conspiracy to defraud     California filed a false        pany were violations of MMS
the Government and was             permanent change of station     safety regulations and assessed
sentenced on March 29, 1996,       travel claim regarding the sale penalties totaling $172,400.


21                        Semiannual Report to the Congress: October 1, 1995 - March 31, 1996
NATIONAL PARK                      In addition, we identified           recommendation to adequately
                                   weaknesses in the controls for       control or account for the
SERVICE                            collecting and/or accounting         notices.
                                   for special use fee revenues at
Special Park Use Fees              4 of the 13 parks we reviewed        Increased Efficiencies
Not Administered                   and found that 11 of the parks
                                                                        Needed
                                   carried over special use fee
Consistently                       revenues totaling $331,864 into
                                                                        Losses by a concessioner
                                   fiscal year 1995. According to
NPS did not consistently                                                operating in the National Park
                                   NPS records, NPS carried over
implement its authority to                                              System were attributable, in
                                   special use fee revenues
collect and retain fees for                                             part, to unprofitable operations
                                   totaling $514,456 from all
special park uses, such as                                              at selected parks; high
                                   parks into fiscal year 1995.
weddings, commercial filming,                                           overhead costs; and unusual
                                   NPS agreed to expedite the
and athletic events. Under the                                          expenses incurred during 1993
                                   revision of its NPS-wide policy
special use provisions of NPS's                                         for legal fees, fringe benefits,
                                   regarding special park uses.
Appropriations Acts for 1991                                            and pension payments. Despite
through 1994 to collect and                                             concessioner-implemented
retain fees, we found that some Violation Notices Not                   cost-cutting measures, we
parks had instituted special use Controlled Adequately                  believe that the concessioner
permit fees for major activities                                        will continue to sustain losses
and some had converted             NPS's United States Park             unless unprofitable operations
existing fee activities to special Police did not adequately            are curtailed or eliminated;
use fee activities so that they    control or account for all           operating and overhead costs
could retain the revenues. A       violation notice forms assigned      are controlled; and revenues
combination of both methods        to its officers. As a result, Park   are increased through raised
was also used. Also, there         Police records did not contain       prices for food services. We
were differences among the         information on the disposition       also found that NPS needs to
parks regarding: (1) the types of 92 (34 percent) of the 270            improve its monitoring and
of activities that were subject    notice forms we reviewed, and        guidance regarding the
to a fee; (2) the bases for        the Park Police had no               concessioner's use and
determining the amount of the assurance that these notices              investment of special account
fee; and (3) the use of fee        were defaced, lost, or voided        funds. NPS agreed with all of
revenues. For example,             for valid reasons. Although          our recommendations.
although some parks issued         Park Police guidance requires
permits for special use, only      that requests for cancellation of    Employee Resigns
some of those parks collected violation notice forms be made            Following OIG
fees for the special use activity. in writing and approved by an
                                                                        Investigation
NPS guidelines did not provide officer at the rank of captain or
park managers with sufficient      above, the Park Police did not
                                                                        An OIG investigation revealed
guidance on when to use the        enforce these requirements.
                                                                        that a former NPS employee
cost or market approach in         Further, it did not have a
                                                                        submitted a fraudulent
establishing fees, the types of    system for reconciling lists of
                                                                        application for employment to
costs to include in the fees, or blank notice forms assigned to
                                                                        NPS in response to a vacancy
the documentation necessary to officers with lists of notices
                                                                        announcement at a park in
support the fee determination. issued. NPS agreed with our


Semiannual Report to the Congress: October 1, 1995 - March 31, 1996                                  22
Florida. The former employee        concluded that further staff       been deleted from OSM's
falsely represented on the          reductions were warranted,         accounting records, and $1.6
application and supporting          which could result in savings of   million of uncollectible charges
documentation that he was           about $820,000 annually.           had accrued on bankruptcy
entitled to a 10-point veterans     OSM officials indicated that       debt. However, we did not
preference. The employee            they were committed to making      find significant amounts of
resigned after receiving a          further staff reductions as the    unprocessed collectible debt.
Proposed Notice of Removal          debt work load decreased. We
from NPS.                           also found that further action   We recommended that OSM
                                    to enforce collection of         and the Solicitor enter into an
                                    delinquent accounts is needed,   agreement to ensure the timely
OFFICE OF                           even though only a relatively    processing of debt and to
SURFACE                             small amount of OSM's            facilitate the termination of
                                    reclamation fee receivables      uncollectible debt. We also
MINING                              became delinquent (in fiscal     recommended that OSM: (1)
                                    year 1994, for example, about    maintain the Division of Debt
RECLAMATION                         98 percent of all fees were paid Management staff at the level
AND                                 in a timely manner).             needed to process delinquent
                                    Specifically, OSM needed to      debt efficiently; (2) implement
ENFORCEMENT                         ensure that bureau, DOI, and     administrative controls to
                                    Federal regulations pertaining   ensure that required debt
Further Improvements                to the debt collection function  collection functions are
Needed In Debt                      were implemented                 performed in compliance with
Collection                          comprehensively.                 Federal regulations; and (3)
                                                                     review the status of debt that
OSM and the Solicitor's Office      Although the Solicitor's office has been referred to the
have improved their debt            had made significant progress Solicitor to ensure that
collection programs since our       in reducing the backlog of debt receivables are reported
last audit in 1990. However,        cases, we found that debt        accurately and accounted for
we identified actions needed to     processing delays may be         fully. Based on OSM's and the
improve the efficiency and          exacerbated by recent staff      Solicitor's responses to the
effectiveness of these programs     reductions and additional case draft report, we consider all the
and to ensure full compliance       work assignments. At the two recommendations resolved.
with Federal debt collection        offices reviewed, $8.0 million
requirements.                       of debt had not been processed Control Improvements
                                    in a timely manner, consisting Needed
Since 1987, OSM has                 of $6.3 million that should have
significantly reduced the           been written off and $1.7        At the request of OSM, we
staffing level in its Division of   million that required further    reviewed selected aspects of its
Debt Management by about 75         processing to determine          Eastern Support Center's
percent in response to a            whether the debt was             emergency reclamation
decreasing work load.               collectible. An additional $2.5 program. We found that OSM
However, based on our               million of uncollectible debt    was taking timely action to
analysis of the Division's fiscal   (consisting mainly of cases      address mining-related
year 1994 work load, we             closed by the Solicitor) had not emergencies, although


23                          Semiannual Report to the Congress: October 1, 1995 - March 31, 1996
improvements were needed in                                  travel expense reports, and to
internal controls over the
                                    INSULAR AREAS            ensure that travel is adequately
award and administration of                                  justified. The Legislature’s
emergency contracts,                AMERICAN SAMOA response to the draft report
particularly at the Southern                                 was sufficient for us to
Apalachia Branch Office.            Legislative Expenditures consider the recommendations
Appropriate contract award          Not Controlled           resolved.
procedures were not always          Adequately
followed, and the project                                              COMMONWEALTH
design and cost estimation          The Legislature of American
processes were inadequate.                                             OF THE NORTHERN
                                    Samoa routinely incurred
In addition, construction           expenditures in excess of
                                                                       MARIANA ISLANDS
contracts were not monitored        appropriations, employed
effectively, and 4 of the 50        temporary personnel in excess      Public Land Policies Not
project files reviewed did not      of terms authorized by law, and    Developed Effectively
contain sufficient                  did not adequately control or
documentation to adequately         account for time and               The Marianas Public Land
support program eligibility         attendance of Legislative          Corporation, now the Division
determinations. The contract        employees. In addition, the        of Public Lands, Department of
monitoring deficiencies             Legislature did not ensure that    Lands and Natural Resources,
contributed to contractor           goods and services were            did not effectively develop
claims for additional work          procured competitively,            management policies,
totaling about $450,000 and an      nonexpendable property was         procedures, and controls
overpayment to one contractor       adequately accounted for and       related to public land. As a
of $24,000. OSM generally           controlled, documentation was      result, the Commonwealth lost
agreed with our                     submitted to support travel        $118.4 million on completed
recommendations to ensure           expenditures, and the need for     exchanges of public land, could
that expedited contract award       travel was adequately justified.   lose $70.1 million on pending
procedures are used only when       The President of the Senate        exchanges, and lost revenues of
justified; basic design plans for   and the Speaker of the House,      $25.1 million on exchanged
each project are prepared and       Legislature of American            public land that was leased to a
reviewed independently;             Samoa, concurred with our          developer by landowners. In
project cost estimates are fully    recommendations to ensure          addition, lease revenues of
supported; project oversight        that appropriated funds are        $565,000 were lost, and the
actions are fully documented in     available for expenditures, to     Government may lose
the project files and project       release all temporary              additional lease revenues of
oversight reports are complete      employees employed for over 1      $469.2 million over the
and prepared in a timely            year, to implement policies and    unexpired period of the leases;
manner; and project eligibility     procedures to control time and     homestead recipients
determinations are adequately       attendance reporting, to make      improperly received $7 million
supported. In that regard,          procurements competitively to      from the unauthorized sale or
OSM had initiated actions to        the extent required by law, to     lease of the lots; and
improve the program before          record nonexpendable property      homestead lots were awarded
our audit was completed.            when it is received, to ensure     to applicants who were
                                    that travelers file the required   ineligible or who did not have


Semiannual Report to the Congress: October 1, 1995 - March 31, 1996                                 24
the greatest need.                 unallowable because they were     unacceptably high levels, along
Recommendations made to the        not related to Park activities.   with the associated Workers'
Governor included ensuring         A response to this report was     Compensation costs, which
that current appraisals were       not due by the end of this        totaled nearly $45 million in
used for land transactions and     reporting period.                 1994.
that policies and procedures
were implemented for                                                 Also, Workers' Compensation
homestead lots. The Governor       MULTI-OFFICE                      cases attributable to work-
did not provide a response to                                        related accidents and illnesses
the report.                        Safety and Health                 were not reviewed periodically.
                                   Programs Not Managed Consequently, many previously
Park Costs Questioned                                                injured claimants continued to
                                   Effectively
                                                                     receive long-term Workers'
We questioned costs of                                               Compensation benefits despite
                                   The safety and health programs
$141,619 for grant and trust                                         having possibly recovered from
                                   managed by NPS, BLM, BIA,
funds totaling $1.6 million that                                     their disabilities. Moreover,
                                   BOR, and FWS were not
were applicable to the                                               approximately one-half of the
                                   effective in preventing work-
American Memorial Park,                                              1,233 DOI employees receiving
                                   related accidents and illnesses.
Commonwealth of the                                                  long-term benefits during 1994
                                   This occurred because senior-
Northern Mariana Islands.                                            potentially could have been
                                   level bureau management did
These grant and trust funds                                          rehabilitated and returned to
                                   not provide sufficient support
were provided for the                                                work, resulting in an $11.8
                                   and resources to emphasize the
establishment of the American                                        million savings. The Office of
                                   programs and because existing
Memorial Park to honor                                               the Secretary concurred with
                                   field-level policies and
Americans and Marianas who                                           all of the report’s
                                   procedures were not
died during the World War II                                         recommendations.
                                   implemented to ensure
Marianas Campaign. Amounts         reasonably safe workplaces.
claimed consisted of costs of      As a result, work-related
$139,488 that were questioned      accidents and illnesses in recent
because they were unsupported      years have risen to
and costs of $2,131 that were




25                         Semiannual Report to the Congress: October 1, 1995 - March 31, 1996
                                     APPENDIX 1
                           SUMMARY OF AUDIT ACTIVITIES
                       OCTOBER 1, 1995, THROUGH MARCH 31, 1996
                                     AUDITS PERFORMED BY:
                                              OTHER FEDERAL          NON-FEDERAL
                                                 AUDITORS              AUDITORS
                                               (With Review and      (With Review and
                                                 Processing by        Processing by
                          OIG STAFF                OIG Staff)           OIG Staff)

                      Internal and Contract
                             Audits            Contract Audits         Single Audits        TOTAL


REPORTS ISSUED TO:

Department/ Office
   of the Secretary
                                         2                       0                     10            12

  Fish and Wildlife
         and Parks
                                         9                       0                     90            99

     Indian Affairs                      2                       0                 200              202

Land and Minerals
     Management
                                         7                   11                        73            91

     Insular Areas                       7                       0                     12            19

 Water and Science
                                        10                       2                     28            40

     Other Federal
         Agencies                        3                       0                      0             3

          Subtotal                      40                   13                    413              466

INDIRECT COST RATES NEGOTIATED FOR:

 Indian Tribes and
     Organizations
                                       125                       0                      0           125

    State Agencies                      43                       0                      0            43

          Subtotal                     168                       0                      0           168

          TOTAL                        208                   13                    413              634




Semiannual Report to the Congress: October 1, 1995 - March 31, 1996                                  26
                                                                     APPENDIX 2

        AUDIT REPORTS ISSUED AND INDIRECT COST AGREEMENTS
          NEGOTIATED DURING THE 6-MONTH PERIOD ENDED
                           MARCH 31, 1996

     This listing includes all internal, contract, and single audit reports issued and indirect cost agreements negotiated during the 6-month period
     ended March 31, 1996. It provides report number, title, issue date, and monetary amounts identified in each report (*funds to be put to
     better use, **questioned costs, ***unsupported costs (unsupported costs are included in questioned costs), and ****lost or potential
     additional revenues).




INTERNAL AUDITS                                           BUREAU OF                                                 Commonwealth of the
                                                          RECLAMATION                                               Northern
BUREAU OF INDIAN                                                                                                    Mariana Islands
                                                          96-I-313 AWARD AND
AFFAIRS                                                   ADMINISTRATION OF CONTRACT                                96-I-157 STATUS OF
                                                          NO. 1425-2-CC-40-12260                                    IMPROVEMENTS IN FINANCIAL
96-I-530 BUREAU OF
                                                          WITH ENVIRONMENTAL                                        MANAGEMENT AND PROGRAM
INDIAN AFFAIRS PRINCIPAL
                                                          CHEMICAL CORPORATION                                      OPERATIONS, COMMONWEALTH
FINANCIAL STATEMENTS FOR
                                                          RELATED TO THE                                            OF THE NORTHERN MARIANA
FISCAL YEAR 1995 (3/7/96)
                                                          SUMMITVILLE MINE SITE                                     ISLANDS (11/30/95)
                                                          CLEANUP, BUREAU OF
96-I-641 REVIEW OF                                        RECLAMATION (3/14/96)
INDIAN IRRIGATION                                                                                                   96-I-596 MANAGEMENT OF
PROJECTS, BUREAU OF                                                                                                 PUBLIC LAND, COMMONWEALTH
                                                          96-I-635 BUREAU OF                                        OF THE NORTHERN MARIANA
INDIAN AFFAIRS (3/29/96)
                                                          RECLAMATION FINANCIAL                                     ISLANDS (3/20/96) *$125,391,648
 ****$14,000,000
                                                          STATEMENTS FOR FISCAL                                     & ****$27,439,716
                                                          YEARS 1994 AND 1995
BUREAU OF LAND                                            (3/29/96)
MANAGEMENT                                                                                                          Guam
                                                          96-I-644 WORKING
                                                          CAPITAL FUND, BUREAU OF                                   96-I-67 STATUS OF
96-I-463 BUREAU OF LAND
                                                          RECLAMATION (3/29/96)                                     AUDIT REPORTS ISSUED TO
MANAGEMENT COMBINED
                                                          ****$35,000,000                                           THE GOVERNMENT OF GUAM
FINANCIAL STATEMENTS FOR
                                                                                                                    (11/13/95)
FISCAL YEARS 1994 AND
1995 (2/23/96)                                            INSULAR AREAS
                                                                                                                    U.S. BUREAU OF MINES
96-I-638 INSPECTION OF                                    American Samoa
SELECTED ADMINISTRATIVE                                                                                             96-I-307 U.S. BUREAU OF
ACTIVITIES, COLORADO                                                                                                MINES PRINCIPAL FINANCIAL
                                                          96-I-206 STATUS OF                                        STATEMENTS FOR FISCAL
STATE OFFICE, BUREAU OF
                                                          IMPROVEMENTS IN FINANCIAL                                 YEARS 1994 AND 1995
LAND MANAGEMENT (3/29/96)
                                                          MANAGEMENT AND PROGRAM                                    (1/25/96)
                                                          OPERATIONS, AMERICAN
                                                          SAMOA GOVERNMENT
                                                          (12/22/95)                                                U.S. FISH AND WILDLIFE
                                                                                                                    SERVICE
                                                          96-I-533 AMERICAN SAMOA
                                                          LEGISLATURE, AMERICAN                                     96-I-270 OPERATION AND
                                                          SAMOA GOVERNMENT                                          MAINTENANCE OF GOVERNMENT
                                                          (3/22/96) *$1,707,308                                     FURNISHED QUARTERS, U.S.
                                                                                                                    FISH AND WILDLIFE SERVICE
                                                                                                                    (1/29/96) *$26,596

                                                                                                                    96-I-643 U.S. FISH AND


27                                           Semiannual Report to the Congress: October 1, 1995 - March 31, 1996
WILDLIFE SERVICE               NATIONAL BIOLOGICAL            96-I-634 SELECTED
FINANCIAL STATEMENTS FOR                                      ASPECTS OF THE EMERGENCY
FISCAL YEARS 1994 AND          SERVICE                        RECLAMATION PROGRAM,
1995 (3/29/96)                                                EASTERN SUPPORT CENTER,
                               96-I-636 NATIONAL              OFFICE OF SURFACE MINING
                               BIOLOGICAL SERVICE             RECLAMATION AND
U.S. GEOLOGICAL                FINANCIAL STATEMENTS FOR       ENFORCEMENT
SURVEY                         FISCAL YEARS 1994 AND          (3/29/96)
                               1995 (3/29/96)
96-I-466 CONSTRUCTION                                         96-I-639 DIVISION OF
OF THE ADDITION TO THE         NATIONAL PARK                  DEBT MANAGEMENT, OFFICE OF
EARTH RESOURCES                                               SURFACE MINING
OBSERVATION SYSTEM DATA        SERVICE
                                                              RECLAMATION AND
CENTER, U.S. GEOLOGICAL                                       ENFORCEMENT (3/29/96)
SURVEY (3/11/96)               96-I-49 SPECIAL USER
                               FEES, NATIONAL PARK            *$820,000

96-I-563 U.S.                  SERVICE (10/27/95)
GEOLOGICAL SURVEY                                             CONTRACT AUDITS
PRINCIPAL FINANCIAL            96-I-547 CONTROL OVER
STATEMENTS FOR FISCAL          VIOLATION NOTICES, U.S.
                               PARK POLICE, NATIONAL          BUREAU OF LAND
YEAR 1995 (3/13/96)
                               PARK SERVICE (3/29/96)         MANAGEMENT
96-I-607 PROPERTY
MANAGEMENT, U.S.               96-I-640 MANAGEMENT OF         96-E-42 COMPUTER
GEOLOGICAL SURVEY              THIRD-PARTY DRAFTS AT          SCIENCES CORPORATION,
(3/26/96)                      SELECTED LOCATIONS,            SYSTEM SCIENCES DIVISION,
                               NATIONAL PARK SERVICE          TECHNICAL PUBLICATIONS
                               (3/29/96) *$161,000            SUPPLIES ALLOCATION FOR
MINERALS                                                      FISCAL YEAR 1992
MANAGEMENT                     OFFICE OF INSULAR              (10/17/95)
SERVICE                        AFFAIRS                        96-E-43 COMPUTER
96-I-631 MINERALS                                             SCIENCES CORPORATION,
                               96-I-566 OFFICE OF             SYSTEM SCIENCES DIVISION,
MANAGEMENT SERVICE             INSULAR AFFAIRS COMBINING
FINANCIAL STATEMENTS FOR                                      TIMEKEEPING PRACTICES
                               FINANCIAL STATEMENTS FOR       (10/17/95)
FISCAL YEARS 1994 AND          FISCAL YEARS 1994 AND
1995 (3/29/96)                 1995 (3/14/96)
                                                              96-E-63 COMPUTER
                                                              SCIENCES CORPORATION,
MULTI-OFFICE                                                  SYSTEM SCIENCES
                               OFFICE OF SURFACE              DIVISION'S ORGANIZATION,
96-I-223 DEPARTMENT OF
                               MINING                         ACCOUNTING SYSTEM, AND
THE INTERIOR COMPLIANCE
                                                              SYSTEM OF INTERNAL CONTROLS
WITH LIMITATIONS ON            RECLAMATION AND                FOR FISCAL YEAR 1994
LOBBYING ACTIVITIES            ENFORCEMENT                    (10/23/95)
(12/15/95)
                               96-I-400 OFFICE OF             96-E-64 COMPUTER
96-I-609 SAFETY AND            SURFACE MINING                 SCIENCES CORPORATION,
HEALTH PROGRAM,                RECLAMATION AND                SYSTEM SCIENCES DIVISION,
DEPARTMENT OF THE              ENFORCEMENT FINANCIAL          COSTS INCURRED FOR THE FISCAL
INTERIOR (3/29/96)             STATEMENTS FOR FISCAL          YEAR ENDED MARCH 30, 1990
*$11,800,000                   YEARS 1994 AND 1995            (10/31/95)
                               (2/14/96)
                                                              96-E-105 COMPUTER
                                                              SCIENCES CORPORATION,
                                                              SYSTEM SCIENCES DIVISION,
                                                              DEPRECIATION EXPENSES FOR
                                                              FISCAL YEAR 1992
                                                              (11/8/95)




Semiannual Report to the Congress: October 1, 1995 - March 31, 1996                       28
96-E-106 COMPUTER                  U.S. GEOLOGICAL                 NON-DEPARTMENT OF
SCIENCES CORPORATION,
SYSTEM SCIENCES DIVISION,          SURVEY                          THE INTERIOR
COST VERIFICATION OF
INVOICE NO. 266, CONTRACT          96-E-155 TECOM, INC.,           96-E-462 VERIFICATION OF
NO. N652C30002 (11/8/95)           CONTRACT CLAIM                  WATCH QUOTA DATA FOR
                                   SUBMITTED TO THE U.S.           CALENDAR YEAR 1995
96-E-399 COMPUTER                  GEOLOGICAL SURVEY               SUBMITTED
SCIENCES CORPORATION,              UNDER CONTRACT NO.              BY FIRMS LOCATED IN THE U.S.
SYSTEM SCIENCES DIVISION,          14-08-0001-23460                VIRGIN ISLANDS (2/28/96)
COST OF FACILITIES                 (11/13/95) *$28,117
CAPITAL FOR 1991                                                   96-E-468 ACCOUNTING
(2/15/96)                          96-E-325 NFT                    CONTROLS FOR DISASTER
                                   INCORPORATED, COST              ASSISTANCE FUNDS,
                                   PROPOSAL FOR SOLICITATION       UNIVERSITY OF THE VIRGIN
BUREAU OF                          NO. RFP 6-6054 TO THE U.S.      ISLANDS (3/13/96)
RECLAMATION                        GEOLOGICAL SURVEY
                                   (2/2/96)                        96-E-569 VERIFICATION
96-E-48 ENVIRONMENTAL                                              OF WATCH QUOTA DATA FOR
CHEMICAL CORPORATION,              MINERALS                        CALENDAR YEAR 1995
COSTS INCURRED UNDER                                               SUBMITTED BY
BUREAU OF RECLAMATION              MANAGEMENT                      TIMEX CORPORATION (3/19/96)
CONTRACT NO. 1425-2-CC-40-12260    SERVICE
(10/13/95) *$5,800,000                                             NATIONAL PARK
                                   96-E-11 SOURCE ONE
96-E-613 SHOR-FORM,                MANAGEMENT, INC., COSTS         SERVICE
INC., CONTRACT CLAIM               INCURRED FOR FISCAL YEAR
SUBMITTED                          1993 (10/4/95)                  96-E-541 NATIONAL PARK
UNDER CONTRACT NO.                                                 CONCESSIONS, INC.,
1-CC-30-09150 (3/27/96)            96-E-21 AMERICAN                OPERATIONS UNDER CONTRACT
*$330,600                          MANAGEMENT SYSTEMS              NO. CC-0680-2-0001 WITH THE
                                   OPERATIONS CORPORATION,         NATIONAL PARK SERVICE
                                   COSTS INCURRED FOR THE          (3/11/96)
U.S. BUREAU OF MINES
                                   FISCAL YEAR ENDED
96-E-397 BURNETT                   DECEMBER 31, 1990 (10/5/95)     OFFICE OF INSULAR
ASSOCIATES, INC., FINAL                                            AFFAIRS
COSTS INCURRED UNDER               96-E-22 SOURCE ONE
BUREAU OF MINES CONTRACT           MANAGEMENT, INC., LABOR         96-E-269 TRUST AND
NOS. 1432-J0309012, -J0319005,     FLOORCHECK FOR FISCAL           GRANT FUNDS PROVIDED FOR
AND -J0329004 (3/4/96)             YEAR 1995 (10/10/95)            THE AMERICAN MEMORIAL PARK,
**$36,954 & ***$36,954                                             COMMONWEALTH OF THE
                                   96-E-26 MBC APPLIED             NORTHERN
                                   ENVIRONMENTAL SERVICES,         MARIANA ISLANDS (1/26/96)
U.S. FISH AND WILDLIFE             INCURRED AND FINAL COSTS        **$141,619 & ***$139,488
SERVICE                            UNDER MINERALS MANAGEMENT
                                   SERVICE CONTRACT NOS.
96-E-92 WASHBURN                   14-12-0001-30294, -30297, AND   SINGLE AUDITS
FENCING, CONTRACT CLAIM            -30327 (10/11/95)
SUBMITTED TO THE U.S. FISH         **$720,169 & ***$720,169        BUREAU OF INDIAN
AND WILDLIFE SERVICE                                               AFFAIRS
UNDER CONTRACT                     96-E-402 BATTELLE
NO.14-48-0001-94096 (LFG)          MEMORIAL INSTITUTE,
                                                                   96-A-1 RED CLIFF BAND OF
(10/31/95) *$104,555               BATTELLE COLUMBUS
                                                                   LAKE SUPERIOR CHIPPEWA
                                   OPERATIONS, COSTS INCURRED
                                                                   INDIANS, FISCAL YEAR ENDED
96-E-428 DISTRICT OF               FOR FISCAL YEAR 1994
                                                                   SEPTEMBER 30, 1993
COLUMBIA, COSTS INCURRED           (2/22/96)
                                                                   (10/2/95)
UNDER SPORT RESTORATION
GRANTS FROM THE U.S. FISH
AND WILDLIFE SERVICE
(2/20/96) **$11,770




29                           Semiannual Report to the Congress: October 1, 1995 - March 31, 1996
96-A-2 SWINOMISH               96-A-39 HOONAH CITY            96-A-69 ELK VALLEY
TRIBAL COMMUNITY, FISCAL       SCHOOL DISTRICT, FISCAL        RANCHERIA, FISCAL YEAR
YEAR ENDED                     YEAR ENDED JUNE 30, 1995       ENDED DECEMBER 31, 1993
DECEMBER 31, 1994 (10/2/95)    (10/12/95)                     (10/20/95)

96-A-6 POINT NO POINT          96-A-40 SOUTHWEST               96-A-76 DEVILS LAKE
TREATY COUNCIL, FISCAL         REGION SCHOOLS, FISCAL          PUBLIC SCHOOL DISTRICT
YEAR ENDED                     YEAR ENDED JUNE 30, 1995        NO. 1, FISCAL YEAR ENDED
DECEMBER 31, 1994 (10/3/95)    (10/12/95)                      JUNE 30, 1995 (10/20/95)

96-A-7 TULE RIVER              96-A-41 ST. CROIX               96-A-80 BIG BAY DE NOC
TRIBAL COUNCIL, FISCAL         CHIPPEWA OF WISCONSIN,          SCHOOL DISTRICT, FISCAL
YEAR ENDED                     FISCAL YEAR ENDED               YEAR ENDED JUNE 30, 1995
SEPTEMBER 30, 1994 (10/3/95)   SEPTEMBER 30, 1992              (10/20/95)
                               (10/12/95)
96-A-8 PAWNEE TRIBE                                            96-A-85 CHEYENNE RIVER
OF OKLAHOMA, TWO FISCAL        96-A-47 NATIVE VILLAGE          SIOUX TRIBE, FISCAL YEAR
YEARS ENDED                    OF KOTZEBUE, FISCAL YEAR        ENDED SEPTEMBER 30, 1994
DECEMBER 31, 1992              ENDED DECEMBER 31, 1994         (10/23/95)
(10/3/95)                      (10/19/95)
                                                               96-A-87 MESCALERO
96-A-9 SUSANVILLE              96-A-50 SMITH RIVER             APACHE TRIBE, FISCAL YEAR
INDIAN RANCHERIA, FISCAL       RANCHERIA, FISCAL YEAR          ENDED SEPTEMBER 30, 1994
YEAR ENDED                     ENDED DECEMBER 31, 1994         (10/26/95) **$15,199
DECEMBER 31, 1994 (10/3/95)    (10/19/95)
                                                               96-A-90 SANTA ANA
96-A-14 LEUPP SCHOOLS,         96-A-51 YUROK TRIBE,            PUEBLO, FISCAL YEAR ENDED
INC., FISCAL YEAR ENDED        FISCAL YEAR ENDED               SEPTEMBER 30, 1994
SEPTEMBER 30, 1991             SEPTEMBER 30, 1994              (10/26/95)
(10/4/95)                      (10/19/95)
                                                               96-A-93 FORT MCDERMITT
96-A-15 LEUPP SCHOOLS,         96-A-53 BISMARCK                PAIUTE-SHOSHONE TRIBE,
INC., FISCAL YEAR ENDED        PUBLIC SCHOOL DISTRICT          FISCAL YEAR ENDED
SEPTEMBER 30, 1992             NO. 1, FISCAL YEAR ENDED        SEPTEMBER 30, 1988
(10/4/95)                      JUNE 30, 1995 (10/17/95)        (10/30/95) **$5,457

96-A-16 LEUPP SCHOOLS,         96-A-61 MOORETOWN               96-A-94 FORT MCDERMITT
INC., FISCAL YEAR              RANCHERIA, FISCAL YEAR          PAIUTE-SHOSHONE TRIBE,
ENDED JUNE 30, 1993            ENDED DECEMBER 31, 1994         FISCAL YEAR ENDED
(10/4/95)                      (10/19/95) **$4,661             SEPTEMBER 30, 1989
                                                               (10/30/95) **$1,032
96-A-19 ALCHINI                96-A-62 RINCON SAN
BINITSEKEES NAHOLZHOOH         LUISENO BAND OF MISSION         96-A-95 FORT MCDERMITT
FOUNDATION, INC., FOR          INDIANS, FISCAL YEAR            PAIUTE-SHOSHONE TRIBE,
15 MONTHS ENDED                ENDED SEPTEMBER 30, 1993        FISCAL YEAR ENDED
SEPTEMBER 30, 1994             (10/19/95)                      DECEMBER 31, 1990
(10/5/95)                                                      (10/30/95) **$1,050
                               96-A-65 CONFEDERATED
96-A-36 LAKE AND               SALISH AND KOOTENAI             96-A-97 POJOAQUE
PENINSULA SCHOOL               TRIBES OF THE FLATHEAD          PUEBLO, FISCAL YEAR ENDED
DISTRICT, FISCAL YEAR          RESERVATION, FISCAL YEAR        SEPTEMBER 30, 1994
ENDED JUNE 30, 1995            ENDED SEPTEMBER 30, 1994        (10/30/95)
(10/12/95)                     (10/25/95) **$1,000
                                                               96-A-101 CAMPO BAND OF
96-A-38 DELTA/GREELY           96-A-68 NOOKSACK                MISSION INDIANS, FISCAL
SCHOOL DISTRICT, FISCAL        INDIAN TRIBE, FISCAL YEAR       YEAR ENDED
YEAR ENDED JUNE 30, 1995       ENDED DECEMBER 31, 1993         DECEMBER 31, 1994 (10/30/95)
(10/12/95)                     (10/19/95) **$52,000




Semiannual Report to the Congress: October 1, 1995 - March 31, 1996                           30
96-A-102 NORTHERN                    96-A-142 NATIVE VILLAGE         96-A-188 TOPPENISH
PLAINS INTERTRIBAL COURT             OF KWIGILLINGOK, FISCAL         SCHOOL DISTRICT NO. 202,
OF APPEALS, FISCAL YEAR              YEAR ENDED                      FISCAL YEAR ENDED
ENDED SEPTEMBER 30, 1992             DECEMBER 31, 1994 (11/8/95)     AUGUST 31, 1994 (11/24/95)
(10/31/95)
                                     96-A-143 SHOALWATER BAY         96-A-190 YAVAPAI-APACHE
96-A-103                             INDIAN TRIBE, FISCAL YEAR       TRIBE, FISCAL YEAR ENDED
SISSETON-WAHPETON SIOUX              ENDED SEPTEMBER 30, 1994        SEPTEMBER 30, 1991
TRIBE, FISCAL YEAR ENDED             (11/8/95)                       (12/4/95)
SEPTEMBER 30, 1994
(10/31/95) **$10,084                 96-A-144 MILLE LACS             96-A-191 YAVAPAI-APACHE
                                     BAND OF CHIPPEWA INDIANS,       TRIBE, FISCAL YEAR ENDED
96-A-110 LOWER SIOUX                 FISCAL YEAR ENDED               SEPTEMBER 30, 1992
INDIAN COMMUNITY, FISCAL             SEPTEMBER 30, 1994              (12/4/95)
YEAR ENDED                           (11/10/95)
SEPTEMBER 30, 1994 (11/3/95)                                         96-A-196 LOWER
                                     96-A-145 FORT BELKNAP           KUSKOKWIM SCHOOL
96-A-119 PLEASANT POINT              COMMUNITY COUNCIL, FISCAL       DISTRICT, FISCAL YEAR
PASSAMAQUODDY TRIBAL                 YEAR ENDED SEPTEMBER 30,        ENDED JUNE 30, 1995
COUNCIL, FISCAL YEAR                 1994 (11/9/95) **$8,365         (11/29/95)
ENDED SEPTEMBER 30, 1994
(11/6/95)                            96-A-165 CHIPPEWA CREE          96-A-199 DILLINGHAM
                                     TRIBE, FISCAL YEAR ENDED        CITY SCHOOL DISTRICT,
96-A-120 OTTAWA TRIBE                SEPTEMBER 30, 1994              FISCAL YEAR ENDED
OF OKLAHOMA, FISCAL YEAR             (11/21/95)                      JUNE 30, 1995 (11/29/95)
ENDED SEPTEMBER 30, 1994
(11/2/95)                            96-A-166 CONFEDERATED           96-A-200 NORTHWEST
                                     TRIBE OF THE GRAND RONDE,       ARCTIC BOROUGH SCHOOL
96-A-121 NATIVE VILLAGE              FISCAL YEAR ENDED               DISTRICT, FISCAL YEAR
OF KIANA, FISCAL YEAR                DECEMBER 31, 1994               ENDED JUNE 30, 1995
ENDED DECEMBER 31, 1994              (11/21/95)                      (11/29/95)
(11/2/95) **$6,175
                                     96-A-179 D-Q UNIVERSITY,        96-A-205 CHICKASAW
96-A-122 KIPNUK                      TWO FISCAL YEARS ENDED          NATION, FISCAL YEAR ENDED
TRADITIONAL TRIBAL                   JUNE 30, 1995 (11/24/95)        SEPTEMBER 30, 1994
COUNCIL, FISCAL YEAR                                                 (12/4/95)
ENDED DECEMBER 31, 1994              96-A-180 CHATHAM SCHOOL
(11/2/95)                            DISTRICT, FISCAL YEAR           96-A-210 SENECA NATION
                                     ENDED JUNE 30, 1995             OF INDIANS, FISCAL YEAR
96-A-123 OSAGE NATION,               (11/24/95)                      ENDED SEPTEMBER 30, 1994
FISCAL YEAR ENDED                                                    (3/21/96)
SEPTEMBER 30, 1994                   96-A-182 ST. MARY'S
(11/2/95)                            SCHOOL DISTRICT, FISCAL         96-A-214 MINNEAPOLIS
                                     YEAR ENDED JUNE 30, 1995        AMERICAN INDIAN CENTER,
96-A-128 ZIA PUEBLO,                 (11/24/95)                      INC., FISCAL YEAR ENDED
FISCAL YEAR ENDED                                                    JUNE 30, 1995 (12/5/95)
DECEMBER 31, 1994                    96-A-183 ALEUTIANS EAST
(11/7/95)                            BOROUGH SCHOOL DISTRICT,        96-A-216 ANNETTE ISLAND
                                     FISCAL YEAR ENDED               SCHOOL DISTRICT, FISCAL
96-A-133 SAN JUAN                    JUNE 30, 1995 (11/24/95)        YEAR ENDED JUNE 30, 1995
PUEBLO, FISCAL YEAR ENDED                                            (12/5/95)
DECEMBER 31, 1994                    96-A-184 GALENA SCHOOL
(11/8/95)                            DISTRICT, FISCAL YEAR           96-A-219 YUPIIT SCHOOL
                                     ENDED JUNE 30, 1995             DISTRICT, FISCAL YEAR
96-A-141 YERINGTON                   (11/24/95)                      ENDED JUNE 30, 1995
PAIUTE TRIBE, FISCAL YEAR                                            (12/5/95)
ENDED DECEMBER 31, 1994              96-A-185 NENANA CITY
(11/9/95)                            SCHOOL DISTRICT, FISCAL         96-A-220 BRISTOL BAY
                                     YEAR ENDED JUNE 30, 1995        BOROUGH SCHOOL DISTRICT,
                                     (11/24/95)                      FISCAL YEAR ENDED
                                                                     JUNE 30, 1995 (12/5/95)



31                             Semiannual Report to the Congress: October 1, 1995 - March 31, 1996
96-A-222 BERING STRAIT          96-A-249 TESUQUE              96-A-298 LITTLE HOOP
SCHOOL DISTRICT, FISCAL         PUEBLO, FISCAL YEAR ENDED     COMMUNITY COLLEGE, FISCAL
YEAR ENDED JUNE 30, 1995        DECEMBER 31, 1994             YEAR ENDED
(12/5/95)                       (12/14/95)                    SEPTEMBER 30, 1994 (1/25/96)

96-A-224 SOKAOGAN               96-A-250 SAINT STEPHENS       96-A-299 BAY MILLS
CHIPPEWA COMMUNITY              INDIAN SCHOOL EDUCATIONAL     COMMUNITY COLLEGE, FISCAL
(MOLE LAKE BAND), FISCAL        ASSOCIATION, INC., FISCAL     YEAR ENDED JUNE 30, 1995
YEAR ENDED                      YEAR ENDED JUNE 30, 1995      (1/25/96)
SEPTEMBER 30, 1994 (3/21/96)    (12/14/95)
                                                              96-A-300 AMERICAN
96-A-225 FOREST COUNTY          96-A-251 NAVAJO               INDIAN HIGHER EDUCATION
POTAWATOMI COMMUNITY,           PREPARATORY SCHOOL, INC.,     CONSORTIUM, FISCAL YEAR
INC., FISCAL YEAR ENDED         FISCAL YEAR ENDED             ENDED SEPTEMBER 30, 1994
SEPTEMBER 30, 1994              JUNE 30, 1995 (12/14/95)      (1/25/96)
(12/12/95)
                                96-A-252 SANTO DOMINGO        96-A-302 SISSETON-WAHPETON
96-A-226 RED LAKE BAND          TRIBE, FISCAL YEAR ENDED      COMMUNITY COLLEGE, FISCAL
OF CHIPPEWA INDIANS,            SEPTEMBER 30, 1994            YEAR ENDED
FISCAL YEAR ENDED               (12/14/95)                    SEPTEMBER 30, 1994
SEPTEMBER 30, 1994                                            (1/25/96)
(12/12/95)                      96-A-253 OGLALA LAKOTA
                                COLLEGE, FISCAL YEAR          96-A-309 BISHOP INDIAN
96-A-229 MANZANITA BAND         ENDED SEPTEMBER 30, 1994      TRIBAL COUNCIL, FISCAL
0F MISSION INDIANS, FISCAL      (12/14/95)                    YEAR ENDED
YEAR ENDED                                                    DECEMBER 31, 1994 (1/29/96)
 DECEMBER 31, 1994 (12/12/95)   96-A-291 MENOMINEE
                                TRIBAL ENTERPRISES,           96-A-310 TRINIDAD
96-A-231 NATIVE VILLAGE         FISCAL YEAR ENDED             RANCHERIA, FISCAL YEAR
OF SELAWIK, FISCAL YEAR         JUNE 30, 1995 (1/25/96)       ENDED DECEMBER 31, 1994
ENDED DECEMBER 31, 1994                                       (1/29/96)
(12/12/95) **$2,440             96-A-292 MISSISSIPPI
                                BAND OF CHOCTAW INDIANS,      96-A-311 FORT SILL
96-A-232 WICHITA AND            FISCAL YEAR ENDED             APACHE TRIBE OF OKLAHOMA,
AFFILIATED TRIBES, FISCAL       SEPTEMBER 30, 1994            FISCAL YEAR ENDED
YEAR ENDED                      (1/26/96)                     SEPTEMBER 30, 1994
SEPTEMBER 30, 1994 (12/12/95)                                 (1/29/96)
                                96-A-293 MASHANTUCKET
96-A-233 PONCA TRIBE OF         PEQUOT TRIBE, FISCAL YEAR     96-A-326 CHOCTAW NATION
NEBRASKA, 9 MONTHS ENDED        ENDED SEPTEMBER 30, 1994      OF OKLAHOMA, FISCAL YEAR
SEPTEMBER 30, 1994              (1/26/96)                     ENDED SEPTEMBER 30, 1994
(12/12/95)                                                    (2/2/96) **$7,693
                                96-A-295 TURTLE
96-A-234 KENAITZE               MOUNTAIN COMMUNITY            96-A-327 JAMUL BAND OF
INDIAN TRIBE, FISCAL YEAR       COLLEGE, FISCAL YEAR          MISSION INDIANS, FISCAL
ENDED SEPTEMBER 30, 1994        ENDED JUNE 30, 1994           YEAR ENDED
(12/12/95)                      (1/25/96)                     DECEMBER 31, 1994 (2/2/96)

96-A-235 SAC AND FOX            96-A-296 COW CREEK BAND       96-A-337 MORONGO BAND
NATION OF MISSOURI,             OF UMPQUA TRIBE OF            OF MISSION INDIANS,
FISCAL YEAR ENDED               INDIANS, FISCAL YEAR          FISCAL YEAR ENDED
SEPTEMBER 30, 1994              ENDED DECEMBER 31, 1994       JUNE 30, 1994 (2/6/96)
(12/12/95)                      (1/25/96)
                                                              96-A-342 MUCKLESHOOT
96-A-241 NEW MEXICO             96-A-297 LAS VEGAS            INDIAN TRIBE, FISCAL YEAR
STATE UNIVERSITY, FISCAL        PAIUTE TRIBE, FISCAL YEAR     ENDED DECEMBER 31, 1994
YEAR ENDED JUNE 30, 1995        ENDED DECEMBER 31,1994        (2/7/96)
(12/12/95)                      (1/25/96)




Semiannual Report to the Congress: October 1, 1995 - March 31, 1996                          32
96-A-343 CHEYENNE                  96-A-376 RAMAH NAVAJO           96-A-407 PASCUA YAQUI
ARAPAHO TRIBES OF                  SCHOOL BOARD, INC.,             TRIBE, FISCAL YEAR ENDED
OKLAHOMA, FISCAL YEAR              FISCAL YEAR ENDED               SEPTEMBER 30, 1994
ENDED DECEMBER 31, 1993            DECEMBER 31, 1994               (2/16/96)
(2/7/96) **$2,849                  (2/13/96)
                                                                   96-A-408 YAVAPAI-APACHE
96-A-344 ASSOCIATION OF            96-A-377 SAN ILDEFONSO          TRIBE, 15 MONTHS ENDED
VILLAGE COUNCIL                    PUEBLO, FISCAL YEAR ENDED       DECEMBER 31, 1993
PRESIDENTS, FISCAL YEAR            DECEMBER 31, 1992               (2/20/96)
ENDED DECEMBER 31, 1994            (2/13/96)
(2/7/96)                                                           96-A-410 WHITE EARTH
                                   96-A-381 KLAMATH COUNTY         RESERVATION, FISCAL YEAR
96-A-345 SYCUAN BAND OF            SCHOOL DISTRICT, FISCAL         ENDED SEPTEMBER 30, 1994
MISSION INDIANS, FISCAL            YEAR ENDED JUNE 30, 1995        (2/16/96)
YEAR ENDED                         (2/13/96)
AUGUST 31, 1995 (2/7/96)                                           96-A-411 LONEMAN SCHOOL
                                   96-A-392 PORCUPINE              CORPORATION, FISCAL YEAR
96-A-347 LOWER YUKON               SCHOOL, FISCAL YEAR ENDED       ENDED JUNE 30, 1994
SCHOOL DISTRICT, FISCAL            JUNE 30, 1994 (2/15/96)         (2/15/96)
YEAR ENDED JUNE 30, 1995           **$3,112
(2/6/96)                                                           96-A-412 CRAZY HORSE
                                   96-A-394 CHUSKA SCHOOL          SCHOOL, FISCAL YEAR ENDED
96-A-352 NORTHERN                  BOARD OF EDUCATION, INC.,       JUNE 30, 1995 (2/15/96)
CHEYENNE TRIBE SCHOOL,             ALCHINI BINITSEKEES
FISCAL YEAR ENDED                  NAHOLZHOOH FOUNDATION,          96-A-413 FALLON
JUNE 30, 1994 (2/7/96)             INC., FISCAL YEAR ENDED         PAIUTE-SHOSHONE TRIBE,
                                   SEPTEMBER 30, 1995              FISCAL YEAR ENDED
96-A-353 ACOMA PUEBLO,             (2/15/96)                       DECEMBER 31, 1994
FISCAL YEAR ENDED                                                  (2/20/96)
DECEMBER 31, 1994                  96-A-401 SANTA YNEZ
(2/6/96)                           BAND OF MISSION INDIANS,        96-A-414 KETCHIKAN
                                   FISCAL YEAR ENDED               INDIAN CORPORATION,
96-A-362 ORGANIZED                 SEPTEMBER 30, 1993              FISCAL YEAR ENDED
VILLAGE OF KAKE, FISCAL            (2/16/96) **$10,156             DECEMBER 31, 1994
YEAR ENDED                                                         (2/16/96)
DECEMBER 31, 1994 (2/8/96)         96-A-403 OGLALA SIOUX
                                   TRIBAL PUBLIC SAFETY            96-A-417 QUILEUTE
96-A-363 YANKTON SIOUX             COMMISSIONER, FISCAL YEAR       TRIBAL SCHOOL, FISCAL YEAR
TRIBE, FISCAL YEAR ENDED           ENDED SEPTEMBER 30, 1994        ENDED JUNE 30, 1994
DECEMBER 31, 1993                  (2/16/96) **$11,959             (2/16/96)
(2/9/96)
                                   96-A-404 CROW CREEK             96-A-418 FORT BELKNAP
96-A-364                           SIOUX TRIBE, FISCAL YEAR        COMMUNITY COLLEGE, INC.,
CHIPPEWA/OTTAWA TREATY             ENDED SEPTEMBER 30, 1994        FISCAL YEAR ENDED
FISHERY MANAGEMENT                 (2/16/96) **$47,567             AUGUST 31, 1995 (2/16/96)
AUTHORITY, FISCAL
YEAR ENDED                         96-A-405 NORTHERN               96-A-419 CABAZON BAND
JANUARY 31, 1994                   CHEYENNE TRIBE, FISCAL          OF MISSION INDIANS,
(2/9/96)                           YEAR ENDED                      FISCAL YEAR ENDED
                                   SEPTEMBER 30, 1994 (2/16/96)    JUNE 30, 1995 (2/21/96)
96-A-365 FORT MCDERMITT            **$1,653
PAIUTE-SHOSHONE TRIBE,                                             96-A-425 YSLETA DEL SUR
FISCAL YEAR ENDED                  96-A-406 CONFEDERATED           PUEBLO, TIGUA INDIAN
DECEMBER 31, 1991                  TRIBES OF THE WARM              RESERVATION, FISCAL YEAR
(2/8/96) **$17,271                 SPRINGS RESERVATION OF          ENDED DECEMBER 31, 1994
                                   OREGON, FISCAL YEAR ENDED       (2/21/96)
96-A-366 ELY SHOSHONE              DECEMBER 31, 1994
TRIBE, FISCAL YEAR ENDED           (2/15/96) **$33,024
DECEMBER 31, 1994
(2/8/96)




33                           Semiannual Report to the Congress: October 1, 1995 - March 31, 1996
96-A-426 TWO FEATHERS          96-A-467 STANDING ROCK         96-A-511 CONFEDERATED
INDIAN CHILD WELFARE           COLLEGE, FISCAL YEAR           TRIBES OF THE COLVILLE
PROGRAM, FISCAL YEAR           ENDED JUNE 30, 1995            RESERVATION, FISCAL YEAR
ENDED JULY 15, 1994            (2/28/96)                      ENDED SEPTEMBER 30, 1994
(2/21/96)                                                     (3/6/96)
                               96-A-480 AMERICAN
96-A-435 RESERVATION           INDIAN GRADUATE CENTER,        96-A-513 CLOVERDALE
FIRE DISTRICT, FISCAL          FISCAL YEAR ENDED              RANCHERIA, FISCAL YEAR
YEAR ENDED                     JUNE 30, 1995 (2/29/96)        ENDED SEPTEMBER 30, 1995
DECEMBER 31, 1993 (2/22/96)                                   (3/6/96)
                               96-A-483 SOBOBA BAND OF
96-A-437 SANTA YSABEL          MISSION INDIANS, FISCAL        96-A-515 PORT GAMBLE
BAND OF MISSION INDIANS,       YEAR ENDED                     S'KLALLAM TRIBE, FISCAL
FISCAL YEAR ENDED              DECEMBER 31, 1994 (3/1/96)     YEAR ENDED
SEPTEMBER 30, 1990                                            DECEMBER 31, 1994 (3/6/96)
(2/22/96) **$65,731            96-A-485 MINNESOTA
                               CHIPPEWA TRIBE, FISCAL         96-A-524 NORTHWEST
96-A-441 BOARD OF              YEAR ENDED                     INDIAN COLLEGE, FISCAL
EDUCATION OF THE CITY OF       SEPTEMBER 30, 1994 (2/29/96)   YEAR ENDED JUNE 30, 1995
FARGO, FISCAL YEAR ENDED                                      (3/7/96)
JUNE 30, 1995 (2/22/96)        96-A-486
                               SHOSHONE-BANNOCK TRIBES,       96-A-525 ORGANIZED
96-A-444 SANTA YNEZ            INC., FISCAL YEAR ENDED        VILLAGE OF KWETHLUK,
BAND OF MISSION INDIANS,       SEPTEMBER 30, 1994             KWETHLUK IRA COUNCIL,
FISCAL YEAR ENDED              (3/21/96) **$3,315             FISCAL YEAR ENDED
SEPTEMBER 30, 1994                                            DECEMBER 31, 1994
(2/22/96)                      96-A-487 INDIAN                (3/7/96)
                               TOWNSHIP TRIBAL
96-A-449 HOOPA VALLEY          GOVERNMENT, FISCAL YEAR        96-A-526 SANDIA PUEBLO,
TRIBE, FISCAL YEAR ENDED       ENDED SEPTEMBER 30, 1994       FISCAL YEAR ENDED
SEPTEMBER 30, 1994             (2/29/96)                      DECEMBER 31, 1994
(2/22/96)                                                     (3/7/96)
                               96-A-494 JEMEZ PUEBLO,
96-A-450 SICANGU OYATE         FISCAL YEAR ENDED              96-A-527 PALA BAND OF
HO, INC., FISCAL YEAR          SEPTEMBER 30, 1995             MISSION INDIANS, FISCAL
ENDED JUNE 30, 1994            (3/7/96)                       YEAR ENDED
(2/22/96)                                                     DECEMBER 31, 1994 (3/7/96)
                               96-A-501 ARCTIC SLOPE
96-A-454 STILLAGUAMISH         NATIVE ASSOCIATION,            96-A-528 LAC VIEUX
TRIBE OF INDIANS, FISCAL       LIMITED, FISCAL YEAR ENDED     DESERT TRIBAL COUNCIL,
YEAR ENDED                     SEPTEMBER 30, 1995             FISCAL YEAR ENDED
SEPTEMBER 30, 1995 (2/26/96)   (3/5/96)                       DECEMBER 31, 1994
                                                              (3/7/96)
96-A-455 SOUTHERN              96-A-502 NATIVE VILLAGE
CALIFORNIA TRIBAL              OF FORT YUKON, FISCAL          96-A-529 BOIS FORTE
CHAIRMEN'S ASSOCIATION,        YEAR ENDED                     RESERVATION TRIBAL
INC., FISCAL YEAR ENDED        SEPTEMBER 30, 1994 (3/5/96)    COUNCIL, FISCAL YEAR
MARCH 31, 1995 (2/26/96)                                      ENDED SEPTEMBER 30, 1994
                               96-A-503 QUILEUTE TRIBAL       (3/7/96)
96-A-456 BEAR RIVER            COUNCIL, FISCAL YEAR ENDED
BAND OF THE ROHNERVILLE        SEPTEMBER 30, 1994 (3/5/96)    96-A-531 GREAT LAKES
RANCHERIA, FISCAL YEAR         **$2,440                       INDIAN FISH AND WILDLIFE
ENDED SEPTEMBER 30, 1991                                      COMMISSION, FISCAL YEAR
(2/26/96) **$25,193            96-A-509 DULL KNIFE            ENDED DECEMBER 31, 1994
                               MEMORIAL COLLEGE, FISCAL       (3/7/96)
96-A-459 UNITED TRIBES         YEAR ENDED
TECHNICAL COLLEGE, FISCAL      JUNE 30, 1995 (3/7/96)         96-A-532 POARCH BAND OF
YEAR ENDED JUNE 30, 1993                                      CREEK INDIANS, FISCAL
(2/27/96)                                                     YEAR ENDED
                                                              DECEMBER 31, 1994 (3/7/96)




Semiannual Report to the Congress: October 1, 1995 - March 31, 1996                        34
96-A-536 ZUNI PUEBLO,                96-A-556 SAC AND FOX            96-A-594 HASKELL
FISCAL YEAR ENDED                    TRIBE OF THE MISSISSIPPI        FOUNDATION, FISCAL YEAR
DECEMBER 31, 1992                    IN IOWA, FISCAL YEAR            ENDED MARCH 31, 1995
(3/12/96)                            ENDED SEPTEMBER 30, 1994        (3/21/96)
                                     (3/15/96)
96-A-537 SANTA CLARA                                                 96-A-595 REDDING RANCHERIA
INDIAN PUEBLO, FISCAL                96-A-557 HOPI TRIBE,            TRIBE, FISCAL YEAR ENDED
YEAR ENDED                           FISCAL YEAR ENDED               DECEMBER 31, 1994 (3/25/96)
DECEMBER 31, 1994 (3/12/96)          NOVEMBER 30, 1994
                                     (3/15/96)                       96-A-598 MOORETOWN
96-A-539 KAIBAB BAND OF                                              RANCHERIA, FISCAL YEAR
PAIUTE INDIANS, FISCAL               96-A-568 KENAITZ INDIAN         ENDED DECEMBER 31, 1992
YEAR ENDED                           TRIBE, FISCAL YEAR ENDED        (3/28/96)
DECEMBER 31, 1994 (3/10/96)          SEPTEMBER 30, 1993
                                     (3/28/96)                       96-A-599 MOORETOWN
96-A-544 PICURIS PUEBLO,                                             RANCHERIA, FISCAL YEAR
FISCAL YEAR ENDED                    96-A-577 BARONA GROUP OF        ENDED DECEMBER 31, 1993
DECEMBER 31, 1993                    THE CAPITAN GRANDE BAND         (3/28/96)
(3/14/96) **$3,906                   OF THE MISSION INDIANS,
                                     FISCAL YEAR ENDED               96-A-601 CHICKEN RANCH
96-A-545 LAGUNA PUEBLO               JUNE 30, 1995 (3/20/96)         RANCHERIA, FISCAL YEAR
DEPARTMENT OF EDUCATION,                                             ENDED DECEMBER 31, 1994
FISCAL YEAR ENDED                    96-A-579 MODOC TRIBE OF         (3/28/96)
JUNE 30, 1995 (3/14/96)              OKLAHOMA, FISCAL YEAR
                                     ENDED SEPTEMBER 30, 1995        96-A-602 COMANCHE
96-A-546 LAGUNA PUEBLO               (3/21/96)                       INDIAN TRIBE, FISCAL YEAR
DEPARTMENT OF EDUCATION,                                             ENDED SEPTEMBER 30, 1995
FISCAL YEAR ENDED                    96-A-580 RAMAH NAVAJO           (3/28/96)
JUNE 30, 1994 (3/14/96)              CHAPTER, FISCAL YEAR
                                     ENDED DECEMBER 31, 1994         96-A-605 ENEMY SWIM DAY
96-A-551 MESCALERO                   (3/21/96)                       SCHOOL, FISCAL YEAR ENDED
APACHE SCHOOL, FISCAL                                                SEPTEMBER 30, 1994 (3/27/96)
YEAR ENDED JUNE 30, 1995             96-A-582 NATIVE VILLAGE
(3/14/96)                            OF EKLUTNA, FISCAL YEAR         96-A-606 SHIPROCK
                                     ENDED SEPTEMBER 30, 1995        ALTERNATIVE SCHOOLS,
96-A-552 TANANA CHIEFS               (3/21/96)                       INC., FISCAL YEAR ENDED
CONFERENCE, INC., FISCAL                                             JUNE 30, 1995 (3/27/96)
YEAR ENDED                           96-A-589 SOUTHERN
SEPTEMBER 30, 1993 (3/21/96)         CALIFORNIA INDIAN CENTER,       96-A-623 YAVAPAI-APACHE
**$4,436                             INC., FISCAL YEAR ENDED         TRIBE, FISCAL YEAR ENDED
                                     JUNE 30, 1995 (3/21/96)         DECEMBER 31, 1994 (3/28/96)
96-A-553 VALDEZ NATIVE
ASSOCIATION, FISCAL YEAR             96-A-590 RED CLIFF BAND         96-A-624 TUNICA-BILOXI
ENDED DECEMBER 31, 1994              OF LAKE SUPERIOR CHIPPEWA       INDIANS OF LOUISIANA, TWO
(3/14/96)                            INDIANS, FISCAL YEAR            FISCAL YEARS ENDED
                                     ENDED SEPTEMBER 30, 1994        DECEMBER 31, 1994 (3/28/96)
96-A-554 CONFEDERATED                (3/21/96)
TRIBES OF SILETZ INDIANS                                             96-A-625 ONEIDA TRIBE
OF OREGON, FISCAL YEAR               96-A-591 ASSINIBOINE AND        OF INDIANS OF WISCONSIN,
ENDED DECEMBER 31, 1994              SIOUX TRIBES, FISCAL YEAR       FISCAL YEAR ENDED
(3/15/96)                            ENDED SEPTEMBER 30, 1994        SEPTEMBER 30, 1995 (3/28/96)
                                     (3/21/96)
96-A-555 AROOSTOOK                                                   BUREAU OF LAND
MICMAC COUNCIL, INC.,                96-A-592 HUALAPAI
FISCAL YEAR ENDED                    TRIBE, FISCAL YEAR ENDED        MANAGEMENT
MAY 31, 1995 (3/15/96)               DECEMBER 31, 1994
                                     (3/21/96) **$3,483              96-A-17 CENTER FOR
                                                                     PLANT CONSERVATION, INC.,
                                                                     FISCAL YEAR ENDED
                                                                     DECEMBER 31, 1994
                                                                     (10/5/95)



35                             Semiannual Report to the Congress: October 1, 1995 - March 31, 1996
96-A-81 DOUGLAS                 96-A-195 POQUOSON CITY,       96-A-286 ANDERSON
COUNTY, WASHINGTON,             VIRGINIA, FISCAL YEAR         COUNTY, SOUTH CAROLINA,
FISCAL YEAR ENDED               ENDED JUNE 30, 1995           FISCAL YEAR ENDED
DECEMBER 31, 1994               (11/29/95)                    JUNE 30, 1995 (1/19/96)
(10/20/95)
                                96-A-204 VALLEY COUNTY,       96-A-289 SMYTH COUNTY,
96-A-83 FERGUS COUNTY,          MONTANA, FISCAL YEAR          VIRGINIA, FISCAL YEAR
MONTANA, TWO FISCAL YEARS       ENDED JUNE 30, 1994           ENDED JUNE 30, 1995
ENDED JUNE 30, 1994             (11/30/95)                    (1/23/96)
(10/20/95)
                                96-A-227 COWLITZ              96-A-290 AUGUSTA
96-A-84 GRANT COUNTY,           COUNTY, WASHINGTON,           COUNTY, VIRGINIA, FISCAL
OREGON, FISCAL YEAR ENDED       FISCAL YEAR ENDED             YEAR ENDED JUNE 30, 1995
JUNE 30, 1995 (10/20/95)        DECEMBER 31, 1994             (1/23/96)
                                (12/7/95)
96-A-112 PRAIRIE COUNTY,                                      96-A-316 NORTHAMPTON
MONTANA, FISCAL YEAR            96-A-238 ROCKINGHAM           COUNTY, VIRGINIA, FISCAL
ENDED JUNE 30, 1994             COUNTY, VIRGINIA, FISCAL      YEAR ENDED JUNE 30, 1995
(11/1/95)                       YEAR ENDED JUNE 30, 1995      (1/26/96)
                                (12/12/95)
96-A-115 SHERIDAN                                             96-A-317 YAKIMA COUNTY,
COUNTY, MONTANA, FISCAL         96-A-242 HARNEY COUNTY,       WASHINGTON, FISCAL YEAR
YEAR ENDED JUNE 30, 1994        OREGON, FISCAL YEAR ENDED     ENDED DECEMBER 31, 1994
(10/30/95)                      JUNE 30, 1995 (12/12/95)      (1/26/96)

96-A-117 MCCONE COUNTY,         96-A-245 SNOHOMISH            96-A-319 LINN COUNTY,
MONTANA, FISCAL YEAR            COUNTY, WASHINGTON,           OREGON, FISCAL YEAR ENDED
ENDED JUNE 30, 1994             FISCAL YEAR ENDED             JUNE 30, 1995 (1/26/96)
(10/31/95)                      DECEMBER 31, 1994
                                (12/12/95)                    96-A-321 RAPPAHANNOCK
96-A-146 PRAIRIE COUNTY,                                      COUNTY, VIRGINIA, FISCAL
MONTANA, FISCAL YEAR            96-A-247 DANIEL COUNTY,       YEAR ENDED JUNE 30, 1995
 ENDED JUNE 30, 1993            MONTANA, FISCAL YEAR          (1/30/96)
(11/6/95)                       ENDED JUNE 30, 1995
                                (12/12/95)                    96-A-323 ADAMS COUNTY,
96-A-147 CHELAN COUNTY,                                       WASHINGTON, FISCAL YEAR
WASHINGTON, FISCAL YEAR         96-A-277 HALIFAX              ENDED DECEMBER 31, 1994
ENDED DECEMBER 31, 1994         COUNTY, VIRGINIA, FISCAL      (1/31/96)
(11/6/95)                       YEAR ENDED JUNE 30, 1995
                                (1/19/96)                     96-A-324 KING COUNTY,
96-A-148 FERRY COUNTY,                                        WASHINGTON, FISCAL YEAR
WASHINGTON, FISCAL YEAR         96-A-278 BATH COUNTY,         ENDED DECEMBER 31, 1994
ENDED DECEMBER 31, 1994         VIRGINIA, FISCAL YEAR         (1/31/96)
(11/6/95)                       ENDED JUNE 30, 1995
                                (1/19/96)                     96-A-339 ALLEGHANY
96-A-149 PRAIRIE COUNTY,                                      COUNTY, VIRGINIA, FISCAL
MONTANA, TWO FISCAL YEARS       96-A-279 ORANGE COUNTY,       YEAR ENDED JUNE 30, 1995
ENDED JUNE 30, 1992 (11/7/95)   VIRGINIA, FISCAL YEAR         (2/6/96)
                                ENDED JUNE 30, 1995
96-A-186 TAZEWELL               (1/19/96)                     96-A-354 ALBEMARLE
COUNTY, VIRGINIA, FISCAL                                      COUNTY, VIRGINIA, FISCAL
YEAR ENDED JUNE 30, 1995        96-A-283 WESTMORELAND         YEAR ENDED JUNE 30, 1995
(11/24/95)                      COUNTY, VIRGINIA, FISCAL      (2/6/96)
                                YEAR ENDED JUNE 30, 1995
96-A-194 LEWIS COUNTY,          (1/19/96)                     96-A-355 CHARLOTTE
WASHINGTON, FISCAL YEAR                                       COUNTY, VIRGINIA, FISCAL
ENDED DECEMBER 31, 1994         96-A-284 CAROLINE             YEAR ENDED JUNE 30, 1995
(11/29/95)                      COUNTY, VIRGINIA, FISCAL      (2/6/96)
                                YEAR ENDED JUNE 30, 1995
                                (1/19/96)




Semiannual Report to the Congress: October 1, 1995 - March 31, 1996                       36
96-A-356 CHINCOTEAGUE,           96-A-448 RAVALLI                96-A-619 LEE COUNTY,
VIRGINIA, FISCAL YEAR            COUNTY, MONTANA, FISCAL         VIRGINIA, FISCAL YEAR
ENDED JUNE 30, 1995              YEAR ENDED JUNE 30, 1995        ENDED JUNE 30, 1995
(2/6/96)                         (2/22/96)                       (3/27/96)

96-A-357 LOS ALAMOS              96-A-470 CARTER COUNTY,         96-A-620 JEFFERSON
COUNTY, NEW MEXICO,              MONTANA, FISCAL YEAR            COUNTY, WASHINGTON,
FISCAL YEAR ENDED                ENDED JUNE 30, 1994             FISCAL YEAR ENDED
JUNE 30, 1995 (2/6/96)           (2/29/96)                       DECEMBER 31, 1994
                                                                 (3/27/96)
96-A-380 CHARLES CITY            96-A-471 DINWIDDIE
COUNTY, VIRGINIA, FISCAL         COUNTY, VIRGINIA, FISCAL        96-A-621 FLOYD COUNTY,
YEAR ENDED JUNE 30, 1995         YEAR ENDED JUNE 30, 1995        VIRGINIA, FISCAL YEAR
(2/12/96)                        (2/29/96)                       ENDED JUNE 30, 1995
                                                                 (3/27/96)
96-A-384 BRUNSWICK               96-A-473 GREENE COUNTY,
COUNTY, VIRGINIA, FISCAL         VIRGINIA, FISCAL YEAR           96-A-622 BEDFORD
YEAR ENDED JUNE 30, 1995         ENDED JUNE 30, 1995             COUNTY, VIRGINIA, FISCAL
(2/13/96)                        (2/29/96)                       YEAR ENDED JUNE 30, 1995
                                                                 (3/27/96)
96-A-385 NOTTOWAY                96-A-476 STEVENS
COUNTY, VIRGINIA, FISCAL         COUNTY, WASHINGTON,             BUREAU OF
YEAR ENDED JUNE 30, 1995         FISCAL YEAR ENDED
(2/13/96)                        DECEMBER 31, 1994               RECLAMATION
                                 (2/29/96)
96-A-388 ROOSEVELT                                               96-A-98 WEST
COUNTY, MONTANA, FISCAL          96-A-512 BENTON COUNTY,         RIVER/LYMAN-JONES RURAL
YEAR ENDED JUNE 30, 1995         WASHINGTON, FISCAL YEAR         WATER SYSTEM, INC.,
(2/13/96)                        ENDED DECEMBER 31, 1994         FISCAL YEAR ENDED
                                 (3/6/96)                        DECEMBER 31, 1994
96-A-389 ACCOMACK                                                (10/30/95)
COUNTY, VIRGINIA, FISCAL         96-A-517 FAIRBANKS
YEAR ENDED JUNE 30, 1995         NORTH STAR BOROUGH,             96-A-318 SEATTLE,
(2/13/96)                        FISCAL YEAR ENDED               WASHINGTON, FISCAL YEAR
                                 JUNE 30, 1995 (3/6/96)          ENDED DECEMBER 31, 1994
96-A-431 KENAI                                                   (1/26/96)
PENINSULA BOROUGH, FISCAL        96-A-518 MADISON
YEAR ENDED JUNE 30, 1995         COUNTY, VIRGINIA, FISCAL        96-A-330 NEW MAGMA
(2/22/96)                        YEAR ENDED JUNE 30, 1995        IRRIGATION AND DRAINAGE
                                 (3/6/96)                        DISTRICT, FISCAL YEAR
96-A-433 HENRY COUNTY,                                           ENDED JUNE 30, 1995
VIRGINIA, FISCAL YEAR            96-A-561 FOREST COUNTY,         (2/2/96)
ENDED JUNE 30, 1995              PENNSYLVANIA, FISCAL YEAR
(2/22/96)                        ENDED DECEMBER 31, 1994         96-A-361 HOHOKAM
                                 (3/12/96)                       IRRIGATION AND DRAINAGE
96-A-438 CLARKE COUNTY,                                          DISTRICT, FISCAL YEAR
VIRGINIA, FISCAL YEAR            96-A-616 CRAIG COUNTY,          ENDED JUNE 30, 1995
ENDED JUNE 30, 1995              VIRGINIA, FISCAL YEAR           (2/8/96)
(2/22/96)                        ENDED JUNE 30, 1995
                                 (3/27/96)                       96-A-386 YAKIMA VALLEY
96-A-439 APPOMATTOX                                              CONFERENCE OF
COUNTY, VIRGINIA, FISCAL         96-A-617 CARROLL                GOVERNMENTS, TWO FISCAL
YEAR ENDED JUNE 30, 1995         COUNTY, VIRGINIA, FISCAL        YEARS ENDED
(2/22/96)                        YEAR ENDED JUNE 30, 1995        DECEMBER 31, 1994 (2/13/96)
                                 (3/27/96)
96-A-440 WARREN COUNTY,                                          96-A-434 MARICOPA
VIRGINIA, FISCAL YEAR            96-A-618 BOTETOURT              COUNTY, ARIZONA, FISCAL
ENDED JUNE 30, 1995              COUNTY, VIRGINIA, FISCAL        YEAR ENDED JUNE 30, 1994
(2/22/96)                        YEAR ENDED JUNE 30, 1995        (2/22/96)
                                 (3/27/96)




37                         Semiannual Report to the Congress: October 1, 1995 - March 31, 1996
96-A-451 CENTRAL BASIN         96-A-482 FEDERATED STATES      Yap
MUNICIPAL WATER DISTRICT,      OF MICRONESIA, STATUS OF
FISCAL YEAR ENDED              NATIONAL GOVERNMENT,           96-A-305 YAP COMMUNITY
JUNE 30, 1995 (2/27/96)        FISCAL YEAR ENDED              ACTION PROGRAM, FISCAL
                               SEPTEMBER 30, 1994             YEAR ENDED
96-A-457 FRIANT WATER          (2/29/96) **$57,900            SEPTEMBER 30, 1994 (1/26/96)
USERS AUTHORITY, FISCAL                                       **$3,638
YEAR ENDED                     Guam
SEPTEMBER 30, 1995 (2/27/96)
                                                              U.S. BUREAU OF MINES
                               96-A-44 GOVERNMENT OF
96-A-458 WEST BASIN            GUAM, FISCAL YEAR ENDED        96-A-239 MICHIGAN
MUNICIPAL WATER DISTRICT,      SEPTEMBER 30, 1991             TECHNOLOGICAL UNIVERSITY,
FISCAL YEAR ENDED              (10/13/95)                     FISCAL YEAR ENDED
JUNE 30, 1995 (2/27/96)
                                                              JUNE 30, 1995 (12/12/95)
                               96-A-45 GOVERNMENT OF
96-A-460 SANTA ANA             GUAM, FISCAL YEAR ENDED        96-A-387 UNIVERSITY OF
WATERSHED PROJECT              SEPTEMBER 30, 1992             MISSOURI SYSTEM, FISCAL
AUTHORITY, FISCAL YEAR         (10/13/95)                     YEAR ENDED JUNE 30, 1995
ENDED JUNE 30, 1995
                                                              (2/13/96)
(2/27/96)                      96-A-100 UNIVERSITY OF
                               GUAM, FISCAL YEAR ENDED        96-A-560 LINFIELD
96-A-478 MID-DAKOTA            SEPTEMBER 30, 1994             RESEARCH INSTITUTE,
RURAL WATER SYSTEM, INC.,      (10/27/95)                     FISCAL YEAR ENDED
FISCAL YEAR ENDED
                                                              JUNE 30, 1995 (3/11/96)
SEPTEMBER 30, 1995             96-A-230 GUAM AIRPORT
(2/29/96)                      AUTHORITY, FISCAL YEAR
                               ENDED SEPTEMBER 30, 1994       U.S. FISH AND
96-A-514 FRANKLIN              (12/12/95)                     WILDLIFE SERVICE
COUNTY, WASHINGTON, TWO
FISCAL YEARS ENDED             96-A-264 GUAM ECONOMIC         96-A-59 TEXAS, FISCAL
DECEMBER 31, 1994              DEVELOPMENT AUTHORITY,         YEAR ENDED
(3/6/96)                       FISCAL YEAR ENDED              AUGUST 31, 1993 (10/17/95)
                               SEPTEMBER 30, 1994
96-A-567 METROPOLITAN          (1/11/96)                      96-A-99 KAWERAK, INC.,
WATER DISTRICT OF                                             FISCAL YEAR ENDED
SOUTHERN CALIFORNIA,           Republic of the                DECEMBER 31, 1994
FISCAL YEAR ENDED                                             (10/30/95)
JUNE 30, 1995 (3/21/96)        Marshall Islands
                                                              96-A-113 SOUTH DAKOTA,
96-A-626 TEHAMA-COLUSA         96-A-104 REPUBLIC OF
                                                              FISCAL YEAR ENDED
CANAL AUTHORITY, FISCAL        THE MARSHALL ISLANDS,
                                                              JUNE 30, 1994 (11/1/95)
YEAR ENDED                     FISCAL YEAR ENDED
SEPTEMBER 30, 1995 (3/28/96)   SEPTEMBER 30, 1994
                               (11/1/95) **$1,068,317         96-A-125 MINNESOTA,
                                                              FISCAL YEAR ENDED
INSULAR AREAS                  96-A-175 COLLEGE OF THE
                                                              JUNE 30, 1994 (11/29/95)
                               MARSHALL ISLANDS, TWO
Federated States of            FISCAL YEARS ENDED             96-A-126 FRIENDS OF
                                                              ANIMALS, FISCAL YEAR
Micronesia                     SEPTEMBER 30, 1992
                                                              ENDED APRIL 30, 1995
                               (11/28/95)
                                                              (11/2/95)
96-A-192 COLLEGE OF
MICRONESIA, FISCAL YEAR        Republic of Palau              96-A-178 JUNEAU BOROUGH
ENDED SEPTEMBER 30, 1993
                                                              SCHOOL DISTRICT, FISCAL
(11/30/95)                     96-A-193 REPUBLIC OF           YEAR ENDED JUNE 30, 1995
                               PALAU, FISCAL YEAR ENDED       (11/24/95)
96-A-267 COLLEGE OF            SEPTEMBER 30, 1994
MICRONESIA, FISCAL YEAR        (11/30/95)                     96-A-197 MISSISSIPPI
ENDED SEPTEMBER 30, 1994
                                                              STATE UNIVERSITY, FISCAL
(1/12/96)
                                                              YEAR ENDED JUNE 30, 1994
                                                              (11/29/95)




Semiannual Report to the Congress: October 1, 1995 - March 31, 1996                          38
96-A-202 HUBBS SEA               96-A-360 CALIFORNIA             96-A-469 OREGON, FISCAL
WORLD RESEARCH INSTITUTE,        STATE UNIVERSITY LONG           YEAR ENDED JUNE 30, 1994
TWO FISCAL YEARS ENDED           BEACH FOUNDATION, FISCAL        (2/29/96)
JUNE 30, 1994 (11/29/95)         YEAR ENDED JUNE 30, 1995
                                 (2/7/96)                        96-A-477 OKLAHOMA,
96-A-215 UNIVERSITY OF                                           FISCAL YEAR ENDED
NEW MEXICO, FISCAL YEAR          96-A-371 OKLAHOMA,              JUNE 30, 1993 (2/29/96)
ENDED JUNE 30, 1995              FISCAL YEAR ENDED               **$33,881
(12/5/95)                        JUNE 30, 1994 (2/12/96)
                                                                 96-A-484 ALASKA, FISCAL
96-A-228 THURSTON                96-A-372 DELAWARE,              YEAR ENDED JUNE 30, 1993
COUNTY, WASHINGTON,              FISCAL YEAR ENDED               (2/29/96) **$6,618
FISCAL YEAR ENDED                JUNE 30, 1994 (2/15/96)
DECEMBER 31, 1994                **$33,662                       96-A-558 NEW JERSEY,
(12/7/95)                                                        FISCAL YEAR ENDED
                                 96-A-382 MAUI COUNTY,           JUNE 30, 1994 (3/13/96)
96-A-236 DUNN COUNTY,            HAWAII, FISCAL YEAR ENDED
WISCONSIN, FISCAL YEAR           JUNE 30, 1995 (2/13/96)         96-A-586 UNIVERSITY OF
ENDED DECEMBER 31, 1994                                          ARKANSAS - FAYETTEVILLE,
(12/12/95)                       96-A-393 NATIONAL FISH          FISCAL YEAR ENDED
                                 AND WILDLIFE FOUNDATION,        JUNE 30, 1995 (3/20/96)
96-A-248 MASSACHUSETTS           FISCAL YEAR ENDED
AUDUBON SOCIETY, INC.,           SEPTEMBER 30, 1994              96-A-588 PORTLAND,
FISCAL YEAR ENDED                (2/15/96)                       OREGON, FISCAL YEAR ENDED
JUNE 30, 1995 (12/12/95)                                         JUNE 30, 1995 (3/20/96)
                                 96-A-415 VIRGINIA
96-A-280 FAIRFAX                 BEACH, VIRGINIA, FISCAL         96-A-629 ARIZONA,
COUNTY, VIRGINIA, FISCAL         YEAR ENDED JUNE 30, 1995        FISCAL YEAR ENDED
YEAR ENDED JUNE 30, 1995         (2/13/96)                       JUNE 30, 1994 (3/28/96)
(1/19/96)                                                        **$30,392
                                 96-A-427 VERMONT,
96-A-287 SUFFOLK,                FISCAL YEAR ENDED               96-A-630 ALASKA, FISCAL
VIRGINIA, FISCAL YEAR            JUNE 30, 1994 (2/20/96)         YEAR ENDED JUNE 30, 1994
ENDED JUNE 30, 1995                                              (3/28/96) **$69,174
(1/19/96)                        96-A-430 SOUTH COUNTRY
                                 CENTRAL SCHOOL DISTRICT,        U.S. GEOLOGICAL
96-A-301 ARKANSAS GAME           NEW YORK, FISCAL YEAR
AND FISH COMMISSION, FISCAL      ENDED JUNE 30, 1995             SURVEY
YEAR ENDED JUNE 30, 1994         (2/22/96)
(1/25/96)                                                        96-A-111 CALIFORNIA
                                 96-A-432 DANE COUNTY,           STATE UNIVERSITY
96-A-320 RESEARCH                WISCONSIN, FISCAL YEAR          SACRAMENTO FOUNDATION,
FOUNDATION OF STATE              ENDED DECEMBER 31, 1994         FISCAL YEAR ENDED
UNIVERSITY OF NEW YORK,          (2/22/96)                       JUNE 30, 1995 (11/1/95)
FISCAL YEAR ENDED
JUNE 30, 1995 (1/26/96)          96-A-443 CHESAPEAKE,            96-A-116 BIGELOW
                                 VIRGINIA, FISCAL YEAR           LABORATORY FOR OCEAN
96-A-329 FISHAMERICA             ENDED JUNE 30, 1995             SCIENCES, TWO FISCAL
FOUNDATION, FISCAL YEAR          (2/22/96)                       YEARS ENDED JUNE 30, 1995
ENDED DECEMBER 31, 1994                                          (10/31/95)
(2/2/96)                         96-A-445 NORTH DAKOTA,
                                 TWO FISCAL YEARS ENDED          96-A-118 ILLINOIS STATE
96-A-349 GRANT COUNTY,           JUNE 30, 1994 (2/22/96)         MUSEUM SOCIETY, TWO
WASHINGTON, FISCAL YEAR          **$6,015                        FISCAL YEARS ENDED
ENDED DECEMBER 31, 1994                                          JUNE 30, 1995 (10/31/95)
(2/6/96)                         96-A-446 METROPOLITAN
                                 PARK DISTRICT OF TACOMA,        96-A-240 CALIFORNIA
96-A-359 STATE FORESTRY          FISCAL YEAR ENDED               INSTITUTE OF TECHNOLOGY,
COMMISSION, FISCAL YEAR          DECEMBER 31, 1994               FISCAL YEAR ENDED
ENDED JUNE 30, 1994              (2/22/96)                       SEPTEMBER 30, 1994
(2/6/96)                                                         (12/12/95)



39                         Semiannual Report to the Congress: October 1, 1995 - March 31, 1996
96-A-243 SAN JOSE STATE           96-A-35 BLOOMINGTON,           96-A-218 MISSOULA,
UNIVERSITY FOUNDATION,            INDIANA, FISCAL YEAR           MONTANA, FISCAL YEAR
FISCAL YEAR ENDED                 ENDED DECEMBER 31, 1994        ENDED JUNE 30, 1995
JUNE 30, 1995 (12/12/95)          (10/12/95)                     (12/5/95)

96-A-340 DUKE                     96-A-37 NEW SALEM,             96-A-221 DANVILLE,
UNIVERSITY, FISCAL YEAR           MASSACHUSETTS, FISCAL          VIRGINIA, FISCAL YEAR
ENDED JUNE 30, 1995               YEAR ENDED JUNE 30, 1994       ENDED JUNE 30, 1995
(2/6/96)                          (10/12/95)                     (12/5/95)

96-A-348 NASHVILLE AND            96-A-54 PHILADELPHIA,          96-A-237 COLLEGE OF
DAVIDSON COUNTY, TENNESSEE,       PENNSYLVANIA, FISCAL YEAR      WILLIAM AND MARY, FISCAL
METROPOLITAN GOVERNMENT,          ENDED JUNE 30, 1994            YEAR ENDED JUNE 30, 1994
FISCAL YEAR ENDED JUNE 30, 1995   (10/17/95)                     (12/12/95)
(2/6/96)
                                  96-A-55 AUSTIN, TEXAS,         96-A-244 PORTAGE,
96-A-474 FRANKLIN AND             FISCAL YEAR ENDED              INDIANA, FISCAL YEAR
MARSHALL COLLEGE, FISCAL          SEPTEMBER 30, 1994             ENDED DECEMBER 31, 1994
YEAR ENDED JUNE 30, 1995          (10/17/95)                     (12/12/95)
(2/29/96)
                                  96-A-56 CHICAGO,               96-A-281 WILLIAM MARSH
96-A-516 UNIVERSITY OF            ILLINOIS, FISCAL YEAR          RICE UNIVERSITY, FISCAL
PUERTO RICO, FISCAL YEAR          ENDED DECEMBER 31, 1994        YEAR ENDED JUNE 30, 1995
ENDED JUNE 30, 1995               (10/17/95)                     (1/19/96)
(3/6/96)
                                  96-A-89 MAKAH CULTURAL         96-A-285 UNIVERSITY OF
96-A-523 NEW MEXICO               AND RESEARCH CENTER,           MIAMI, FISCAL YEAR ENDED
HIGHLANDS UNIVERSITY,             FISCAL YEAR ENDED              MAY 31, 1995 (1/19/96)
FISCAL YEAR ENDED                 SEPTEMBER 30, 1993
JUNE 30, 1995 (3/6/96)            (10/26/95)                     96-A-288 AUGUSTA,
                                                                 MAINE, FISCAL YEAR ENDED
96-A-593 AMERICAN                 96-A-127 ARKANSAS              JUNE 30, 1995 (1/19/96)
MUSEUM OF NATURAL                 HISTORIC PRESERVATION
HISTORY, FISCAL YEAR              PROGRAM, FISCAL YEAR           96-A-315 SANDY CITY,
ENDED JUNE 30, 1995               ENDED JUNE 30, 1994            UTAH, FISCAL YEAR ENDED
(3/20/96)                         (11/2/95)                      JUNE 30, 1995 (1/26/96)

NATIONAL                          96-A-134 BERING STRAITS        96-A-322 FREDERICK
                                  FOUNDATION, FISCAL YEAR        COUNTY, VIRGINIA, FISCAL
BIOLOGICAL                        ENDED DECEMBER 31, 1994        YEAR ENDED JUNE 30, 1995
SERVICE                           (11/8/95)                      (1/31/96)

96-A-57 HUMBOLDT STATE            96-A-156 BETHUNE MUSEUM        96-A-328 MICHIGAN
UNIVERSITY FOUNDATION,            AND ARCHIVES, INC., TWO        DEPARTMENT OF STATE,
FISCAL YEAR ENDED                 FISCAL YEARS ENDED             TWO FISCAL YEARS ENDED
JUNE 30, 1995 (10/17/95)          SEPTEMBER 30, 1992             SEPTEMBER 30, 1994
                                  (11/14/95)                     (2/2/96)
NATIONAL PARK                     96-A-187 SAINT PAUL,           96-A-338 KAUAI COUNTY,
SERVICE                           MINNESOTA, FISCAL YEAR         HAWAII, FISCAL YEAR ENDED
                                  ENDED DECEMBER 31, 1994        JUNE 30, 1995 (2/6/96)
96-A-18 ICE AGE PARK AND          (11/24/95)
TRAIL FOUNDATION, INC.,                                          96-A-341 FISK
FISCAL YEAR ENDED                 96-A-198 NEW HANOVER           UNIVERSITY, FISCAL YEAR
DECEMBER 31, 1994                 COUNTY, NORTH CAROLINA,        ENDED JUNE 30, 1994
(10/5/95)                         FISCAL YEAR ENDED              (2/6/96)
                                  JUNE 30, 1995 (11/29/95)
                                                                 96-A-350 ALBUQUERQUE,
                                  96-A-203 SULLIVAN COUNTY,      NEW MEXICO, FISCAL
                                  NEW YORK, FISCAL YEAR ENDED    YEAR ENDED JUNE 30, 1995
                                  DECEMBER 31, 1994 (11/30/95)   (2/6/96)



Semiannual Report to the Congress: October 1, 1995 - March 31, 1996                          40
96-A-358 GRAYS HARBOR              96-A-461 ALICE FERGUSON         OFFICE OF SURFACE
COUNTY, WASHINGTON,                FOUNDATION, INC., FISCAL
FISCAL YEAR ENDED                  YEAR ENDED                      MINING
DECEMBER 31, 1994                  DECEMBER 31,1994 (2/27/96)      RECLAMATION AND
(2/6/96)                                                           ENFORCEMENT
                                   96-A-475 WATERTOWN,
96-A-369 CRAWFORDSVILLE,           NEW YORK, FISCAL                96-A-34 WEST VIRGINIA,
INDIANA, FISCAL                    YEAR ENDED JUNE 30, 1995        FISCAL YEAR ENDED
YEAR ENDED                         (2/29/96)                       JUNE 30, 1994 (10/12/95)
DECEMBER 31, 1994 (2/9/96)                                         **$2,021
                                   96-A-479 OHIO HISTORICAL
96-A-378 UNIVERSITY OF             SOCIETY, INC., FISCAL YEAR      96-A-58 PENNSYLVANIA,
MARYLAND SYSTEM, FISCAL            ENDED JUNE 30, 1995 (2/29/96)   FISCAL YEAR ENDED
YEAR ENDED JUNE 30, 1995                                           JUNE 30, 1994 (10/19/95)
(2/12/96)                          96-A-492 LITTLE ROCK,           **$1,649,246
                                   ARKANSAS, FISCAL YEAR ENDED
96-A-379 INDEPENDENCE,             DECEMBER 31, 1994 (3/1/96)      96-A-60 KENTUCKY, FISCAL
MISSOURI, FISCAL YEAR                                              YEAR ENDED JUNE 30, 1994
ENDED JUNE 30, 1995                96-A-500 IDAHO DEPARTMENT       (10/19/95) **$186,090
(2/12/96)                          OF PARKS AND RECREATION,
                                   FISCAL YEAR ENDED               96-A-124 WYOMING
96-A-383 OXNARD,                   JUNE 30, 1994 (3/7/96)          DEPARTMENT OF
CALIFORNIA, FISCAL YEAR                                            ENVIRONMENTAL QUALITY,
ENDED JUNE 30, 1995                96-A-505 AMERICAN               TWO FISCAL YEARS ENDED
(2/13/96)                          HIKING SOCIETY, TWO FISCAL      JUNE 30, 1994 (11/1/95)
                                   YEARS ENDED JUNE 30, 1995
96-A-390 EUGENE,                   (3/7/96)                        96-A-282 KENTUCKY,
OREGON, FISCAL YEAR ENDED                                          FISCAL YEAR ENDED
JUNE 30, 1995 (2/13/96)            96-A-519 SITKA BOROUGH,         JUNE 30, 1993 (1/19/96)
                                   ALASKA, FISCAL YEAR
96-A-391 SOUTHERN                  ENDED JUNE 30, 1995 (3/6/96)    96-A-504 ABANDONED MINE
ALLEGHENIES CONSERVANCY,                                           LAND RECLAMATION PROGRAM,
FISCAL YEAR ENDED                  96-A-520 MONTAGUE,              FISCAL YEAR ENDED
MAY 31, 1995 (2/15/96)             MASSACHUSETTS, FISCAL           JUNE 30, 1995 (3/7/96)
                                   YEAR ENDED JUNE 30, 1995
96-A-395 THE 1889 SOUTH            (3/6/96)                        96-A-583 OHIO, FISCAL
FORK FISHING AND HUNTING                                           YEAR ENDED JUNE 30, 1994
CLUB HISTORICAL                    96-A-521 LYNCHBURG,             (3/20/96)
PRESERVATION SOCIETY,              VIRGINIA, FISCAL YEAR
FISCAL YEAR ENDED                  ENDED JUNE 30, 1995             96-A-615 DICKENSON
DECEMBER 31, 1994                  (3/6/96)                        COUNTY, VIRGINIA, FISCAL
(2/15/96)                                                          YEAR ENDED JUNE 30, 1995
                                   96-A-538 NATIONAL TRUST         (3/27/96)
96-A-429 ZIONSVILLE,               FOR HISTORIC
INDIANA, TWO FISCAL YEARS          PRESERVATION, FISCAL YEAR
ENDED DECEMBER 31, 1994            ENDED SEPTEMBER 30, 1995        OFFICE OF THE
(2/22/96)                          (3/12/96)                       SECRETARY
96-A-436 BELLINGHAM,               96-A-559 CARSON CITY,           96-A-82 TACOMA, WASHINGTON,
WASHINGTON, FISCAL YEAR            NEVADA, FISCAL YEAR ENDED       FISCAL YEAR ENDED
ENDED DECEMBER 31, 1994            JUNE 30, 1995 (3/11/96)         DECEMBER 31, 1994 (10/20/95)
(2/22/96)
                                   96-A-562 DETROIT,               96-A-114 NORTHWESTERN
96-A-442 OKLAHOMA CITY,            MICHIGAN, FISCAL YEAR           UNIVERSITY, FISCAL YEAR
OKLAHOMA, FISCAL YEAR              ENDED JUNE 30, 1994             ENDED AUGUST 31, 1994
ENDED JUNE 30, 1995                (3/12/96)                       (11/1/95)
(2/22/96)
                                   96-A-585 SANTA FE,              96-A-150 STANFORD
                                   NEW MEXICO, FISCAL YEAR         UNIVERSITY, FISCAL YEAR
                                   ENDED JUNE 30, 1995             ENDED AUGUST 31, 1993 (11/6/95)
                                   (3/20/96)



41                           Semiannual Report to the Congress: October 1, 1995 - March 31, 1996
96-A-181 CALIFORNIA              96-P-12 ALABAMA-COUSHATTA       96-P-32 SAC AND FOX
POLYTECHNIC STATE                INDIAN TRIBE OF TEXAS,          NATION OF OKLAHOMA,
UNIVERSITY FOUNDATION,           FISCAL YEAR ENDED               FISCAL YEAR ENDED
FISCAL YEAR ENDED                DECEMBER 31, 1996 (10/3/95)     DECEMBER 31, 1995
JUNE 30, 1995 (11/24/95)                                         (10/11/95) *$60,114
                                 96-P-13 PONCA TRIBE OF
96-A-189 PRIBILOF ISLANDS        OKLAHOMA, FISCAL YEAR           96-P-33 SISSETON-WAHPETON
SCHOOL DISTRICT, FISCAL YEAR     ENDED SEPTEMBER 30, 1996        SIOUX TRIBE, FISCAL YEAR
ENDED JUNE 30, 1995 (11/24/95)   (10/3/95) *$9,729               ENDED SEPTEMBER 30, 1996
                                                                 (10/11/95) *$28,416
96-A-201 SONOMA STATE            96-P-20 UTE MOUNTAIN
UNIVERSITY, FISCAL YEAR          UTE TRIBE, FISCAL YEAR          96-P-52 KUSKOKWIM
ENDED JUNE 30, 1995              ENDED SEPTEMBER 30, 1995        NATIVE ASSOCIATION,
(11/29/95)                       (10/4/95)                       FISCAL YEAR ENDED
                                                                 SEPTEMBER 30, 1995
96-A-217 NATIONAL                96-P-23 FAIRBANKS               (10/17/95) *$11,829
ACADEMY OF SCIENCES,             NATIVE ASSOCIATION,
FISCAL YEAR ENDED                FISCAL YEAR ENDED               96-P-66 LUMMI INDIAN
JUNE 30, 1994 (12/5/95)          JUNE 30, 1996 (10/10/95)        BUSINESS COUNCIL, FISCAL
                                 *$26,562                        YEAR ENDED
96-A-346 WASHOE COUNTY,                                          DECEMBER 31, 1996 (10/19/95)
NEVADA, FISCAL YEAR ENDED        96-P-24 SANTEE SIOUX
JUNE 30, 1995 (2/6/96)           TRIBE OF NEBRASKA, FISCAL       96-P-70 PASCUA YAQUI
                                 YEAR ENDED                      TRIBE, FISCAL YEAR ENDED
96-A-351 CRAIG, ALASKA,          SEPTEMBER 30, 1993 (10/10/95)   SEPTEMBER 30, 1995
FISCAL YEAR ENDED                                                (10/23/95) *$156,689
JUNE 30, 1995 (2/6/96)           96-P-25 SANTEE SIOUX
                                 TRIBE OF NEBRASKA, FISCAL       96-P-71 SALT RIVER
96-A-584 UNIVERSITY OF           YEAR ENDED                      PIMA-MARICOPA INDIAN
ALASKA, FISCAL YEAR ENDED        SEPTEMBER 30, 1995 (10/10/95)   COMMUNITY, FISCAL YEAR
JUNE 30, 1995 (3/20/96)          *$5,568                         ENDED SEPTEMBER 30, 1996
                                                                 (10/23/95)
INDIRECT COST                    96-P-27 KLAMATH TRIBAL
                                 HEALTH AND FAMILY               96-P-73 GUIDIVILLE
PROPOSALS                        SERVICES, FISCAL YEAR           INDIAN RANCHERIA, FISCAL
                                 ENDED DECEMBER 31, 1995         YEAR ENDED JUNE 30, 1996
BUREAU OF INDIAN                 (10/11/95) *$21,991             (10/23/95)
AFFAIRS                          96-P-28 SHOSHONE                96-P-74 MOAPA BAND OF
                                 BANNOCK TRIBAL HIGH             PAIUTE INDIANS, FISCAL
96-P-3 SHOSHONE PAIUTE           SCHOOL, FISCAL YEAR ENDED       YEAR ENDED
TRIBES OF THE DUCK               SEPTEMBER 30, 1996              DECEMBER 31, 1996 (10/23/95)
VALLEY RESERVATION, FISCAL       (10/11/95) *$136,609
YEAR ENDED
                                                                 96-P-75 SHINGLE SPRINGS
SEPTEMBER 30, 1995
                                 96-P-29 NORTHWEST               RANCHERIA, FISCAL YEAR ENDED
(10/2/95)
                                 INDIAN COLLEGE, FISCAL          DECEMBER 31, 1996 (10/23/95)
                                 YEAR ENDED JUNE 30, 1995
96-P-4 GILA RIVER INDIAN         (10/11/95)                      96-P-77 COMANCHE
COMMUNITY, 18 MONTHS ENDED
                                                                 INDIAN TRIBE, FISCAL YEAR
SEPTEMBER 30, 1996 (10/2/95)
                                 96-P-30 NORTHERN                ENDED SEPTEMBER 30, 1996
                                 CHEYENNE TRIBE, INC.,           (10/23/95) *$5,977
96-P-5 BLACKFEET                 FISCAL YEAR ENDED
COMMUNITY COLLEGE, FISCAL        SEPTEMBER 30, 1996              96-P-78 NEZ PERCE
YEAR ENDED                       (10/11/95)                      TRIBE, FISCAL YEAR ENDED
SEPTEMBER 30, 1996 (10/2/95)
                                                                 SEPTEMBER 30, 1996
                                 96-P-31 NORTHERN                (10/24/95)
96-P-10 KAW NATION OF            CHEYENNE TRIBE, INC.,
OKLAHOMA, FISCAL YEAR            FISCAL YEAR ENDED
ENDED DECEMBER 31, 1995          SEPTEMBER 30, 1994
(10/2/95) *$17,583               (10/11/95)




Semiannual Report to the Congress: October 1, 1995 - March 31, 1996                             42
96-P-79 CONFEDERATED                96-P-135 CONFEDERATED           96-P-163 RAMAH NAVAJO
SALISH AND KOOTENAI                 TRIBES OF THE CHEHALIS          SCHOOL BOARD, INC.,
TRIBES OF THE FLATHEAD              RESERVATION, FISCAL YEAR        FISCAL YEAR ENDED
RESERVATION, FISCAL YEAR            ENDED DECEMBER 31, 1996         DECEMBER 31, 1995
ENDED SEPTEMBER 30, 1996            (11/7/95) *$9,662               (11/20/95) *$6,687
(10/24/95) *$19,731
                                    96-P-139 LEECH LAKE             96-P-164 PEORIA TRIBE
96-P-88 WHITE EARTH                 RESERVATION TRIBAL              OF INDIANS OF OKLAHOMA,
RESERVATION TRIBAL                  COUNCIL, FISCAL YEAR            FISCAL YEAR ENDED
COUNCIL, FISCAL YEAR                ENDED SEPTEMBER 30, 1996        MARCH 31, 1997 (11/20/95)
ENDED SEPTEMBER 30, 1995            (11/7/95)
(10/24/95)                                                          96-P-167 AKIACHAK NATIVE
                                    96-P-140 PICAYUNE               COMMUNITY, FISCALYEAR ENDED
96-P-91 FOND DU LAC                 RANCHERIA OF THE                DECEMBER 31,1994 (11/21/95)
RESERVATION, FISCAL YEAR            CHUKCHANSI INDIANS,             *$1,015
ENDED SEPTEMBER 30, 1996            FISCAL YEAR ENDED
(10/25/95)                          OCTOBER 31, 1996 (11/7/95)      96-P-168 AKIACHAK NATIVE
                                                                    COMMUNITY, FISCAL YEAR
96-P-96 PRAIRIE BAND OF             96-P-151 YUROK TRIBE            ENDED DECEMBER 31, 1993
POTAWATOMI INDIANS,                 INTERIM COUNCIL, FISCAL         (11/21/95)
FISCAL YEAR ENDED                   YEAR ENDED
DECEMBER 31, 1996                   SEPTEMBER 30, 1996 (11/9/95)    96-P-169 AKIACHAK NATIVE
(10/26/95) *$32,016                                                 COMMUNITY, FISCAL YEAR
                                    96-P-152 ELY SHOSHONE           ENDED DECEMBER 31, 1992
96-P-107 JEMEZ PUEBLO,              TRIBE, FISCAL YEAR ENDED        (11/21/95) *$1,360
FISCAL YEAR ENDED                   DECEMBER 31, 1996
SEPTEMBER 30, 1996                  (11/9/95) *$21,103              96-P-171 KICKAPOO
(11/1/95)                                                           TRADITIONAL TRIBE OF
                                    96-P-154 BISHOP INDIAN          TEXAS, FISCAL YEAR ENDED
96-P-108 POINT NO POINT             TRIBAL COUNCIL, FISCAL          SEPTEMBER 30, 1995
TREATY COUNCIL,                     YEAR ENDED                      (11/22/95)
FISCAL YEAR ENDED                   DECEMBER 31, 1996 (11/9/95)
DECEMBER 31, 1994 (11/1/95)         *$3,381                         96-P-172 KICKAPOO
                                                                    TRADITIONAL TRIBE OF
96-P-109 POINT NO POINT             96-P-158 TURTLE                 TEXAS, FISCAL YEAR ENDED
TREATY COUNCIL, FISCAL              MOUNTAIN BAND OF CHIPPEWA       SEPTEMBER 30, 1996
YEAR ENDED                          INDIANS, FISCAL YEAR            (11/22/95)
DECEMBER 31, 1996 (11/1/95)         ENDED SEPTEMBER 30, 1996
                                    (11/20/95)                      96-P-173 TOHONO O'ODHAM
96-P-129 KICKAPOO TRIBE OF                                          NATION, FISCAL YEAR ENDED
OKLAHOMA, FISCALYEAR ENDED          96-P-159 ELK VALLEY             SEPTEMBER 30, 1995
SEPTEMBER 30, 1995 (11/2/95)        RANCHERIA, FISCAL YEAR          (11/27/95) *$259,955
*$7,203                             ENDED DECEMBER 31, 1993
                                    (11/20/95)                      96-P-174 ZUNI PUEBLO,
96-P-130 NOOKSACK                                                   FISCAL YEAR ENDED
INDIAN TRIBE, FISCAL YEAR           96-P-160 ELK VALLEY             DECEMBER 31, 1995
ENDED DECEMBER 31, 1995             RANCHERIA, FISCAL YEAR          (11/27/95) *$230,592
(11/3/95)                           ENDED DECEMBER 31, 1995
                                    (11/20/95)                      96-P-176 TRINIDAD
96-P-131 NOOKSACK                                                   RANCHERIA, FISCAL YEAR
INDIAN TRIBE, FISCAL YEAR           96-P-161 BUENA VISTA            ENDED DECEMBER 31, 1996
ENDED DECEMBER 31, 1993             RANCHERIA, FISCAL YEAR          (11/28/95)
(11/3/95)                           ENDED DECEMBER 31, 1995
                                    (11/20/95) *$3,000              96-P-207 ONEIDA INDIAN
96-P-132 SINTE GLESKA                                               NATION, FISCAL YEAR ENDED
UNIVERSITY, FISCAL YEAR             96-P-162 TURTLE                 SEPTEMBER 30, 1996
ENDED SEPTEMBER 30, 1995            MOUNTAIN COMMUNITY              (11/29/95)
(11/6/95)                           COLLEGE, FISCAL YEAR
                                    ENDED JUNE 30, 1995
                                    (11/20/95)




43                            Semiannual Report to the Congress: October 1, 1995 - March 31, 1996
96-P-208 ST. REGIS             96-P-265 CHEROKEE BOYS         96-P-314 CHOCTAW NATION
MOHAWK TRIBE, FISCAL YEAR      CLUB, INC., FISCAL YEAR        OF OKLAHOMA, FISCAL YEAR
ENDED DECEMBER 31, 1996        ENDED JUNE 30, 1996            ENDED SEPTEMBER 30, 1996
(11/29/95)                     (1/11/96)                      (1/30/96) *$229,700

96-P-212 MAINE INDIAN          96-P-266 LAC DU                96-P-331 OGLALA SIOUX
EDUCATION, FISCAL YEAR         FLAMBEAU BAND OF LAKE          TRIBAL PUBLIC SAFETY
ENDED JUNE 30, 1995            SUPERIOR CHIPPEWA              COMMISSION, FISCAL YEAR
(12/5/95)                      INDIANS, FISCAL YEAR           ENDED SEPTEMBER 30, 1996
                               ENDED SEPTEMBER 30, 1996       (2/2/96) *$47,352
96-P-255 INDIAN                (1/11/96)
TOWNSHIP TRIBAL                                               96-P-333 KARUK TRIBE OF
GOVERNMENT, FISCAL YEAR        96-P-268 SANTA CLARA           CALIFORNIA, FISCAL YEAR
ENDED SEPTEMBER 30, 1994       INDIAN PUEBLO                  ENDED SEPTEMBER 30, 1996
(12/13/95)                     ADMINISTRATIVE UNIT,           (2/5/96) *$19,788
                               FISCAL YEAR ENDED
96-P-256 GREAT LAKES           DECEMBER 31, 1995              96-P-336 LA JOLLA BAND OF
INTER-TRIBAL COUNCIL,          (1/12/96) *$13,032             MISSION INDIANS, FISCAL YEAR
INC., FISCAL YEAR ENDED                                       ENDED DECEMBER 31, 1996
JUNE 30, 1996 (12/14/95)       96-P-271 PAIUTE INDIAN         (2/5/96)
                               TRIBE OF UTAH, FISCAL
96-P-257 MUCKLESHOOT           YEAR ENDED                     96-P-368 SAC & FOX
INDIAN TRIBE, FISCAL YEAR      DECEMBER 31, 1996 (1/16/96)    TRIBE OF THE MISSISSIPPI
ENDED DECEMBER 31, 1996        *$3,274                        IN IOWA, FISCAL YEAR
(1/8/96)                                                      ENDED SEPTEMBER 30, 1995
                               96-P-272 INTER-TRIBAL          (2/8/96)
96-P-258 LITTLE HOOP           COUNCIL OF MICHIGAN,
COMMUNITY COLLEGE, FISCAL      INC., FISCAL YEAR ENDED        96-P-370 QUILEUTE
YEAR ENDED                     SEPTEMBER 30, 1996             TRIBAL SCHOOL, FISCAL
SEPTEMBER 30, 1996 (1/9/96)    (1/17/96)                      YEAR ENDED JUNE 30, 1996
                                                              (2/9/96)
96-P-259 ASSOCIATION OF        96-P-273 POARCH BAND OF
VILLAGE COUNCIL                CREEK INDIANS, FISCAL YEAR     96-P-374 CONFEDERATED
PRESIDENTS, FISCAL YEAR        ENDED DECEMBER 31, 1996        TRIBES OF THE UMATILLA
ENDED DECEMBER 31, 1996        (1/17/96)                      INDIAN RESERVATION,
(1/9/96)                                                      FISCAL YEAR ENDED
                               96-P-274 WALKER RIVER          DECEMBER 31, 1995
96-P-260 CONFEDERATED          PAIUTE TRIBE, FISCAL YEAR      (2/13/96) *$78
TRIBES OF THE GRAND RONDE      ENDED DECEMBER 31, 1996
COMMUNITY OF OREGON,           (1/22/96) *$3,252              96-P-375 NISQUALLY
FISCAL YEAR ENDED                                             INDIAN TRIBE, FISCAL YEAR
DECEMBER 31, 1996              96-P-294 AKIACHAK NATIVE       ENDED DECEMBER 31, 1996
(1/9/96)                       COMMUNITY, FISCAL YEAR         (2/13/96) *$217,550
                               ENDED DECEMBER 31, 1995
96-P-261 SAN JUAN              (1/24/96)                      96-P-398 COLUMBIA RIVER
PUEBLO, FISCAL YEAR ENDED                                     INTER-TRIBAL FISH
DECEMBER 31, 1996              96-P-303 BUSBY SCHOOL          COMMISSION, FISCAL YEAR
(1/9/96) *$46,865              OF NORTHERN CHEYENNE TRIBE,    ENDED DECEMBER 31, 1996
                               FISCAL YEAR ENDED              (2/15/96) *$4,971
96-P-262 SOUTHERN UTE          JUNE 30, 1995 (1/25/96)
INDIAN TRIBE, FISCAL YEAR      *$17,114                       96-P-409 OGLALA SIOUX
ENDED SEPTEMBER 30, 1996                                      PARKS AND RECREATION
(1/9/96)                       96-P-304 BUSBY SCHOOL          AUTHORITY,
                               OF NORTHERN CHEYENNE           FISCAL YEAR ENDED
96-P-263 ASSOCIATION OF        TRIBE, FISCAL YEAR ENDED       DECEMBER 31, 1995
VILLAGE COUNCIL                JUNE 30, 1996 (1/25/96)        (2/15/96) *$4,681
PRESIDENTS, FISCAL YEAR
ENDED DECEMBER 31, 1994        96-P-312 HO-CHUNK
(1/9/96)                       NATION, FISCAL YEAR ENDED
                               JUNE 30, 1996 (1/26/96)




Semiannual Report to the Congress: October 1, 1995 - March 31, 1996                          44
96-P-416 OGLALA SIOUX               96-P-481 SITKA TRIBE OF         96-P-565 PORT GAMBLE
PARKS AND RECREATION                ALASKA, FISCAL YEAR ENDED       S'KLALLAM TRIBE, FISCAL
AUTHORITY, FISCAL YEAR              DECEMBER 31, 1996               YEAR ENDED DECEMBER 31, 1996
ENDED DECEMBER 31, 1993             (2/28/96) *$72,596              (3/14/96) *$10,373
(2/15/96)
                                    96-P-488 SENECA CAYUGA          96-P-570 HANNAHVILLE
96-P-420 KWIGILLINGOK               TRIBE OF OKLAHOMA, FISCAL       INDIAN COMMUNITY, FISCAL
NATIVE COMMUNITY, FISCAL            YEAR ENDED                      YEAR ENDED
YEAR ENDED                          SEPTEMBER 30, 1996 (3/1/96)     SEPTEMBER 30, 1996 (3/19/96)
DECEMBER 31, 1994 (2/20/96)
                                    96-P-489 OGLALA LAKOTA          96-P-571 BOIS FORTE
96-P-421 KWIGILLINGOK               COLLEGE, FISCAL YEAR            BAND OF CHIPPEWA INDIANS,
NATIVE COMMUNITY, FISCAL            ENDED SEPTEMBER 30, 1996        FISCAL YEAR ENDED
YEAR ENDED                          (3/1/96) *$290,380              SEPTEMBER 30, 1996
DECEMBER 31, 1995 (2/20/96)                                         (3/19/96)
*$2,300                             96-P-491 HOPI TRIBE,
                                    FISCAL YEAR ENDED               96-P-572 BAY MILLS
96-P-423 MANZANITA BAND             NOVEMBER 30, 1996               INDIAN COMMUNITY, FISCAL
OF MISSION INDIANS,                 (3/1/96) *$447,338              YEAR ENDED
FISCAL YEAR ENDED                                                   DECEMBER 31, 1996 (3/18/96)
DECEMBER 31, 1996                   96-P-497 STANDING ROCK
(2/21/96)                           SIOUX TRIBE, FISCAL YEAR        96-P-573 ROUND VALLEY
                                    ENDED SEPTEMBER 30, 1994        INDIAN TRIBES (FORMERLY
96-P-424 MANZANITA BAND             (3/4/96)                        COVELO INDIAN COMMUNITY),
OF MISSION INDIANS,                                                 FISCAL YEAR ENDED
FISCAL YEAR ENDED                   96-P-498 STANDING ROCK          DECEMBER 31, 1995
DECEMBER 31, 1994                   SIOUX TRIBE, FISCAL YEAR        (3/19/96)
(2/21/96)                           ENDED SEPTEMBER 30, 1996
                                    (3/4/96) *$700,497              96-P-574 ROUND VALLEY
96-P-447 FORT SILL                                                  INDIAN TRIBES (FORMERLY
APACHE TRIBE, FISCAL YEAR           96-P-499 ORUTSARARMUIT          COVELO INDIAN COMMUNITY),
ENDED DECEMBER 31, 1996             NATIVE COUNCIL, FISCAL          FISCAL YEAR ENDED
(2/22/96)                           YEAR ENDED                      DECEMBER 31, 1996
                                    DECEMBER 31, 1993 (3/5/96)      (3/19/96) *$6,217
96-P-452 SENECA NATION
OF INDIANS, FISCAL YEAR             96-P-506 ORUTSARARMUIT          96-P-581 INDIAN
ENDED SEPTEMBER 30, 1995            NATIVE COUNCIL, FISCAL          TOWNSHIP TRIBAL
(2/22/96)                           YEAR ENDED                      GOVERNMENT, FISCAL YEAR
                                    DECEMBER 31, 1994 (3/5/96)      ENDED SEPTEMBER 30, 1996
96-P-453 FORT MOJAVE                                                (3/20/96)
INDIAN TRIBE, FISCAL YEAR           96-P-507 ORUTSARARMUIT
ENDED SEPTEMBER 30, 1995            NATIVE COUNCIL, FISCAL          96-P-597 WICHITA AND
(2/23/96) *$15,321                  YEAR ENDED                      AFFILIATED TRIBES, FISCAL
                                    DECEMBER 31, 1996 (3/5/96)      YEAR ENDED SEPTEMBER 30, 1996
96-P-464 CONFEDERATED               *$6,975                         (3/25/96)
TRIBES OF SILETZ INDIANS
OF OREGON, FISCAL YEAR              96-P-550 MASHANTUCKET           96-P-603 COW CREEK BAND
ENDED DECEMBER 31, 1996             PEQUOT TRIBAL NATION,           OF UMPQUA TRIBE OF
(2/27/96) *$19,054                  FISCAL YEAR ENDED               INDIANS, FISCAL YEAR
                                    SEPTEMBER 30, 1996              ENDED DECEMBER 31, 1996
96-P-465 YERINGTON                  (3/12/96)                       (3/25/96)
PAIUTE TRIBE, FISCAL YEAR
ENDED DECEMBER 31, 1996             96-P-564 TULE RIVER             96-P-610 TAOS PUEBLO,
(2/27/96)                           TRIBAL COUNCIL, FISCAL          FISCAL YEAR ENDED
                                    YEAR ENDED                      DECEMBER 31, 1995
96-P-472 GREAT LAKES                SEPTEMBER 30, 1996 (3/14/96)    (3/26/96) *$53,266
INDIAN FISH AND WILDLIFE
COMMISSION, FISCAL YEAR
ENDED DECEMBER 31, 1996
(2/28/96)




45                            Semiannual Report to the Congress: October 1, 1995 - March 31, 1996
96-P-627 SUSANVILLE            Virgin Islands                 96-P-575 WASHINGTON
INDIAN RANCHERIA, FISCAL                                      STATE PARKS AND
YEAR ENDED                     96-P-396 DEPARTMENT OF         RECREATION COMMISSION,
DECEMBER 31, 1996 (3/28/96)    JUSTICE, FISCAL YEAR           FISCAL YEAR ENDED
*$6,187                        ENDED SEPTEMBER 30, 1996       JUNE 30, 1996 (3/19/96)
                               (2/8/96)                       *$2,120
96-P-628 WASHOE TRIBE
OF NEVADA AND CALIFORNIA,      96-P-508 DEPARTMENT OF         96-P-576 WASHINGTON
FISCAL YEAR ENDED              EDUCATION, FISCAL YEAR         STATE PARKS AND
DECEMBER 31, 1995              ENDED SEPTEMBER 30, 1996       RECREATION COMMISSION,
(3/28/96)                      (3/1/96)                       FISCAL YEAR ENDED
                                                              JUNE 30, 1997 (3/19/96)
BUREAU OF                      96-P-535 ISLAND                *$16,738
RECLAMATION                    RESOURCES FOUNDATION
                               (NONPROFIT), FISCAL YEAR       96-P-604 WASHINGTON
                               ENDED JUNE 30, 1997            STATE DEPARTMENT OF
96-P-490 NORTH DAKOTA                                         ECOLOGY, FISCAL YEAR
                               (3/6/96)
WATER COMMISSION, FISCAL                                      ENDED JUNE 30, 1997
YEAR ENDED JUNE 30, 1997                                      (3/25/96)
                               96-P-608 CENTRAL
(3/1/96)
                               SERVICE COST ALLOCATION,
                               GOVERNMENT OF THE VIRGIN       96-P-612 NEVADA
INSULAR AREAS                  ISLANDS, FISCAL YEAR           DIVISION OF ENVIRONMENTAL
                               ENDED SEPTEMBER 30, 1996       PROTECTION, FISCAL YEAR
                               (3/26/96)                      ENDED JUNE 30, 1997
                                                              (3/27/96)
Commonwealth of the
Northern                       MULTI-OFFICE
                                                              NATIONAL PARK
Mariana Islands
                               96-P-72 CALIFORNIA             SERVICE
                               DEPARTMENT OF FISH AND
96-P-170 COMMONWEALTH
                               GAME, FISCAL YEAR ENDED        96-P-46 MINNESOTA
OF THE NORTHERN MARIANA
                               JUNE 30, 1995                  DEPARTMENT OF NATURAL
ISLANDS, FISCAL YEAR
                               (10/23/95)                     RESOURCES, FISCAL YEAR
ENDED SEPTEMBER 30, 1996
(11/22/95)                                                    ENDED JUNE 30, 1996
                               96-P-153 WASHINGTON            (10/13/95)
                               DEPARTMENT OF FISH AND
96-P-275 KARIDAT
                               WILDLIFE, FISCAL YEAR          96-P-86 SOUTH CAROLINA
(NORTHERN MARIANA ISLANDS
                               ENDED JUNE 30, 1996            DEPARTMENT OF ARCHIVES
CATHOLIC SOCIAL
                               (11/9/95) *$141,373            AND HISTORY, FISCAL YEAR
SERVICES), FISCAL YEAR
ENDED SEPTEMBER 30, 1993                                      ENDED JUNE 30, 1996
                               96-P-308 OREGON PARKS          (10/24/95)
(1/22/96)
                               AND RECREATION
                               DEPARTMENT, FISCAL YEAR        96-P-137 KENTUCKY
Guam                           ENDED JUNE 30, 1996            DEPARTMENT OF LOCAL
                               (1/26/96) *$13,995             GOVERNMENT, FISCAL YEAR
96-P-213 GOVERNMENT OF
                                                              ENDED JUNE 30, 1996
GUAM, FISCAL YEAR              96-P-534 HAWAII                (11/7/95)
ENDED SEPTEMBER 30, 1996       DEPARTMENT OF LAND AND
(12/5/95)                      NATURAL RESOURCES, FISCAL      96-P-276 GEORGIA
                               YEAR ENDED JUNE 30, 1997       DEPARTMENT OF NATURAL
96-P-306 UNIVERSITY OF         (3/8/96)                       RESOURCES, FISCAL
GUAM, FISCAL YEAR ENDED
                                                              YEAR ENDED JUNE 30, 1996
SEPTEMBER 30, 1996             96-P-542 ARIZONA GAME          (1/17/96)
(1/26/96)                      AND FISH DEPARTMENT,
                               FISCAL YEAR ENDED              96-P-373 MONTANA
Republic of Palau              JUNE 30, 1997 (3/11/96)        DEPARTMENT OF FISH,
                                                              WILDLIFE, AND PARKS,
96-P-614 REPUBLIC OF                                          FISCAL YEAR ENDED
PALAU, FISCAL YEAR                                            JUNE 30, 1997 (2/12/96)
ENDED SEPTEMBER 30, 1996
(3/26/96) *$124,303



Semiannual Report to the Congress: October 1, 1995 - March 31, 1996                       46
96-P-422 WYOMING                    96-P-211 MISSISSIPPI            OFFICE OF SURFACE
DEPARTMENT OF COMMERCE,             DEPARTMENT OF
FISCAL YEAR ENDED                   ENVIRONMENTAL QUALITY,          MINING RECLAMATION
JUNE 30, 1997 (2/20/96)             FISCAL YEAR ENDED               AND ENFORCEMENT
                                    JUNE 30, 1996 (12/5/95)
96-P-493 IOWA                                                       96-P-136 VIRGINIA
DEPARTMENT OF NATURAL               96-P-246 GEORGIA                DEPARTMENT OF
RESOURCES, FISCAL YEAR              DEPARTMENT OF NATURAL           CONSERVATION AND
ENDED JUNE 30, 1997                 RESOURCES COASTAL               RECREATION, FISCAL YEAR
(3/4/96)                            RESOURCES DIVISION,             ENDED JUNE 30, 1996
                                    FISCAL YEAR ENDED               (11/7/95)
96-P-496 KANSAS HISTORICAL          JUNE 30, 1996 (12/11/95)
SOCIETY, FISCAL YEAR ENDED
JUNE 30, 1997 (3/4/96)              96-P-334 OKLAHOMA
                                    DEPARTMENT OF WILDLIFE
96-P-549 MISSISSIPPI                CONSERVATION, FISCAL YEAR
DEPARTMENT OF ARCHIVES              ENDED JUNE 30, 1997
AND HISTORY, FISCAL YEAR            (2/5/96)
ENDED JUNE 30, 1997
(3/13/96)                           96-P-335 COLORADO
                                    DEPARTMENT OF NATURAL
96-P-600 CONNECTICUT                RESOURCES, FISCAL YEAR
HISTORICAL COMMISSION,              ENDED JUNE 30, 1996
TWO FISCAL YEARS ENDED              (2/5/96)
JUNE 30, 1997 (3/25/96)
                                    96-P-543 MISSOURI
96-P-611 LOUISIANA                  DEPARTMENT OF
DEPARTMENT OF CULTURE,              CONSERVATION,
RECREATION, AND TOURISM,            FISCAL YEAR ENDED
FISCAL YEAR ENDED                   SEPTEMBER 30, 1997 (3/11/96)
JUNE 30, 1997 (3/26/96)
*$7,715                             96-P-548 ARKANSAS
                                    DEPARTMENT OF GAME AND
96-P-632 PENNSYLVANIA               FISH COMMISSION, FISCAL
HISTORICAL AND MUSEUM               YEAR ENDED JUNE 30, 1997
COMMISSION, FISCAL YEAR             (3/12/96)
ENDED JUNE 30, 1997
(3/29/96)                           96-P-578 SOUTH DAKOTA
                                    DEPARTMENT OF GAME, FISH,
96-P-633 OHIO HISTORICAL            AND PARKS, FISCAL YEAR
SOCIETY, FISCAL YEAR ENDED          ENDED JUNE 30, 1997
JUNE 30, 1997 (3/28/96)             (3/20/96)

U.S. FISH AND                       U.S. GEOLOGICAL
WILDLIFE SERVICE                    SURVEY
96-P-138 AMERICAN                   96-P-495 KANSAS WATER
FISHERIES SOCIETY, FISCAL           OFFICE, FISCAL YEAR ENDED
YEAR ENDED                          JUNE 30, 1997 (3/4/96)
DECEMBER 31, 1994 (11/7/95)

96-P-209 MICHIGAN
DEPARTMENT OF NATURAL
RESOURCES, FISCAL YEAR
ENDED SEPTEMBER 30, 1996
(12/4/95)




47                            Semiannual Report to the Congress: October 1, 1995 - March 31, 1996
                                              APPENDIX 3
                                MONETARY IMPACT OF AUDIT ACTIVITIES
                                OCTOBER 1, 1995, THROUGH MARCH 31, 1996


                                                            FUNDS TO BE PUT TO
                  BUREAU          QUESTIONED COSTS             BETTER USE          REVENUES*

  Bureau of Indian Affairs                   $351,251                 $3,314,933       $14,000,000

    Bureau of Reclamation                              0               6,130,600        35,000,000

              Insular Areas

             America Samoa                             0               1,707,308                0

       Commonwealth of the
         Northern Marianas                             0             125,391,648        27,439,716

          Federated States of
                 Micronesia                     57,900                        0                 0

    Republic of the Marshall
                     Islands                 1,068,317                        0                 0

           Republic of Palau                           0                124,303                 0

                        Yap                         3,638                     0                 0

    Minerals Management
                 Service                       720,169                        0                 0

       Multi-Office Audits                             0              11,974,226                0

     National Park Service                             0                168,715                 0

   Office of Insular Affairs                   141,619                        0                 0

   Office of Surface Mining
           Reclamation and
               Enforcement                   1,837,357                  820,000                 0

      U.S. Bureau of Mines                      36,954                        0                 0

    U.S. Geological Survey                             0                  28,117                0

     U.S. Fish and Wildlife
                   Service                     191,512                  131,151                 0

                       Total                $4,408,717              $149,791,001       $76,439,716

*Represents lost or potential additional revenues




Semiannual Report to the Congress: October 1, 1995 - March 31, 1996                             48
                                             APPENDIX 4

                                TABLE I
         INSPECTOR GENERAL AUDIT REPORTS WITH QUESTIONED COSTS


                                                                                       Unsupported
                                 No. Of Reports*          Questioned Costs               Costs**
 A. For which no
 management decision
 had been made by the
 commencement of the
 reporting period                                 75             $55,306,695                 $2,167,741
 B. Which were issued
 during the reporting
 period                                           43               $4,408,717                  $896.611
     Total (A+B)                                 118             $59,715,412                 $3,064,352
 C. For which a
 management decision
 was made during the
 reporting period                                 45             $22,861,701                   $235,787
     (i) dollar value of
         disallowed costs                         29             $11,281,048                   $231,005
     (ii) dollar value of
          costs not
          disallowed                              25             $11,580,653                      $4,782
 D. For which no
 management decision
 had been made by the
 end of the reporting
 period                                           73             $36,853,711                 $2,828,565
 E. For which no
 management decision
 was made within six
 months of issuance                               38             $32,544,131                 $1,931,954
 *Report totals cannot be reconciled because some reports have dollar amounts in both the allowed and
 disallowed categories.

 **Unsupported costs are included in questioned costs.




49                          Semiannual Report to the Congress: October 1, 1995 - March 31, 1996
                                     APPENDIX 4

                         TABLE II
 INSPECTOR GENERAL AUDIT REPORTS WITH RECOMMENDATIONS
             THAT FUNDS BE PUT TO BETTER USE



                                                    No. Of Reports*        Dollar Value**
A. For which no management decision had
been made by the commencement of the
reporting period                                                      46    $134,065,550
B. Which were issued during the reporting
period                                                                63    $149,791,001
   Total (A+B)                                                    109       $283,856,551
C. For which a management decision was
made during the reporting period                                      65     $36,557,590
   (i) dollar value of recommendations
   that were agreed to by management                                  65     $36,463,515
   (ii) dollar value of recommendations
   that were not agreed to by management                               2         $94,075
D. For which no management decision had
been made by the end of the reporting period                          44    $247,298,961
E. For which no management decision was
made within six months of issuance                                    40    $121,387,596
*Report totals cannot be reconciled because some reports have dollar amounts in both
the agreed and disagreed categories.
**Amounts include preaward audits.




Semiannual Report to the Congress: October 1, 1995 - March 31, 1996                     50
                                     APPENDIX 4

                        TABLE III
 INSPECTOR GENERAL AUDIT REPORTS WITH LOST OR POTENTIAL
                 ADDITIONAL REVENUES



                                                    No. Of Reports*       Dollar Value
 A. For which no management decision had
 been made by the commencement of the
 reporting period                                                    6     $133,101,829
 B. Which were issued during the reporting
 period                                                              3      $76,439,716
     Total (A+B)                                                     9     $209,541,545
 C. For which a management decision was
 made during the reporting period                                    3      $34,198,932
     (i) dollar value of recommendations
         that were agreed to by management                           3      $34,198,932
     (ii) dollar value of recommendations
          that were not agreed to by
          management                                                 0                 $0
 D. For which no management decision had
 been made by the end of the reporting period                        6     $175,342,613
 E. For which no management decision was
 made within six months of issuance                                  4     $112,902,897
 *Report totals cannot be reconciled because some reports have dollar amounts in both
 the agreed and disagreed categories.




51                      Semiannual Report to the Congress: October 1, 1995 - March 31, 1996
                                                         APPENDIX 5
          SUMMARY OF AUDIT REPORTS OVER 6 MONTHS OLD
               PENDING MANAGEMENT DECISIONS

      This listing includes a summary of internal, contract (except preawards), grant, and single audit reports that were over 6 months
      old on March 31, 1996, and still pending a management decision. It provides report number, title, issue date, number of
      unresolved recommendations, and unresolved amount of monetary benefits identified in the audit report.




                                                  93-I-1271 DISTRIBUTION                            93-I-1195 IMPACT OF THE
  INTERNAL                                        FACILITIES, CENTRAL ARIZONA                       COMPACT OF FREE
                                                  PROJECT (07/19/93) -                              ASSOCIATION ON THE
  AUDITS                                          1 RECOMMENDATION &                                GOVERNMENT OF GUAM
                                                  $2,125,208 UNRESOLVED                             (06/28/93) - 1 RECOMMENDATION
                                                                                                    & $15,911,978 UNRESOLVED
  AMERICAN SAMOA                                  94-I-1312 ACCOUNTING FOR
                                                  FISCAL YEAR 1993                                  94-I-106 REVIEW OF GUAM'S
                                                  REIMBURSABLE EXPENDITURES                         GOVERNMENTWIDE TRAVEL
  93-I-1600 REVIEW OF GRANT
                                                  OF ENVIRONMENTAL                                  PRACTICES (11/26/93) -
  ADMINISTRATION,
                                                  PROTECTION AGENCY                                 16 RECOMMENDATIONS &
  DEPARTMENT OF EDUCATION,
                                                  SUPERFUND MONEY (09/30/94) -                      $1,689,650 UNRESOLVED
  AMERICAN SAMOA
                                                  1 RECOMMENDATION & $564,991
  GOVERNMENT (09/30/93) -
                                                  UNRESOLVED                                        94-I-980 FOOD STAMP
  3 RECOMMENDATIONS &
                                                                                                    PROGRAM, DEPARTMENT OF
  $306,637 UNRESOLVED
                                                                                                    PUBLIC HEALTH AND SOCIAL
                                                  INSULAR AREAS                                     SERVICES (07/25/94) -
  BUREAU OF LAND                                                                                    17 RECOMMENDATIONS &
                                                                                                    $646,028 UNRESOLVED
  MANAGEMENT                                      Commonwealth of the
  94-I-496 SALE OF MATERIALS
                                                  Northern Mariana                                  95-I-1202 FEDERAL GRANTS
                                                                                                    ADMINISTRATION, GUAM
  FROM PUBLIC LANDS, BUREAU                       Islands                                           COMMUNITY COLLEGE (08/22/95)
  OF LAND MANAGEMENT                                                                                -
  (03/31/94) - 1 RECOMMENDATION                   94-I-936 FOLLOWUP OF                              1 RECOMMENDATION
  & $3,062,000 UNRESOLVED                         RECOMMENDATIONS                                   UNRESOLVED
                                                  CONCERNING THE ECONOMIC
  BUREAU OF                                       DEVELOPMENT LOAN FUND,
                                                  COMMONWEALTH                                      Republic of the
  RECLAMATION                                     DEVELOPMENT AUTHORITY                             Marshall Islands
                                                  (07/18/94) -
  92-I-1128 REPAYMENT OF                          3 RECOMMENDATIONS                                 94-I-21 CAPITOL RELOCATION
  MUNICIPAL AND INDUSTRIAL                        UNRESOLVED                                        PROJECT, REPUBLIC OF THE
  WATER SUPPLY INVESTMENT                                                                           MARSHALL ISLANDS
  COSTS (08/13/92) -
  1 RECOMMENDATION & $958,000
                                                  Guam                                              (10/18/93) -
                                                                                                    2 RECOMMENDATIONS
  UNRESOLVED                                                                                        UNRESOLVED
                                                  92-I-597 SELECTION,
                                                  PROCUREMENT, AND
  92-I-1151 REVIEW OF THE COST
  ALLOCATION FOR THE CENTRAL
                                                  ADMINISTRATION OF WATER                           Virgin Islands
                                                  DISTRIBUTION PROJECTS,
  ARIZONA PROJECT (08/17/92) -
                                                  PUBLIC UTILITY AGENCY OF                          91-I-467 FOLLOWUP OF
  3 RECOMMENDATIONS &
                                                  GUAM, GOVERNMENT OF GUAM                          RECOMMENDATIONS
  $77,000,000 UNRESOLVED
                                                  (03/20/92) -                                      CONTAINED IN REPORT ON THE
                                                  3 RECOMMENDATIONS &                               ROAD FUND, GOVERNMENT OF
  93-I-577 PROPOSED DEFERRAL
                                                  $533,000 UNRESOLVED                               THE VIRGIN ISLANDS (02/19/91) -
  OF NOTICE OF SUBSTANTIAL
  COMPLETION OF THE CENTRAL                                                                         1 RECOMMENDATION
                                                  93-I-706 SELECTED SPECIAL                         UNRESOLVED
  ARIZONA PROJECT (02/19/93) -
                                                  REVENUE FUNDS, GOVERNMENT
  2 RECOMMENDATIONS
                                                  OF GUAM (03/15/93) -
  UNRESOLVED
                                                  7 RECOMMENDATIONS &
                                                  $39,330,411 UNRESOLVED




Semiannual Report to the Congress: October 1, 1995 - March 31, 1996                                                                       52
     92-I-1086 PERSONNEL                93-I-144 ACCOUNTING FOR                  95-E-481 EQUITABLE
     MANAGEMENT, GOVERNMENT             FISCAL YEAR 1991                         ADJUSTMENT PROPOSAL FROM
     OF THE VIRGIN ISLANDS              REIMBURSABLE EXPENDITURES                SHOR-FORM, INC., UNDER
     (08/03/92) -                       OF ENVIRONMENTAL                         BUREAU OF RECLAMATION
     6 RECOMMENDATIONS & $51,542        PROTECTION AGENCY                        CONTRACT NO. 1-CC-30-09150
     UNRESOLVED                         SUPERFUND MONEY, WATER                   (01/31/95) - $654,627
                                        RESOURCES DIVISION (11/09/92) -          UNRESOLVED
     93-I-363 INMATE CARE,              2 RECOMMENDATIONS &
     REHABILITATION, AND SAFETY,        $940,702 UNRESOLVED
     BUREAU OF CORRECTIONS,                                                      95-E-607 REQUEST FOR
     GOVERNMENT OF THE VIRGIN           94-I-983 ACCOUNTING FOR                  EQUITABLE ADJUSTMENT
     ISLANDS (12/31/92) -               FISCAL YEAR 1992                         SUBMITTED BY PCL CIVIL
     10 RECOMMENDATIONS                 REIMBURSABLE EXPENDITURES                CONSTRUCTORS, INC., UNDER
     UNRESOLVED                         OF ENVIRONMENTAL                         CONTRACT NO. 1-CC-30-09150
                                        PROTECTION AGENCY                        (02/28/95) - $1,062,524
     93-I-572 SUPPLY AND                SUPERFUND MONEY (07/25/94) -             UNRESOLVED
     EQUIPMENT MANAGEMENT,              2 RECOMMENDATIONS &
     DEPARTMENT OF EDUCATION,           $588,247 UNRESOLVED                      95-E-698 EQUITABLE
     GOVERNMENT OF THE VIRGIN                                                    ADJUSTMENT SUBMITTED BY
     ISLANDS (02/19/93) -                                                        KEARNEY ELECTRIC, INC.,
     9 RECOMMENDATIONS &                CONTRACT AND                             UNDER CONTRACT NO.
     $310,000 UNRESOLVED                                                         1-8-30-09150 (03/22/95) - $211,048
                                        GRANT AUDITS                             UNRESOLVED
     93-I-670 PERSONNEL, PROPERTY
     MANAGEMENT, AND                                                             95-E-745 EQUITABLE
     PROCUREMENT PRACTICES,             BUREAU OF INDIAN                         ADJUSTMENT PROPOSAL FROM
     BUREAU OF CORRECTIONS,             AFFAIRS                                  HARRIS/ARIZONA REBAR, INC.,
     GOVERNMENT OF THE VIRGIN                                                    UNDER BUREAU OF
     ISLANDS (03/11/93) -                                                        RECLAMATION CONTRACT NO.
                                        94-E-784 COSTS CLAIMED BY
     14 RECOMMENDATIONS &                                                        1-CC-30-09150 (03/31/95) - $853,012
                                        DIVERSIFIED BUSINESS
     $265,823 UNRESOLVED                                                         UNRESOLVED
                                        TECHNOLOGIES CORPORATION
                                        UNDER CONTRACT
     94-I-248 PROPERTY                                                           95-E-746 REQUEST FOR
                                        NO. CBM000047 (06/10/94) -
     MANAGEMENT FUNCTIONS,                                                       EQUITABLE ADJUSTMENT
                                        $825,170 UNRESOLVED
     POLICE DEPARTMENT,                                                          PROPOSAL SUBMITTED BY PCL
                                        (Circumstances beyond the Bureau's
     GOVERNMENT OF THE VIRGIN                                                    CONSTRUCTION SERVICES, INC.,
                                        control have delayed resolution of the
     ISLANDS (01/24/94) -                                                        UNDER CONTRACT NO.
     3 RECOMMENDATIONS &                costs.)                                  1-CC-30-09150 (03/31/95) -
     $457,000 UNRESOLVED                                                         $3,743,592 UNRESOLVED
                                        94-E-919 COSTS CLAIMED BY
     95-I-41 DIVISION OF TOURISM,       DIVERSIFIED BUSINESS                     95-E-886 NISSHO IWAI
     DEPARTMENT OF ECONOMIC             TECHNOLOGIES CORPORATION                 CORPORATION, OSAKA, JAPAN,
     DEVELOPMENT AND                    UNDER CONTRACT                           TERMINATION SETTLEMENT
     AGRICULTURE, GOVERNMENT            NO. CBM000147 (06/30/94) -               PROPOSAL SUBMITTED UNDER
     OF THE VIRGIN ISLANDS              $247,414 UNRESOLVED                      CONTRACT NO. 1425-3-CS-40-
     (10/28/94) -                       (Circumstances beyond the Bureau's       13860-DS-7890 (06/08/95) - $677,913
     4 RECOMMENDATIONS                  control have delayed resolution of the   UNRESOLVED
     UNRESOLVED                         costs.)
                                                                                 95-E-887 MITSUBISHI HEAVY
     U.S. GEOLOGICAL                    BUREAU OF                                INDUSTRIES, LTD., TAKASAGO,
                                                                                 JAPAN, TERMINATION
     SURVEY                             RECLAMATION                              SETTLEMENT PROPOSAL
                                                                                 SUBMITTED UNDER CONTRACT
     92-I-541 ACCOUNTING FOR            93-E-394 CLAIM FOR                       NO. 1425-3-CS-40-13860-DS-7890
     FISCAL YEAR 1990                   ADDITIONAL COMPENSATION                  (06/08/95) - $241,549
     REIMBURSABLE EXPENDITURES          SUBMITTED BY                             UNRESOLVED
     OF ENVIRONMENTAL                   TORNO-AMERICA, INC., UNDER
     PROTECTION AGENCY                  CONTRACT NO. 9-SP-40-0770/DC             95-E-1005 NISSHO IWAI,
     SUPERFUND MONEY, WATER             (01/08/93) - $2,364,646                  AMERICAN CORPORATION,
     RESOURCES DIVISION (03/09/92) -    UNRESOLVED                               TERMINATION SETTLEMENT
     7 RECOMMENDATIONS &                                                         PROPOSAL SUBMITTED UNDER
     $325,261 UNRESOLVED                95-E-197 REQUEST FOR                     CONTRACT NO. 1425-3-CS-40-
                                        EQUITABLE ADJUSTMENT                     13860 (06/14/95) - $371,675
                                        SUBMITTED BY QUALITY                     UNRESOLVED
                                        MECHANICAL CONTRACTORS,
                                        INC. (11/18/94) - $523,168
                                        UNRESOLVED




53                              Semiannual Report to the Congress: October 1, 1995 - March 31, 1996
                                                                       92-A-1179 MARIANA ISLANDS
  INSULAR AREAS                     U.S. GEOLOGICAL                    HOUSING AUTHORITY, FISCAL
                                    SURVEY                             YEAR ENDED SEPTEMBER 30,
                                                                       1989 (08/13/92) -
  Republic of the                   93-E-339 CLOSING STATEMENT,        1 RECOMMENDATION & $168,711
  Marshall Islands                  TGS TECHNOLOGY, INC.               UNRESOLVED
                                    (12/22/92) - $520,235
  95-E-951 GRANT AND TRUST          UNRESOLVED                         93-A-110 MARIANA ISLANDS
  FUNDS PROVIDED FOR THE                                               HOUSING AUTHORITY, FISCAL
  RONGELAP RESETTLEMENT                                                YEAR ENDED SEPTEMBER 30,
  PROJECT, REPUBLIC OF THE          SINGLE AUDITS                      1990 (10/26/92) -
  MARSHALL ISLANDS (05/22/95) -                                        1 RECOMMENDATION & $124,450
  $215,960 UNRESOLVED                                                  UNRESOLVED
                                    BUREAU OF LAND
                                                                       93-A-225 MARIANA ISLANDS
  Virgin Islands                    MANAGEMENT                         HOUSING AUTHORITY, FISCAL
                                                                       YEAR ENDED SEPTEMBER 30,
  95-I-1258 SCHOOL LUNCH                                               1991 (11/19/92) -
  PROGRAM, DEPARTMENT OF            95-A-979 RAVALLI COUNTY,
                                    MONTANA, FISCAL YEAR ENDED         1 RECOMMENDATION &
  EDUCATION, GOVERNMENT OF                                             $1,119,377 UNRESOLVED
  THE VIRGIN ISLANDS (09/12/95) -   JUNE 30, 1994 (06/01/95) -
  1 RECOMMENDATION                  3 RECOMMENDATIONS
                                    UNRESOLVED                         93-A-336 KARIDAT (NORTHERN
  UNRESOLVED                                                           MARIANAS CATHOLIC SOCIAL
                                    95-A-1087 GLACIER COUNTY,          SERVICES CORPORATION)
  MINERALS                          MONTANA, TWO FISCAL YEARS          (12/17/92) -
                                    ENDED JUNE 30, 1993 (07/05/95) -   5 RECOMMENDATIONS
  MANAGEMENT                        14 RECOMMENDATIONS                 UNRESOLVED
  SERVICE                           UNRESOLVED
                                                                       93-A-1563 COMMONWEALTH
  92-E-479 SMITHSONIAN                                                 DEVELOPMENT AUTHORITY,
  INSTITUTION, INCURRED COSTS
                                    INSULAR AREAS                      FISCAL YEAR ENDED
  FOR FISCAL YEAR 1988                                                 SEPTEMBER 30, 1988 (09/13/93) -
  (02/18/92) - $62,230 UNRESOLVED                                      52 RECOMMENDATIONS &
                                    Commonwealth of the                $4,998,398 UNRESOLVED
  93-E-809 SMITHSONIAN              Northern Mariana                   94-A-525 COMMONWEALTH
  INSTITUTION, INCURRED COSTS
  FOR FISCAL YEAR 1989              Islands                            DEVELOPMENT AUTHORITY,
  (03/24/93) - $1,706 UNRESOLVED                                       FISCAL YEAR ENDED
                                    91-A-731 COMMONWEALTH              SEPTEMBER 30, 1989 (04/15/94) -
  93-E-1394 SMITHSONIAN             UTILITIES CORPORATION,             45 RECOMMENDATIONS &
  INSTITUTION, INCURRED COSTS       FISCAL YEAR ENDED                  $6,078,308 UNRESOLVED
  FOR FISCAL YEAR 1990              SEPTEMBER 30, 1988 (04/26/91) -
  (08/02/93) - $76,662 UNRESOLVED   12 RECOMMENDATIONS &               94-A-574 COMMONWEALTH
                                    $6,087,882 UNRESOLVED              UTILITIES CORPORATION,
                                                                       FISCAL YEAR ENDED
  NATIONAL PARK                     91-A-803 MARIANA ISLANDS           SEPTEMBER 30, 1990 (05/06/94) -
  SERVICE                           HOUSING AUTHORITY, FISCAL          61 RECOMMENDATIONS &
                                    YEAR ENDED SEPTEMBER 30,           $166,509 UNRESOLVED
                                    1986 (05/07/91) -
  95-E-1236 BLACKINTON AND          1 RECOMMENDATION &                 94-A-818 COMMONWEALTH
  DECKER, DENVER, COLORADO,         $1,537,321 UNRESOLVED              UTILITIES CORPORATION,
  EQUITABLE ADJUSTMENT                                                 FISCAL YEAR ENDED
  CLAIM SUBMITTED TO THE            91-A-823 MARIANA ISLANDS           SEPTEMBER 30, 1991 (06/16/94) -
  NATIONAL PARK SERVICE             HOUSING AUTHORITY, FISCAL          42 RECOMMENDATIONS
  (08/18/95) - $1,164,535           YEAR ENDED SEPTEMBER 30,           UNRESOLVED
  UNRESOLVED                        1987 (05/10/91) -
                                    1 RECOMMENDATION & $455,857        94-A-836 COMMONWEALTH OF
                                    UNRESOLVED                         THE NORTHERN MARIANA
  U.S. BUREAU OF                                                       ISLANDS, FISCAL YEAR ENDED
  MINES                             91-A-824 MARIANA ISLANDS           SEPTEMBER 30, 1993 (06/20/94) -
                                    HOUSING AUTHORITY, FISCAL          59 RECOMMENDATIONS
                                    YEAR ENDED SEPTEMBER 30,           UNRESOLVED
  95-E-1393 KEYSTONE COMPUTER       1988 (05/10/91) -
  RESOURCES, INC., CLAIM FOR        1 RECOMMENDATION & $196,593
  EQUITABLE ADJUSTMENT              UNRESOLVED
  (09/28/95) - $215,415
  UNRESOLVED




Semiannual Report to the Congress: October 1, 1995 - March 31, 1996                                      54
                                         95-A-180 CHUUK ORGANIZATION
     94-A-1075 NORTHERN                  FOR COMMUNITY ACTION,
                                                                           Republic of Palau
     MARIANAS COLLEGE,                   FISCAL YEAR ENDED
                                                                           92-A-368 PALAU COMMUNITY
     COMMONWEALTH OF THE                 SEPTEMBER 30, 1993 (11/17/94) -
                                                                           ACTION AGENCY, FISCAL YEAR
     NORTHERN MARIANA ISLANDS,           1 RECOMMENDATION
                                                                           ENDED SEPTEMBER 30, 1990
     FISCAL YEAR ENDED                   UNRESOLVED
                                                                           (01/24/92) -
     SEPTEMBER 30, 1991 (07/29/94) -
                                                                           2 RECOMMENDATIONS & $2,593
     30 RECOMMENDATIONS & $4,600
     UNRESOLVED
                                         Kosrae                            UNRESOLVED

                                         94-A-367 STATE OF KOSRAE,         92-A-885 REPUBLIC OF PALAU,
     94-A-1083 MARIANA ISLANDS
                                         FEDERATED STATES OF               FISCAL YEAR ENDED
     HOUSING AUTHORITY, FISCAL
                                         MICRONESIA, FISCAL YEAR           SEPTEMBER 30, 1989 (06/05/92) -
     YEAR ENDED SEPTEMBER 30,
                                         ENDED SEPTEMBER 30, 1992          14 RECOMMENDATIONS &
     1993 (08/03/94) -
                                         (02/24/94) -                      $40,262 UNRESOLVED
     5 RECOMMENDATIONS
                                         9 RECOMMENDATIONS
     UNRESOLVED
                                         UNRESOLVED                        93-A-1053 PALAU COMMUNITY
                                                                           ACTION AGENCY, FISCAL YEAR
     95-A-784 COMMONWEALTH
                                                                           ENDED SEPTEMBER 30, 1991
     PORTS AUTHORITY, FISCAL             Pohnpei                           (05/11/93) -
     YEAR ENDED SEPTEMBER 30,
                                                                           12 RECOMMENDATIONS
     1994 (04/12/95) -                   91-A-398 POHNPEI STATE
                                                                           UNRESOLVED
     10 RECOMMENDATIONS                  GOVERNMENT, FISCAL YEAR
     UNRESOLVED                          ENDED SEPTEMBER 30, 1989
                                                                           93-A-1629 REPUBLIC OF PALAU,
                                         (02/04/91) - 1 RECOMMENDATION
                                                                           FISCAL YEAR ENDED
     95-A-1131 COMMONWEALTH OF           & $98,216 UNRESOLVED
                                                                           SEPTEMBER 30, 1990 (09/30/93) -
     THE NORTHERN MARIANA
                                                                           22 RECOMMENDATIONS &
     ISLANDS PUBLIC SCHOOL               94-A-491 POHNPEI COMMUNITY
                                                                           $401,843 UNRESOLVED
     SYSTEM, FISCAL YEAR ENDED           ACTION AGENCY, TWO FISCAL
     SEPTEMBER 30, 1992 (07/17/95) -     YEARS ENDED SEPTEMBER 30,
     15 RECOMMENDATIONS                                                    94-A-499 REPUBLIC OF PALAU,
                                         1992 (04/04/94) -
     UNRESOLVED                                                            FISCAL YEAR ENDED
                                         5 RECOMMENDATIONS
                                                                           SEPTEMBER 30, 1991 (04/06/94) -
                                         UNRESOLVED
                                                                           11 RECOMMENDATIONS &
     Federated States of                                                   $517,693 UNRESOLVED
                                         94-A-527 STATE OF POHNPEI,
     Micronesia                          FEDERATED STATES OF
                                                                           94-A-882 REPUBLIC OF PALAU,
                                         MICRONESIA, FISCAL YEAR
                                                                           FISCAL YEAR ENDED
     95-A-1043 FEDERATED STATES          ENDED SEPTEMBER 30, 1992
                                                                           SEPTEMBER 30, 1992 (06/27/94) -
     OF MICRONESIA NATIONAL              (04/19/94) -
                                                                           37 RECOMMENDATIONS & $4,085
     GOVERNMENT, FISCAL YEAR             21 RECOMMENDATIONS & $2,764
                                                                           UNRESOLVED
     ENDED SEPTEMBER 10, 1993            UNRESOLVED
     (06/27/95) -
                                                                           95-A-1395 MICRONESIAN
     10 RECOMMENDATIONS
     UNRESOLVED
                                         Yap                               OCCUPATIONAL COLLEGE,
                                                                           PALAU, TWO FISCAL YEARS
                                         94-A-371 STATE OF YAP,            ENDED SEPTEMBER 30, 1992
     Chuuk                               FEDERATED STATES OF               (09/28/95) -
                                         MICRONESIA, FISCAL YEAR           6 RECOMMENDATIONS
     91-A-505 CHUUK STATE                ENDED SEPTEMBER 30, 1992          UNRESOLVED
     GOVERNMENT, FISCAL YEAR             (02/25/94) -
     ENDED SEPTEMBER 30, 1989            22 RECOMMENDATIONS                Trust Territory of the
     (02/20/91) - 1 RECOMMENDATION       UNRESOLVED
     & $665,817 UNRESOLVED                                                 Pacific Islands
                                         95-A-57 YAP COMMUNITY
     92-A-519 CHUUK STATE                ACTION PROGRAM FOR TWO            91-A-1112 TRUST TERRITORY OF
     GOVERNMENT, FISCAL YEAR             FISCAL YEARS ENDED                THE PACIFIC ISLANDS, FISCAL
     ENDED SEPTEMBER 30, 1990            SEPTEMBER 30, 1993 (10/19/94) -   YEAR ENDED SEPTEMBER 30,
     (02/25/92) - 1 RECOMMENDATION       5 RECOMMENDATIONS                 1990 (07/31/91) - $437,482
     & $1,940,938 UNRESOLVED             UNRESOLVED                        UNRESOLVED

     94-A-374 STATE OF CHUUK,
     FEDERATED STATES OF
                                         Republic of the                   Virgin Islands
     MICRONESIA, FISCAL YEAR             Marshall Islands                  92-A-107 VIRGIN ISLANDS
     ENDED SEPTEMBER 30, 1992
     (02/28/94) -                                                          WATER AND POWER AUTHORITY
                                         91-A-91 REPUBLIC OF THE
     15 RECOMMENDATIONS                                                    (10/16/91) -
                                         MARSHALL ISLANDS
     UNRESOLVED                                                            3 RECOMMENDATIONS
                                         COMMUNITY ACTION AGENCY,
                                                                           UNRESOLVED
                                         FISCAL YEAR ENDED
                                         SEPTEMBER 30, 1988 (10/19/90) -
                                         4 RECOMMENDATIONS & $43,023
                                         UNRESOLVED




55                               Semiannual Report to the Congress: October 1, 1995 - March 31, 1996
  93-A-177 UNIVERSITY OF THE
  VIRGIN ISLANDS, TWO FISCAL
  YEARS ENDED SEPTEMBER 30,
  1991 (11/05/92) -
  4 RECOMMENDATIONS
  UNRESOLVED

  NATIONAL PARK
  SERVICE
  95-A-1199 PORTER COUNTY,
  INDIANA, FISCAL YEAR ENDED
  DECEMBER 31, 1993 (08/02/95) -
  1 RECOMMENDATION & $60,000
  UNRESOLVED

  OFFICE OF SURFACE
  MINING
  RECLAMATION AND
  ENFORCEMENT
  95-A-991 NORTH DAKOTA, TWO
  FISCAL YEARS ENDED JUNE 30,
  1992 (06/01/95) -
  9 RECOMMENDATIONS
  UNRESOLVED
  U.S. FISH AND
  WILDLIFE SERVICE
  95-A-1304 GEORGIA, FISCAL
  YEAR ENDED JUNE 30, 1994
  (09/07/95) -
  1 RECOMMENDATION
  UNRESOLVED




Semiannual Report to the Congress: October 1, 1995 - March 31, 1996   56
                                                           APPENDIX 6
       SUMMARY OF INTERNAL AUDIT REPORTS OVER 6 MONTHS
              OLD PENDING CORRECTIVE ACTION


        This is a listing of internal audit reports with management decisions over 6 months old for which corrective action has not been
        completed. It provides report number, title, issue date, and the number of recommendations without final corrective action. These
        audits were included in the Department's semiannual audit followup report for the period ended September 30, 1995, and continue
        to be monitored by the Chief, Division of Management Control and Audit Follow-up, Assistant Secretary - Policy, Management and
        Budget, for completion of corrective action.


                                                     92-I-140 COMPLIANCE WITH THE                     95-I-747 RIGHT-OF-WAY-
     INTERNAL                                        FEDERAL MANAGERS'                                GRANTS, BUREAU OF LAND
                                                     FINANCIAL INTEGRITY ACT OF                       MANAGEMENT (03/31/95) -
     AUDITS                                          1982 FOR FISCAL YEAR 1991                        2 RECOMMENDATIONS
                                                     (11/18/91) - 1 RECOMMENDATION
     BUREAU OF INDIAN                                92-I-636 HARDROCK MINING
                                                                                                      BUREAU OF
     AFFAIRS                                         SITE RECLAMATION (03/30/92) -                    RECLAMATION
                                                     2 RECOMMENDATIONS
     C-IA-BIA-42-88 IRRIGATION                                                                        90-I-106 IRRIGATION AND CROP
     OPERATION AND MAINTENANCE                       92-I-828 ONSHORE                                 SUBSIDY PROGRAMS (09/28/90) -
     ASSESSMENTS (02/03/88) -                        GEOPHYSICAL EXPLORATION                          1 RECOMMENDATION
     3 RECOMMENDATIONS &                             PROGRAM (05/26/92) -
     $145,OOO                                        2 RECOMMENDATIONS                                91-I-1085 ASSESSMENT OF USER
                                                                                                      CHARGES AFTER INITIAL
     89-I-38 REPAYMENT OF                            94-I-1135 RENTAL FEES FOR                        PROJECT REPAYMENT (08/05/91) -
     INVESTMENT IN INDIAN                            UNPATENTED MINING CLAIMS                         1 RECOMMENDATION
     IRRIGATION PROJECTS                             (08/22/94) - 1 RECOMMENDATION
     (01/25/90) -                                                                                     91-I-1445 IMPLEMENTATION OF
     5 RECOMMENDATIONS                               94-I-1249 BUREAU OF LAND                         THE FEDERAL FINANCIAL
                                                     MANAGEMENT FINANCIAL                             SYSTEM (09/30/91) -
     94-I-1131 MAINTENANCE OF                        STATEMENTS FOR FISCAL                            2 RECOMMENDATIONS
     DETENTION FACILITIES                            YEARS 1992 AND 1993
     (08/22/94) -                                    (08/31/94) - 1 RECOMMENDATION                    92-I-269 RECOVERY OF
     3 RECOMMENDATIONS                                                                                OPERATION AND MAINTENANCE
                                                     94-I-1351 LAW ENFORCEMENT                        PROGRAM EXPENSES (12/27/91) -
     95-I-598 BUREAU OF INDIAN                       ACTIVITIES (09/30/94) -                          1 RECOMMENDATION
     AFFAIRS PRINCIPAL FINANCIAL                     1 RECOMMENDATION &
     STATEMENTS FOR FISCAL                           $1,300,000                                       92-I-887 MISCELLANEOUS
     YEARS 1993 AND 1994 (02/28/95) -                                                                 REVENUE COLLECTION AND
     3 RECOMMENDATIONS                               95-I-379 FOLLOWUP OF                             DISTRIBUTION (06/12/92) -
                                                     RECOMMENDATIONS RELATING                         2 RECOMMENDATIONS
                                                     TO BUREAU OF LAND
     BUREAU OF LAND                                  MANAGEMENT USER CHARGES                          93-I-810 IMPLEMENTATION OF
     MANAGEMENT                                      FOR MINERAL-RELATED                              THE COLORADO RIVER BASIN
                                                     DOCUMENT PROCESSING                              SALINITY CONTROL PROGRAM
     89-I-25 USER CHARGES FOR                        (01/23/95) -                                     (03/31/93) -
     MINERAL-RELATED DOCUMENT                        2 RECOMMENDATIONS                                3 RECOMMENDATIONS
     PROCESSING (11/29/88) -
     1 RECOMMENDATION &                              95-I-638 ONSHORE OIL AND GAS                     93-I-1302 DEPARTMENT OF THE
     $2,200,000                                      LEASING ACTIVITIES, BUREAU                       INTERIOR IRRIGATION
                                                     OF LAND MANAGEMENT                               DRAINAGE PROGRAMS (7/26/93) -
     90-I-100 DRAINAGE                               (03/20/95) -                                     2 RECOMMENDATIONS
     PROTECTION PROGRAM                              2 RECOMMENDATIONS
     (09/19/90) - 1 RECOMMENDATION                                                                    93-I-1416 FINANCING AND
                                                     95-I-709 WIND ENERGY RIGHT-                      REPAYMENT ARRANGEMENTS
                                                     OF-WAY GRANTS, BUREAU OF                         RELATED TO THE HOOVER DAM
                                                     LAND MANAGEMENT (03/31/95) -                     POWERPLANT UPRATING
                                                     4 RECOMMENDATIONS &                              PROGRAM (08/16/93) -
                                                     $908,367                                         3 RECOMMENDATIONS &
                                                                                                      $4,772,000



57                                     Semiannual Report to the Congress: October 1, 1995 - March 31, 1996
  93-I-1586 HIGH PLAINS STATES    95-I-567 U.S. FISH AND WILDLIFE    92-I-204 NATIONAL NATURAL
  GROUNDWATER                     SERVICE FINANCIAL                  LANDMARKS PROGRAM
  DEMONSTRATION PROGRAM,          STATEMENTS FOR FISCAL              (12/05/91) -
  BUREAU OF RECLAMATION           YEARS 1993 AND 1994 (02/24/95) -   4 RECOMMENDATIONS
  (09/27/93) -                    3 RECOMMENDATIONS
  2 RECOMMENDATIONS                                                  93-I-1615 RECREATIONAL
                                                                     ASSISTANCE PROVIDED TO
  93-I-1599 ACCOUNTING FOR
                                  U.S. GEOLOGICAL                    STATE AND LOCAL
  FISCAL YEAR 1992                SURVEY                             GOVERNMENTS (09/30/93) -
  REIMBURSABLE EXPENDITURES                                          1 RECOMMENDATION
  OF ENVIRONMENTAL
  PROTECTION AGENCY               89-I-114 INVENTORY AND SALES       94-I-7 NATIONAL PARK SERVICE
  SUPERFUND MONEY (09/30/93) -    MANAGEMENT, NATIONAL               GRANT TO THE CITY OF
  2 RECOMMENDATIONS               MAPPING DIVISION (09/18/89) -      CHESTER, PENNSYLVANIA
                                  2 RECOMMENDATIONS                  (10/5/93) - 1 RECOMMENDATION
  93-I-1641 PICK-SLOAN MISSOURI                                      & $199,999
  RIVER BASIN PROGRAM COST        92-I-1418 IMPLEMENTATION OF
  ALLOCATION (09/30/93) -         THE FEDERAL FINANCIAL              94-I-1211 CONCESSIONS
  5 RECOMMENDATIONS               SYSTEM (09/30/92) -                MANAGEMENT IMPROVEMENT
                                  2 RECOMMENDATIONS                  (09/26/94) -
  94-I-884 DEVELOPMENT STATUS                                        2 RECOMMENDATIONS
  OF THE DOLORES AND THE          95-I-582 U.S. GEOLOGICAL
  ANIMAS-LA PLATA PROJECTS        SURVEY PRINCIPAL FINANCIAL         95-I-647 SELECTED
  (07/11/94) - 1 RECOMMENDATION   STATEMENTS FOR FISCAL              ADMINISTRATIVE FUNCTIONS,
                                  YEARS 1993 AND 1994 (02/24/95) -   VIRGIN ISLANDS NATIONAL
  94-I-930 IRRIGATION OF          2 RECOMMENDATIONS                  PARK, NATIONAL PARK SERVICE
  INELIGIBLE LANDS (07/11/94) -                                      (03/20/95) -
  3 RECOMMENDATIONS               95-I-725 FEDERAL-STATE             4 RECOMMENDATIONS
                                  COOPERATIVE PROGRAM,
                                  WATER RESOURCES DIVISION,          95-I-1394 HARPERS FERRY JOB
  U.S. FISH AND                   U.S. GEOLOGICAL SURVEY             CORPS CENTER (09/30/95) -
  WILDLIFE SERVICE                (03/31/95) -                       2 RECOMMENDATIONS
                                  4 RECOMMENDATIONS &
                                  $6,800,000
  92-I-1348 IMPLEMENTATION OF                                        OFFICE OF SURFACE
  THE FEDERAL FINANCIAL
  SYSTEM (09/18/92) -             MINERALS                           MINING
  3 RECOMMENDATIONS
                                  MANAGEMENT                         RECLAMATION AND
  93-I-864 AUTOMATED DATA         SERVICE                            ENFORCEMENT
  PROCESSING MANAGEMENT
  (03/31/93) - 1 RECOMMENDATION   92-I-130 OFFSHORE INSPECTION       93-I-1198 SELECTED GRANT
  &                               PROGRAM (11/12/91) -               OVERSIGHT ACTIVITIES
  $179,000                        1 RECOMMENDATION                   (07/01/93) - 1 RECOMMENDATION
                                                                     &
  94-I-62 LAW ENFORCEMENT         92-I-657 GAS CONTRACT              $382,186
  SPECIAL FUNDS, U.S. FISH AND    SETTLEMENTS (03/30/92) -
  WILDLIFE SERVICE (11/8/93) -    1 RECOMMENDATION
  1 RECOMMENDATION
                                                                     OFFICE OF THE
                                  93-I-780 SURETY BONDS ISSUED       SECRETARY
  94-I-408 FARMING OPERATIONS     IN LIEU OF DISPUTED PAYMENTS
  CONDUCTED BY THE U.S. FISH      (03/29/93) - 1 RECOMMENDATION      93-I-53 OFFICE OF
  AND WILDLIFE SERVICE                                               CONSTRUCTION MANAGEMENT,
  (03/21/94) - 1 RECOMMENDATION   94-I-127 FOLLOWUP REVIEW OF        FACILITIES MANAGEMENT
                                  SELECTED ROYALTY AUDIT             (10/23/92) -
  95-I-208 FOLLOWUP OF            ACTIVITIES (12/9/93) -             2 RECOMMENDATIONS
  RECOMMENDATIONS                 1 RECOMMENDATION
  CONCERNING USER CHARGES                                            94-I-38 FOLLOWUP OF
  AND COLLECTIONS, U.S. FISH                                         RECOMMENDATIONS
  AND WILDLIFE SERVICE            NATIONAL PARK                      PERTAINING TO THE OFFICE OF
  (12/02/94) -                    SERVICE                            AIRCRAFT SERVICES (10/29/93) -
  1 RECOMMENDATION &                                                 2 RECOMMENDATIONS
  $2,970,736                      91-I-532 WASTE DISPOSAL
                                  ACTIVITIES AND HOUSEBOAT
  95-I-376 CONCESSION FEES,       RENTAL OPERATIONS AT GLEN
  U.S. FISH AND WILDLIFE          CANYON NATIONAL
  SERVICE (01/17/95) -            RECREATION AREA (03/08/91) -
  2 RECOMMENDATIONS               2 RECOMMENDATIONS




Semiannual Report to the Congress: October 1, 1995 - March 31, 1996                                   58
                                           APPENDIX 7

                        NON-FEDERAL FUNDING INCLUDED IN
                       MONETARY IMPACT OF AUDIT ACTIVITIES
                        DURING THE 6-MONTH PERIOD ENDED
                                 MARCH 31, 1996


     No. 96-I-533 - "American Samoa Legislature, American Samoa Government," dated March
     22, 1996. All of the $1,707,308 reported as monetary impact represents insular area funds.

     No. 96-I-596 - "Management of Public Land, Commonwealth of the Northern Mariana
     Islands," dated March 20, 1996. All of the $152,831,364 reported as monetary impact
     represents insular area funds.




59                          Semiannual Report to the Congress: October 1, 1995 - March 31, 1996
                                            APPENDIX 8
           STATUTORY AND ADMINISTRATIVE RESPONSIBILITIES

 The Inspector General Act of 1978 (Public Law 95-452), as amended, sets forth specific requirements
 for semiannual reports to be made to the Secretary for transmittal to the Congress. A selection of other
 statutory and administrative responsibilities of the OIG follows:

                         STATUTORY AUDIT RESPONSIBILITIES

 P.L. 96-510         Comprehensive Environmental Response, Compensation and Liability Act
                       (Superfund)
 P.L.   97-357       Insular Areas Act of 1982
 P.L.   97-451       Federal Oil and Gas Royalty Management Act of 1982
 P.L.   98-502       Single Audit Act of 1984
 P.L.   99-499       Superfund Amendments and Reauthorization Act of 1986
 P.L.   101-576      Chief Financial Officers Act of 1990

 General Accounting Office "Government Auditing Standards"

                          ADMINISTRATIVE RESPONSIBILITIES

 Office of Management and Budget Circulars and Bulletin:

        A-21         Cost Principles for Educational Institutions
        A-25         User Charges
        A-50         Audit Followup
        A-70         Policies and Guidelines for Federal Credit Programs
        A-73         Audit of Federal Operations and Programs
        A-76         Performance of Commercial Activities
        A-87         Cost Principles for State and Local Governments
        A-88         Indirect Cost Rates, Audit, and Audit Followup at Educational Institutions
        A-102        Grants and Cooperative Agreements With State and Local Governments
        A-110        Uniform Administrative Requirements for Grants and Other Agreements
                       With Institutions of Higher Education, Hospitals, and Other Nonprofit
                       Organizations
        A-122        Cost Principles for Nonprofit Organizations
        A-123        Internal Control Systems
        A-127        Financial Management Systems
        A-128        Audits of State and Local Governments
        A-129        Managing Federal Credit Programs
        A-131        Value Engineering
        A-133        Audits of Institutions of Higher Education and Other Nonprofit
                       Institutions
        93-06        Audit Requirements for Federal Financial Statements (Bulletin)




Semiannual Report to the Congress: October 1, 1995 - March 31, 1996                                         60
                    CRIMINAL AND CIVIL INVESTIGATIVE AUTHORITIES

     Criminal investigative authorities include:

            Title 18, United States Code, section on crime and criminal procedures as they pertain to OIG's
            oversight of DOI programs and employee misconduct.

            Civil and administrative investigative authorities include civil monetary penalty authorities such
            as those at:

               - Title 31, United States Code, Section 3801 et seq., the Program Fraud Civil Remedies Act.




61                              Semiannual Report to the Congress: October 1, 1995 - March 31, 1996
                                         APPENDIX 9
             CROSS-REFERENCES TO THE INSPECTOR GENERAL ACT

                                                                                Page
 Inspector General Act, as amended

 Section 4(a)(2)                     Review of Legislation and                    12
                                     Regulations

 Section 5(a)(1)                     Significant Problems,                      13-25
                                     Abuses, and Deficiencies

 Section 5(a)(2)                     Recommendations With Respect               13-25
                                     to Significant Problems,
                                     Abuses, and Deficiencies

 Section 5(a)(3)                     Summary of Audits From Agency's            57-59
                                     Previous Report on Which Corrective
                                     Action Has Not Been Completed

 Section 5(a)(4)                     Matters Referred to                           v
                                     Prosecutive Authorities

 Section 5(a)(5)                     Summary of Instances Where                  N/A
                                     Information Was Refused

 Section 5(a)(6)                     List of Audit Reports                      27-47

 Section 5(a)(7)                     Summary of Significant Reports             13-25

 Section 5(a)(8)                     Statistical Table - Questioned Costs         49

 Section 5(a)(9)                     Statistical Table - Recommendations That     50
                                     Funds Be Put To Better Use

 Section 5(a)(10)                    Summary of Audit Reports Issued            52-56
                                     Before the Commencement of the
                                     Reporting Period for Which No
                                     Management Decision Has Been Made

 Section 5(a)(11)                    Significant Revised Management              N/A
                                     Decisions Made During the
                                     Reporting Period

 Section 5(a)(12)                    Management Decisions With Which             N/A
                                     the Inspector General Is in
                                     Disagreement




Semiannual Report to the Congress: October 1, 1995 - March 31, 1996                     62
                                                              I




GENERAL INFORMATION


Send Requests for Publications to:

U.S. Department of the Interior      (202) 219-3840
Office of Inspector General
1849 C Street, NW.
Mail Stop 5341, MIB
Washington, DC 20240

Facsimile Number:                    (202) 208-4998

World Wide Web Site:                 www.access.gpo.gov/doi




HOTLINE
Toll Free Numbers:                   1-800-424-5081
                                     TDD 1-800-354-0996

FTS/Commercial Numbers:              (703) 235-9399
                                     TDD (703) 235-9403

1550 Wilson Boulevard
Suite 402
Arlington, Virginia 22209
    ILLEGAL OR WASTEFUL ACTIVITIES
    SHOULD BE REPORTED TO THE
    OFFICE OF INSPECTOR GENERAL BY:

    Sending Written Documents to:         Calling:

                    Within the Continental United States
    U.S. Department of the Interior       Our 24-hour Telephone HOTLINE
1   Office of Inspector General           1-800-424-5081 or (703) 235-9399
    1550 Wilson Boulevard
    Suite 402                             TDD for hearing impaired
    Arlington, Virginia 22209             (703) 235-9403 or 1-800-354-0996



                   Outside the Continental United States

                                 Caribbean Region
    U.S. Department of the Interior       (703) 235-9221
    Office of Inspector General
    Eastern Division - Investigations
    1550 Wilson Boulevard
    Suite 410
    Arlington, Virginia 22209

                               North Pacific Region
    U.S. Department of the Interior       (700) 550-7279 or
    Office of Inspector General           COMM 9-011-671-472-7279
    North Pacific Region
    238 Archbishop F.C. Flores Street
    Suite 807, PDN Building
    Agana, Guam 96910
